<html>
<title> - ENDING MODERN SLAVERY: WHAT IS THE BEST WAY FORWARD?</title>
<body><pre>[Senate Hearing 114-68]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 114-68

                         ENDING MODERN SLAVERY

=======================================================================

                                HEARINGS

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                    FEBRUARY 4 AND FEBRUARY 11, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-256 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                              (ii)        

  










                            C O N T E N T S

                              ----------                              

                      Wednesday, February 4, 2015
          ENDING MODERN SLAVERY: WHAT IS THE BEST WAY FORWARD?

                                                                   Page
Abramowitz, David, vice president, Policy and Government 
  Relations, Humanity United, Washington, DC.....................    42
    Prepared statement...........................................    45
Annan, James Kofi, founder, Challenging Heights, Kaneshi, Accra, 
  Ghana..........................................................    37
    Prepared statement...........................................    38
Bader-Blau, Shawna, executive director, Solidarity Center, 
  Washington, DC.................................................     8
    Prepared statement...........................................    10
Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     1
Haugen, Gary, president, International Justice Mission, 
  Arlington, VA..................................................     3
    Prepared statement...........................................     6
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     2
Woworuntu, Shandra, trafficking survivor, New York, NY...........    39
    Prepared statement...........................................    41

              Additional Material Submitted for the Record

Article from Capitol Hill Publishing Corp. submitted by David 
  Abramowitz.....................................................    58
                                 ------                                

                      Wednesday, February 11, 2015
         ENDING MODERN DAY SLAVERY: THE ROLE OF U.S. LEADERSHIP

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.    61
Menendez, Robert, U.S. Senator from New Jersey, opening statement    62
Sewall, Hon. Sarah, Under Secretary of State for Civilian 
  Security, Democracy, and Human Rights, U.S. Department of 
  State, Washington, DC..........................................    63
    Prepared statement...........................................    65
    Responses to questions submitted for the record by:
      Senator Robert Menendez....................................    83
      Senator Marco Rubio........................................    91

                                 (iii)

  

 
          ENDING MODERN SLAVERY: WHAT IS THE BEST WAY FORWARD?

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Rubio, Johnson, Flake, 
Gardner, Isakson, Menendez, Cardin, Shaheen, Coons, and Kaine.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will now come 
to order. We have convened this hearing to examine modern 
slavery and what is being done about it. We recognize that the 
United States Congress and our executive agencies have worked 
hard to draw attention to and address modern slavery, but I 
believe we have come to a point where we can do more. We need 
to take these efforts to the next level.
    I think most Americans would be stunned to know that 
slavery still exists in this world. Let me pause to state that 
again. It is difficult to imagine that in this modern day, more 
than 27 million around the world are forced to live as slaves. 
At this hearing, in addition to our expert witnesses, we will 
hear from two individuals who suffered and ultimately escaped 
this experience, and went on to help others. And we thank them 
for being with us today.
    Modern forms of slavery thrive where the rule of law is 
weakest. Corruption, crime, and cultural attitudes contribute 
to a climate of low risk and impunity for those who profit from 
modern slavery. In many instances, modern slavery is a crime of 
opportunity for perpetrators. It is often practiced quite 
openly, for example, in brick or rug manufacturing or in bars 
or brothels.
    Under U.S. law, such conditions are defined as the most 
severe forms of trafficking in persons, including forced sexual 
servitude of minors and adults and persons in bonded and other 
forced labor conditions. Women, children, and men alike are 
subjected to involuntary labor or sexual exploitation. 
According to a leading nongovernmental organization, forced 
labor accounts for 74 percent of victims, and forced sexual 
servitude accounts for 26 percent of victims. Women and girls 
are especially vulnerable, accounting for 54 percent of 
victims. Children under the age of 18 account for 26 percent of 
victims.
    We have been to countries and met with people who have 
survived this horrific experience, and heard from people who 
work to end modern slavery. U.S. Government and private 
philanthropic funding are spurring increasingly sophisticated 
efforts to combat modern slavery. There is a growing consensus 
that in order to end the practice of modern slavery, reliable 
baseline data and consistent and effective monitoring and 
evaluation are needed to deal with this issue. Leveraging and 
coordinating private and government funding are also seen as 
key challenges by many in the antimodern slavery community.
    Today we will explore these questions to help inform our 
thinking on how we can maximize our efforts and take them to 
the next level, and to find the best way forward to begin the 
process in earnest of putting an end to modern slavery. With 
that, I turn to our distinguished ranking member, Bob Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, and thanks for 
calling a very important hearing. Human trafficking in the form 
of sexual exploitation, forced labor, forced marriage, debt 
bondage, and the sale and exploitation of children is one of 
the greatest moral challenges of our time. And the numbers are 
staggering.
    As we speak, there are 50 million refugees and displaced 
people in the world, the largest number since World War II. All 
are at risk of exploitation, and some will fall victim to human 
trafficking. This is not a new phenomenon, but there are new, 
more sinister factors exacerbating it. With the growth of 
transnational organized crime, the rise of brutal nihilistic 
groups, like ISIL and Boko Haram, and sectarian violence 
forcing millions to flee their homes.
    The International Labor Organization estimates that there 
are at least 21 million victims of human trafficking in the 
world. Over 5 million of them are children. It is estimated 
that forced labor alone generates $150-plus billion in profits 
annually, making it the second-largest income source for 
international criminals next to the drug trade, making it 
obscenely lucrative for unscrupulous labor brokers to induce 
people to cross borders, thinking that they are going for legal 
work, only to trap them in labor or sexual exploitation.
    NGOs and civil society have been doing what they can to 
combat human trafficking, and business and governments should 
do more to help. Governments can muster more political will, 
companies can clean up their supply chains and make that 
information public, and the public can be more aware of who 
picks the fruit on their breakfast cereal in the morning, or 
who slaved in the sweatshop to sell the shirt on their back. 
This hearing helps raise that awareness.
    And with that, Mr. Chairman, I will look forward to working 
with you in the coming months on a bipartisan approach to 
ending every form of human trafficking around the world.
    The Chairman. Thank you, and I want to thank others for 
being here. We will now turn to our witnesses, and we 
appreciate the tremendous commitment that they have shown in 
this effort.
    Our first witness is Gary Haugen, the founder and president 
of International Justice Mission, IJM, a global organization 
that protects the poor from violence by partnering with local 
authorities to rescue victims, bring criminals to justice, 
restore survivors, and strengthen justice systems. IJM combats 
modern slavery, sex trafficking, rape, police brutality, 
property grabbing, and other forms of violence in Africa, Latin 
America, South Asia, Southeast Asia.
    Before founding IJM, he served as the director of the U.N. 
investigation of the aftermath of the Rwandan genocide, and as 
a human rights attorney for the U.S. Department of Justice. He 
has been recognized by the U.S. State Department as a 
trafficking in persons hero. I have gotten to know him 
personally, and he certainly deserves that recognition.
    Our second witness is Shawna Bader-Blau. I am going to call 
you ``Shawna'' if that is okay. [Laughter.]
    Shawna is the executive director of the Solidarity Center 
in Washington, DC, the largest global worker rights 
organization in the United States. Solidarity Center works with 
partners and allies from more than 400 unions, nongovernmental 
organizations, legal aid groups, and human rights defenders 
from around the world to help workers exercise their rights and 
improve their working conditions.
    Prior to her appointment as executive director, she served 
as the Solidarity Center's regional program director for the 
Middle East and North Africa, where she worked directly with 
victims of forced labor and human trafficking, and with labor 
activists and human rights defenders.
    Thank you for being here and for sharing your thoughts and 
viewpoints today. We would like to remind you that your full 
testimony, full statements will be included in the record 
without objection. So if you could please keep your remarks to 
about 5 minutes, we would appreciate it so members can engage 
you in questions. And with that, Mr. Haugen, if you would 
begin, we would appreciate it.

  STATEMENT OF GARY HAUGEN, PRESIDENT, INTERNATIONAL JUSTICE 
                     MISSION, ARLINGTON, VA

    Mr. Haugen. Thank you, Mr. Chairman, and thank you very 
much for your extraordinary leadership in convening this 
hearing. I would just like to say that I know that you, the 
Senators who are on this committee have before you a whole 
world of threats and crises, and it is a fair question as to 
whether modern day slavery actually merits this kind of 
attention today. As the leader of what is now the world's 
largest antislavery organization, I just want to assure you of 
three things. Number one, slavery is as brutal as ever. Number 
two, it is more vast than ever, but also, thirdly, it is more 
stoppable than ever.
    So, first, it is more brutal than ever, and it is as brutal 
as it has ever been because violence is still at the core of 
slavery. Whatever you might have seen of 19th century slavery 
in the movie ``12 Years a Slave,'' those horrible scenes still 
take place today. In the case files of International Justice 
Mission, we have murders, mutilations, kidnappings, rapes, 
torture. It is brutally violent. A couple of our clients just 
recently had their hands chopped off because they ran away from 
their traffickers.
    So it is as brutal as it has ever been, but surprisingly it 
is vaster than it has ever been. I think the best estimates on 
the numbers come from the Global Slavery Index, which put 
slavery at more than 35 million, which is three times larger 
than all the slaves extracted from Africa during 400 years of 
the transatlantic slave trade.
    But thirdly, it is more stoppable than at any time in human 
history. So why is that? For two basic reasons. Number one, 
throughout all of human history, slavery was really the 
centerpiece of global economies, and it was perfectly legal, 
but these things are no longer true. Free market labor has 
prevailed as the dominant model, and slavery is now against the 
law. These massive twin battles have been won, and now it is 
really just for us to finish the job.
    I think there actually is a best way forward, but to go 
forward we have to be clear, I think, about one thing. And that 
is the answer to the question of why there is so much slavery 
in the world today is surprisingly simple. Slavery exists on a 
massive scale in the world today because there are huge swathes 
of the world where people just do not get in trouble for 
enslaving other people. In other words, while there are laws 
against slavery in every country, there are countries in which 
these laws are virtually completely unenforced. In South Asia, 
for instance, if you enslave a poor person, you are more likely 
to be struck by lightning than you are to actually go to prison 
for that crime.
    What the world has to understand about slavery is that it 
exists on a vast scale for only one reason, and that is 
impunity. Now, to be clear, impunity is not the only reason why 
slavery exists. It is the only reason it exists on a vast 
scale. Slavery exists in developed countries like the United 
States where actual laws are reasonably well enforced. Even 
here we can and need to do better because slavery on any scale 
is unacceptable, right?
    But impunity is not the chief explanation why tens of 
thousands here in the United States are in slavery in our 
country. It is a more complicated phenomenon. But impunity is 
the reason why tens of millions are in slavery in our world. 
And this, Senators, is actually good news. Why? Because 
impunity can end, and it turns out that when impunity ends, the 
vast majority of slavery simply goes away. Why is that? Because 
the vast majority of slavery is soft crime. It is what we call 
crime of opportunity. You do this because you can. If you can 
get away with it, you enslave another person because you can 
make a lot of money off of it. But if you are seriously afraid 
of going to jail for that, you do not see it as an easy way to 
make money, and you stop doing it.
    Another way to explain this is to say that slavery is, as 
the chairman said, a crime of opportunity, which means it is 
highly responsive to risk. Not all crime is like this, but 
slavery is, and when there is zero risk, it takes place at a 
very high level. But by contrast, crimes of severe social 
deviance, for instance, like pedophilia, they take place at a 
low level, but they are not very responsive to risk because it 
is compulsive behavior. The perpetrators feel like they have to 
keep doing it, and it does not respond even when the risk 
rises.
    Similarly, crimes of desperation. You are hungry, and you 
have to steal bread because you think your family has to 
survive on that. This is more common, and it is a little bit 
more responsive to risk. But still it is not that responsive 
because you feel you have to do it to survive. Crimes of 
opportunity are totally different, especially a discretionary 
economic crime like slavery. Crime of opportunity is highly 
responsive to risk and drops off all together when risk becomes 
significant. At IJM, we have actually been able to prove this 
to be true and quantitatively have measured it. We have 
measured trafficking fall off by as much as 79 percent when 
impunity ended.
    So then, the question becomes, in countries where slavery 
is thriving, is it possible to fix broken law enforcement so it 
actually enforces the law? At IJM, we have also proven that 
this is possible. In countries that even have appalling track 
records of poor law enforcement, we have proven that it is 
possible to set up vetted police units that do a great job, 
fast track courts that bring convictions, and we see the 
slavery measurably decrease. This is really hard to do, and it 
takes a deep commitment, but it is absolutely possible.
    Finally, I would like to say that many times the world gets 
confused about fighting slavery because almost all slaves are 
poor. And thus we assume that we have to eliminate poverty and 
ignorance in order to be able to end slavery. As a result we 
either give up on it because that seems impossible, or we try 
to harden poor people against slavery by ending their poverty 
and their lack of awareness. In fact, we have spent vast sums 
on this approach, but it has never measurably reduced slavery. 
Why is that? Because the traffickers simply move on to an 
almost infinite supply of 2\1/2\ billion other poor people who 
are still desperate and unaware of the threats and of the 
schemes, and so the traffickers will go wherever they need to 
go to find them.
    We should, of course, continue to reduce vulnerability by 
reducing poverty and raising awareness. Of course. But these 
strategies cannot hope to prevail as long as there is an ocean 
of impunity. Think of malaria, for instance. Ninety percent of 
all malaria deaths occur amongst the poor, and so you can 
think, well, we cannot solve malaria until we solve poverty. In 
fact, you just need to stop the mosquito from biting the poor 
person, and it turns out you do not have to wait for poverty to 
end in order to dramatically reduce malaria. Likewise, rather 
than trying to end slavery by ending poverty, which we should 
do for other reasons in any event, it has proven to be so much 
faster, cheaper, and more effective to get the traffickers to 
simply stop even trying to enslave others because they are 
afraid of going to jail.
    I believe it is possible like never before in history for 
the United States to lead in a way that is decisive in the 
fight against slavery by helping stand up and support a pooled 
fund that will combine public, private, and philanthropic 
resources that focus specifically on ending impunity and making 
sure that those who are poor are not vulnerable. Because here 
is what we have learned: that traffickers are not brave. And 
currently they walk around in countries where they are as 
fearful of going to jail for slavery as they are of being 
struck by lightning. And as long as that is the case, slavery 
will continue. But I believe U.S. leadership can change that, 
and when it does, then slavery will finally be swept into the 
dustbin of history where it belongs.
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Haugen follows:]

                   Prepared Statement of Gary Haugen

    Thank you for this opportunity to testify, Chairman Corker. My name 
is Gary Haugen, and I am the president of International Justice Mission 
(IJM). We are grateful that you have chosen to make the issue of global 
slavery one of your top priorities.
    As you know, slavery is a crime that inflicts great suffering on 
tens of millions of victims every year. It takes many forms, including 
forced sexual exploitation, exploitative labor, domestic servitude, and 
debt bondage. But all forms of slavery, past and present, share certain 
characteristics.
    First, slavery is unspeakably violent. Over the past 15 years, 
International Justice Mission has investigated thousands of cases of 
slavery and worked with local authorities to rescue tens of thousands 
of children, men, and women. In virtually every case, perpetrators use 
violence and the threat of violence to terrorize victims into 
submission and servitude. IJM's clients have experienced kidnapping, 
brutal beatings, sexual assault and gang rape, mutilation, humiliation, 
and starvation. Many of our clients report that slaveowners and 
managers will go to great lengths to track down escaped slaves and 
bring them back to the facility to be beaten or whipped in front of the 
other slaves to sow terror and docility.
    Second, slavery is an economically motivated crime. This orgy of 
violence and abuse that factory managers, labor recruiters, brothel 
owners, and crew bosses inflict on the vulnerable is for a very 
specific purpose. It is for the purpose of generating profits for the 
abusers. The simple economic model of reducing labor costs to virtually 
nothing by coercing labor generates upward of $150 billion in profits.
    A conversation between my staff and a Ghanaian slaveowner 
illustrates this simple calculation. IJM's team was conducting a 
prevalence study of child labor slavery on Lake Volta in Ghana 
recently. The team asked a fisherman who had several young child slaves 
on his boat why he didn't use older children for the dangerous and 
back-breaking work. He answered without hesitation: ``Older kids eat 
too much. And they start to have their own ideas. The young kids are 
much easier to control.''
    A third common characteristic of present day and historic slavery 
is that in all cases there is a perpetrator. Human beings do not 
naturally or willingly offer up their bodies and their labor for the 
abusive enrichment of another. In all cases, slavery occurs when 
vulnerable people are preyed upon by others possessing slightly more 
power than they do. Vulnerability alone does not enslave; it requires 
an enslaver.
    One characteristic that modern day slavery does not share with 
historic slavery is its legal status. During the 400 years of the 
transatlantic slave trade, slavery was legal. It was legal in the 
United States from earliest Colonial days to its legal abolition in 
1865. Today, in contrast, slavery is legal virtually nowhere in the 
world. Yet there are more human beings in slavery today than at any 
previous time in history.
    The first half of the abolition agenda--outlawing the crime of 
slavery has been accomplished. The second half of the abolition 
agenda--making these laws meaningful to slavery's victims--has barely 
been attempted.
    According to the latest State Department Trafficking in Persons 
Report, the governments of the three countries reported to have the 
most number of slaves (totaling over 19.5 million, or over half the 
world's slaves) reported zero convictions in antitrafficking cases in 
2013. Zero.
    The obvious question for the committee is this: Why are laws 
against slavery so seldom enforced?
    In our work, IJM has found that antislavery or antitrafficking laws 
are not enforced because the victims are poor and powerless and have 
little access to judicial institutions. Perpetrators, in contrast, 
frequently have ties to local authorities. In some cases, local police 
are paid by local traffickers to look the other way or are actively 
complicit in the crime. The overwhelming failure of effective law 
enforcement against trafficking and slavery has persuaded many 
policymakers that it is simply impossible for police to change. They 
have simply given up on the dream of making the protection of law real 
for poor people. Thus the bulk of U.S. antitrafficking assistance is 
for programs to prevent the crime by making the victim less vulnerable. 
Tens of millions of dollars have been spent in public education 
programs to teach poor communities about the risks of trafficking and 
slavery. Hundreds of millions of dollars are spent on education, 
health, and job creation in hopes of insulating potential victims from 
exploitation and abuse.
    Education, health, and income generation programs are valuable in 
their own right. But these funds have not had a measurable impact on 
slavery. Why? Because they do not affect the behavior of the central 
player in every situation of enslavement and exploitation: the 
perpetrator. Perpetrators of trafficking, slavery, and debt bondage, 
whether they are unscrupulous labor recruiters in Qatar, brothel owners 
in Southeast Asia, or pimps in the United States have one thing in 
common. They are making money from the subjugation of others. If they 
are not at risk for going to jail for their crime, they will go to 
whatever village, slum, city, or state in the world to find the poor 
and the vulnerable. But they will stop even trying to enslave the poor 
if they are afraid of going to jail.
    Consider Ghana, a lower middle income, democratic nation that has 
had robust economic growth for the past 5 years. Ghana is a favored 
partner of the World Bank, whose current grants, loans, and credits 
total $3.49 billion. The U.S. Government is a generous donor, as well, 
providing $154 million for health and development last year.
    But a third of Ghana's children work, and neither economic growth 
nor foreign assistance protects thousands of them from actual 
enslavement in fishing, domestic servitude, artisanal gold mining, 
begging, and prostitution. Prevalence studies conducted by 
International Justice Mission (IJM) on Lake Volta over the past 18 
months revealed that 60 percent of the children fishing on the lake 
were clearly slaves, bearing tell-tale signs of violence, depredation, 
and terror. Ghanaian law prohibits slavery, but slaveowners and 
traffickers told IJM undercover investigators that they had no fear 
whatsoever of Ghana's antitrafficking police, a force of 150 officers. 
They have little reason to: the unit does not own a boat and does not 
patrol Lake Volta. Fortunately, the Government of Ghana is committed to 
ending this scourge. With training and assistance, the antitrafficking 
police unit is an excellent candidate for funding and technical 
assistance from the United States and other donors. Once it begins to 
rescue kids and apprehend perpetrators, child slavery prevalence will 
go down--not because Ghana is less economically disadvantaged but 
because traffickers will respond to increasing prospects of 
apprehension, conviction and stiff jail terms. Fishing and other 
enterprises will have to hire--and pay--adult workers.
    We've seen and measured the impact of professional law enforcement 
on the crime of child trafficking elsewhere. In 2007, IJM received a 
grant from the Bill and Melinda Gates Foundation to begin operations to 
reduce child sex trafficking in the Philippines second-largest city of 
Cebu. With that support, IJM initiated collaboration with the 
Philippines National Police in the country's second-largest city, Cebu, 
to rescue minor girls from sexual exploitation and apprehend 
perpetrators. IJM contracted with an independent criminal data 
collection firm to execute a baseline prevalence of commercial 
exploitation of minors in Cebu's substantial sex industry. Over the 
next 3 years, IJM and its PNP partners investigated hundreds of 
establishments, rescued over 225 victims of trafficking, and 
apprehended 77 suspected perpetrators. Because trafficking is a nonbail 
offense under Philippines law, those suspects remained in jail, many of 
their businesses shuttered. The independent investigators conducted a 
midterm study and a final study at the end of the 4-year period. They 
found that the availability of minor girls had plummeted by 79 percent 
in Cebu.
    International Justice Mission has also seen dramatic reduction in 
the prevalence of child prostitution elsewhere in Southeast Asia as a 
consequence of professional policing. In Cambodia, very young, 
prepubescent children were commonly available for sexual exploitation 
in the early 2000's. A Cambodian Government study at the time estimated 
that 30 percent of those in prostitution were minor children. A decade 
later, professional policing by a well-trained and well-led 
antitrafficking unit had transformed the sex industry in Cambodia. A 
prevalence study by IJM in late 2012 revealed no children under 15 
being sold for sex and very few minors age 15-17 in commercial sex 
venues.
    Cambodia's transformation with regard to commercial sexual 
exploitation of children is noteworthy because broader human rights 
standards did not improve. Cambodia's Government was not 
comprehensively transformed, and it is still a poor country. Change 
occurred because the government made a conscious political decision to 
enforce its own laws against child prostitution and proceeded to equip 
and empower the police antitrafficking unit to do its job. Over 100 
perpetrators of child trafficking were convicted and jailed. And 
Cambodia's criminal class responded with alacrity: they got out of the 
business of selling children.
    IJM's experience working with local law enforcement has shown us 
that police can improve quite dramatically and are equal to the task of 
changing the calculations of those profiting from the sale of others. 
As we've seen in Southeast Asia, it is not necessary for police to 
apprehend every brothel owner, madam, pimp, or trafficker. A relatively 
small number of arrests, prosecutions, and convictions have a 
disproportionate impact on criminals who buy, sell, and exploit 
children.
    The United States has led in the worldwide fight against slavery, 
and is fortunate to have some excellent tools with which to do it. The 
Trafficking Victims Protection Act of 2000 and the establishment of the 
State Department Office to Monitor and Combat Trafficking in Persons 
have helped make the issue of slavery a top U.S. foreign policy 
concern. The annual Trafficking in Persons Report has been the catalyst 
for positive changes by governments on every continent, as has the 
leadership of many very fine American diplomats around the world.
    We are grateful for Congress authorizing and funding an 
antitrafficking innovation: Child Protection Compacts. We have seen 
what is possible in our own work when we partnered with local law 
enforcement in a collaborative casework model, and stayed in the fight 
with them. The Child Protection Compacts reflects this approach, and 
offers an opportunity to see real change in the prevalence of child 
trafficking in selected focus countries.
    But even with the substantial diplomatic and financial resources 
the United States has offered over the past 15 years, the global 
scourge of slavery requires a global response. IJM is very encouraged 
by discussions between the Senate, the executive branch, and 
representatives of the private sector about the creation of a new 
funding mechanism that would bring new resources to the fight. We look 
forward to working with you on this historic initiative.

    The Chairman. Thank you.
    Shawna.

STATEMENT OF SHAWNA BADER-BLAU, EXECUTIVE DIRECTOR, SOLIDARITY 
                     CENTER, WASHINGTON, DC

    Ms. Bader-Blau. Thank you very much, Chairman Corker, and 
Ranking Member Menendez, and members of the Senate Foreign 
Relations Committee. And I join Gary in applauding this 
initiative. It is great to see so many people here today 
attending this hearing and such a well-attended committee. So 
thank you for your focus on this issue today.
    I will focus my testimony on the aspect of modern slavery 
that is, in fact, most prevalent, and that is forced labor. The 
vast majority of the almost 21 million people in forced labor 
are exploited in the private economy. Trafficking for labor 
exploitation accounts for 70 percent of trafficked people. 
Today instead of shackles and chains, people are now likely to 
be enslaved through threats, debt, and other forms of economic 
coercion.
    The face of modern slavery can be seen in the annual cotton 
harvest in Uzbekistan, where the government compels teachers 
and children to pick cotton instead of work or study; in homes 
in countries as diverse as Lebanon and Singapore where women 
are enslaved as domestic workers; on construction sites in 
Saudi Arabia where low-wage migrant construction workers from 
Nepal and India are trapped in a cycle of debt bondage; and in 
Cambodia where young women garment workers are locked in 
factories forced to work until they drop from exhaustion and 
fear.
    Understanding this link between worker rights violations 
and forced labor is key to eradicating this horrific human 
rights abuse globally. We see this problem as having four core 
root causes not currently being adequately addressed that I 
will lay out. They start with unsafe migration practices. 
Unsafe migration processes and the lack of labor law and other 
legal protections for migrant workers make them particularly 
vulnerable to forced labor.
    While stationed in Doha, Qatar, for the Solidarity Center a 
few years back, I met a young man from Nepal who told me he 
paid a recruiter $6,000 to get a job there. He was promised a 
$400 a month salary, and he received only $250, a portion of 
which was docked for food and accommodation. Deceived by the 
recruiter in Nepal, he was now tied to his exploitive, abusive 
employer by the Kafala system in Qatar, and his visa remained 
with him, and he was not able to leave that employer.
    We must create an enabling environment for safe migration 
as a core way to reduce forced labor globally. This means in 
part finally getting serious about labor recruiters. Too many 
manipulate and deceive workers for profit. We need to ban 
recruitment fees, a primary source of debt bondage and forced 
labor, promoting universally respected rights for migrant 
workers so they can speak up and speak out when they see abuse 
without fear of retaliation. And we need to reform temporary 
work visa programs so migrants can leave abusive employers 
instead of staying stuck in forced labor.
    And I agree with Gary. It is time to end impunity for labor 
traffickers. Forced labor is pervasive around the world because 
employers who engage in modern slavery face few consequences, 
neither criminal nor economic. Prosecutions for forced labor 
globally are ridiculously low.
    Governments' failure to hold employers criminally 
accountable for forced labor means that they traffic workers 
with impunity.
    But we also need to make forced labor untenable for 
governments to allow, and for companies to get away with, 
including down their supply chain. Like corporations, 
governments also face few economic penalties or consequences 
for forced labor. Economic pressure and consequences are 
effective prevention tools and can involve carrots and sticks. 
For example, many countries with serious labor trafficking 
problems continue to receive trade preferences from the United 
States. And for Mexico, Brunei, Malaysia, and Vietnam, all 
parties to the Trans-Pacific Partnership, TPP, negotiations, we 
have a moment now. Lawmakers, in the context of TPP, can work 
with the administration to make forced labor and modern slavery 
an issue on the table and negotiate improvements in laws and 
practices before any new trade agreement goes into force. 
Indeed, corporations often argue that it is too difficult or 
too expensive to monitor their entire supply chains, and they 
need help figuring this out. Well, I agree, but we do need to 
start asking why. Corporations have innovated to address 
quality across their supply chains. Why not the eradication of 
forced labor and slavery, too?
    I think we can also promote worker-driven solutions. 
Workers are also key to eradicating forced labor and 
trafficking in supply chains. They see abuses or may themselves 
be exploited on a farm or in a factory. Firsthand reporting of 
abuses and exploitation by workers, unions, and rights 
organizations shines a light on abusive practices long before a 
third party decides to take a look. With rights and protection 
against retaliation for exposing forced labor conditions, 
workers can help eradicate modern slavery.
    We definitely need a far more robust global response, and a 
far more robust U.S. Government response. We need significantly 
greater focus and engagement to address all facets of the 
problem, especially the root causes of forced labor. Our 
ultimate goal should be the prevention of this exploitation in 
the first place, and that is where we should be redoubling our 
efforts.
    Last year, my colleagues in Bangladesh conducted a 
predeparture training for Bangladeshis traveling to work. Most 
of them women headed to the gulf as domestic workers. The 
trainers almost matter of factly told these women, you should 
know that when you take these jobs, you will more than likely 
never get paid what you have been promised. You will likely be 
sexually harassed or worse. And you will have no access to 
remedy or justice. The class responded back to these trainers, 
you know, we know that. We are the third generation of families 
making this trip. We know this might be our fate, but we love 
our children, and we have no choice but to find a way to 
provide for them.
    Senators, no one trying to support their families or 
themselves should have to assume exploitation is their fate.
    We owe it to mothers like these and millions of other 
workers like them to fight with them for a world free from 
extreme labor exploitation that is forced labor. I look forward 
to discussing this with you further. Thank you.
    [The prepared statement of Ms. Bader-Blau follows:]

                Prepared Statement of Shawna Bader-Blau

    Chairman Corker, Ranking Member Menendez, and members of the Senate 
Foreign Relations Committee, thank you for the opportunity to present 
the Solidarity Center's perspective on effective policy responses to 
end modern slavery. We appreciate the committee's continued leadership 
in combating all forms of human trafficking globally, including 
trafficking for forced labor.
    The Solidarity Center is an international nongovernmental 
organization (NGO) that promotes and protects worker rights globally, 
with programs in more than 60 countries. The Solidarity Center is an 
allied organization of the AFL-CIO and a member of the Alliance to End 
Slavery and Trafficking (ATEST). Building upon more than 20 years of 
experience in the areas of child labor, migrant worker exploitation and 
supply chain accountability, the Solidarity Center raises awareness 
about the prevalence and underlying causes of forced labor and other 
forms of trafficking for labor exploitation, and implements programs 
with partners from myriad sectors to combat the problem. These programs 
include initiatives that address each of the four ``Ps'' that have 
become part of the antitrafficking toolkit: prevention, protection of 
victims, prosecution (or as we prefer to describe it, ``rule of law'') 
and partnerships. The Solidarity Center has the unique ability to work 
across borders, in both countries of origin and destination for 
trafficked workers, as we have long-term, on-the-ground relationships 
with local partners. Our antihuman trafficking programs span the globe 
from Africa (Kenya, Sierra Leone), the Americas (Dominican Republic, 
Mexico), Asia (India, Indonesia, Malaysia, Nepal, Pakistan, the 
Philippines, Sri Lanka, Thailand), Europe (Moldova) and the Middle East 
(Jordan, Kuwait, Qatar).
    Because I know the leadership of this committee has the desire to 
take an aggressive approach to ending modern slavery around the world, 
and because I know that this committee can help us make great strides 
toward this objective, I will focus my testimony on the aspect of 
modern slavery that is the most prevalent--and that is forced labor. 
Most modern slavery today is, in fact, forced labor. That includes 
government-compelled labor in Uzbekistan during the annual cotton 
harvest; women enslaved as domestic workers in countries as diverse as 
Lebanon and Singapore; low-wage migrant construction workers trapped in 
a cycle of debt bondage in Saudi Arabia; and garment workers locked in 
factories forced to work for hours on end in Cambodia.
    While each country we work in has its own unique context, we have 
uncovered a common theme. Labor trafficking has, at its core, 
violations of worker rights and depends on poor labor standards and 
weak protections to persist. Human trafficking is a worker rights issue 
because it is linked to various forms of labor exploitation. It is one 
of the worst forms of worker abuse. Even when the end result of 
trafficking is sexual exploitation, there are more often than not 
worker rights issues involved. For example, the Solidarity Center has 
assisted victims of sex trafficking in Indonesia who were initially 
recruited by unscrupulous labor brokers who deceived them into leaving 
their homes by promising them work in the service sector and then 
forced them into prostitution--often charging them exorbitant sums for 
the privilege. Indeed, the inspiring trafficking survivor who will 
speak on the next panel, Ms. Shandra Woworuntu, was by her own account 
tricked by a labor recruiter promising a real job, only to be forced 
into prostitution. Around the world, unsafe migration processes, lack 
of jobs, minimal economic opportunities for women at home and other 
forms of economic coercion increase the vulnerability of women to 
sexual exploitation.
    Understanding this link between worker rights violations and human 
trafficking is key to eradicating this horrific human rights abuse 
globally. To end forced labor, we must address the underlying 
vulnerability of workers to exploitation, expand and enforce labor 
laws, and allow workers to organize to monitor their workplaces and 
improve their wages and working conditions.
    In other words, end worker exploitation to end human trafficking.
    We increasingly hear the term ``modern slavery'' used to describe 
the exploitation or compelled service of children, women, and men that 
results from the myriad forms of coercion and deceptive practices 
traffickers use. Forced labor, debt bondage, and involuntary servitude 
are severe forms of labor exploitation that continue today in our 
modern world, though under a different guise. Instead of shackles and 
chains, workers are now enslaved through threats, debt, and other forms 
of economic coercion. And it is a seemingly intractable, growing 
problem.
    More than two decades ago, during a visit to the women's dormitory 
at Kuwait University, I met a cleaning woman stocking rooms with fresh 
towels. Originally from India, she asked me what I had seen in downtown 
Kuwait City: Was it beautiful? She told me she had not been allowed to 
leave the dormitory courtyard--itself fully encircled by high concrete 
walls--in 2 years. And even though her husband also lived in Kuwait and 
drove a taxi in the city, she had not seen him in that same period--men 
were not permitted on the grounds of the dormitory. I learned that she 
had paid a lot of money to a recruiter to get the job in Kuwait, and 
could not leave because of her debt.
    Senators, it is beyond outrageous that two decades after she and I 
met, indentured servitude is still more the norm than the exception for 
millions of migrant women and men like her working as domestic workers, 
fishermen, tomato pickers, and garment workers. Today our staff 
regularly report heartbreaking stories of modern slavery from the more 
than 60 countries we work in around the world. As we will explore in 
this hearing, the United States can play an even greater leadership 
role in helping to combat such egregious abuse around the world.
    While governments used to be the primary perpetrators of forced 
labor, today the vast majority of the almost 21 million people in 
forced labor globally are exploited in the private economy.\1\ Illegal 
profits made from the use of forced labor worldwide amount to $150 
billion per year, exceeding the GDP of many countries.'' \2\ Moreover, 
trafficking for labor exploitation is far more prevalent than sex 
trafficking globally, with 68 percent of the almost 21 million being 
``victims of forced labor exploitation, in economic activities such as 
agriculture, construction, domestic work and manufacturing.'' \3\
    Modern slavery thrives in a context of private actors and economic 
coercion. Our response, therefore, must address this context, 
recognizing human trafficking as more than just sexual exploitation and 
more than just organized crime. We must move beyond the notion that 
modern ``slavery is all about bad individuals doing bad things to good 
people.'' \4\ We must address what one leading global expert on the 
international law of human trafficking,\5\ calls the ``underlying 
structures that perpetuate and reward exploitation, including a global 
economy that relies heavily on exploitation of poor people's labor to 
maintain growth and a global migration system that entrenches 
vulnerability and contributes directly to trafficking.'' \6\ We must 
exert economic pressure as a response and recognize the protection of 
worker rights as key to trafficking prevention. We must also reject 
policies and practices that institutionalize harmful economic and 
business models that increase workers' vulnerability to human 
trafficking. We cannot eliminate modern slavery without fundamentally 
changing how labor migration is managed around the world, how companies 
do business and how governments monitor and enforce human and labor 
rights.
    It is within this context that I present our recommendations for 
the most effective policy responses to address gaps in U.S. and global 
efforts to end human trafficking for labor exploitation.
                  1. reform unsafe migration practices
    Unsafe migration processes and the lack of labor law and other 
legal protections for migrant workers \7\ make them particularly 
vulnerable to forced labor. And governments clearly lack political will 
to do much about it. The potential profits to be made from the global 
labor migration business--by government officials, employers, 
employment agencies and labor recruiters--seem to trump initiatives to 
combat the vulnerability of this at-risk population.
    It is common business practice for employers to subcontract hiring 
and human resources management to labor brokers or employment agencies. 
All too often, labor recruiters compel workers--who have no other 
viable opportunities for employment in their home village or country--
to pay exorbitant recruitment fees for the privilege of laboring under 
harsh and often inhumane conditions. Many of these migrant workers--
seeking only to work toward a better life for themselves and their 
families--end up trafficked into forced labor and debt bondage, a 
situation nearly impossible to escape.
    While stationed in Doha, Qatar, for the Solidarity Center a few 
years back, I met a young man from Nepal who told me he paid a 
recruiter $6,000 to get a construction job in Qatar. Promised a $400 
monthly salary, he was paid only $250, a portion of which was docked 
for food and accommodation. Due to the kafala system, his visa was tied 
to his employer and he had no choice but to stay. Despite the proven 
connection between recruitment fees and vulnerability to forced 
labor,\8\ governments and businesses are institutionalizing these 
practices through increased temporary migration programs and the under- 
or non-regulation of labor recruiters. Moreover, many governments 
around the world are complicit in trafficking by labor recruiters by 
(at best) failing to regulate them or monitor their practices, or (at 
worst) accepting bribes to turn a blind eye or actually becoming 
involved in the recruitment of workers for profit themselves.
    From poor Bangladeshi women providing household services in 
Jordanian homes to Nepali construction workers building soccer stadiums 
for the World Cup in Qatar, and from Cambodian men on Thai boats 
working to put fish on American grocery store shelves to Mexican 
workers processing seafood under H-2B visas along the U.S. Gulf 
Coast,\9\ migrant workers around the world are vulnerable to 
trafficking through the unregulated and unmonitored practices of labor 
recruiters, even when they migrate through legal channels, with valid 
visas.
    Antitrafficking activists around the world, and in the United 
States, point to reform of labor recruitment processes and the 
regulation of labor recruiters as one of the most important initiatives 
to prevent human trafficking around the world. To this end, the 
Solidarity Center is working with a coalition of NGOs, trade unions, 
academics/researchers, and other migrant rights activists to call for 
global labor recruitment reform, and a commitment from international 
labor migration policymakers (like at the Global Forum on Migration and 
Development), governments and businesses to implement a global ``no 
fees'' policy for migrant workers. We need a global effort to 
permanently ban recruitment fees.
    We are seeing progress, including the Federal Acquisition 
Regulations on Ending Trafficking in Persons (for federal contracts) 
released just last week; the International Labor Organization (ILO) 
Protocol and Recommendation on Forced Labor adopted after tripartite 
negotiations in June 2014; and California's law, SB 477, which requires 
foreign labor contractors to register with the Labor Commissioner.\10\ 
The notion that migrant workers should not have to pay recruitment fees 
to find a job is increasingly accepted in policy circles. Even a few 
multinational corporations have adopted ``no fees to workers'' 
policies.
    Congress can continue to play an important leadership role in 
ending forced labor by passing a comprehensive law to regulate foreign 
labor recruiters who hire workers through U.S. nonimmigrant visa 
programs, such as H1, H2 and J1. The Senate's passage of Subtitle F: 
Prevention of Trafficking in Persons and Abuses Involving Workers 
Recruited Abroad and similar provisions in Subtitle I as part of S. 744 
(Immigration Reform) in 2013 is a significant step forward in 
addressing this issue. In the House of Representatives, H.R. 3344, 
introduced last year by House Committee on Foreign Affairs Chairman, Ed 
Royce, is modeled after Subtitle F and has bipartisan support, with 
over 70 cosponsors. Unfortunately, a few large sponsoring companies are 
opposing these bills, sacrificing poor workers for the bottom line. 
Still Congress has a real opportunity to enact legislation that could 
end fraud in our nonimmigrant visa programs and prevent trafficking in 
the labor recruitment system. Not only will such a law help protect 
migrant workers in the United States, but it also will serve as a 
powerful model for other countries, and may influence international 
labor migration policy.
                 2. end impunity for labor traffickers
    Systematic abuse of migrant workers, rising to the level of forced 
labor and human trafficking, goes virtually unpunished throughout 
world. The State Department's 2014 Trafficking in Persons Report 
provides numerous examples of governments' reluctance to hold employers 
accountable for trafficking in their workplaces. And the Los Angeles 
Times,\11\ in a December 2014 series on working conditions at Mexican 
farms that ship produce to U.S. supermarkets, found that one of 
Mexico's largest growers routinely withheld wages from workers, housed 
them in rat-infested facilities and allowed bosses to beat workers who 
tried to escape. Two company employees were even charged with human 
trafficking. The government levied fines against that farm, Bioparques 
de Occidente, but after the uproar subsided, those fines seem to have 
melted away. The men accused of trafficking have not been tried nor can 
the charges against them be confirmed.
    Immigration officials around the world regularly categorize migrant 
workers who are labor trafficking victims as undocumented or ``out of 
status'' workers and deport them. Police and labor inspectors often 
view involuntary servitude, debt bondage, or forced labor in sectors 
such as agriculture, domestic work, construction, manual labor and 
manufacturing as ``mere worker rights violations'' that do not require 
their intervention.
    Even in the rare cases when labor trafficking is identified and 
charges brought, the labor recruiter is blamed and not the employer who 
also perpetrates the exploitation. This lack of political will 
translates into pathetically few cases of human trafficking for forced 
labor or other forms of severe labor exploitation being prosecuted 
globally. According to the 2014 Trafficking in Persons Report, there 
were only 9,460 prosecutions and 5,776 convictions for trafficking 
globally in 2013; of these, only 1,199 cases of forced labor were 
prosecuted. Governments' failure to hold employers accountable 
criminally for forced labor means that employers can exploit workers 
with impunity, and an important trafficking prevention tool goes 
unutilized.
    Solidarity Center partners face this lack of political will to 
prosecute forced labor on a daily basis in their work. For example, our 
partner in Thailand, the Human Rights and Development Foundation 
(HRDF), is currently pursing cases on behalf of four Burmese migrant 
workers who were trafficked onto fishing boats after paying exorbitant 
recruitment fees to brokers. Two of the workers tried to commit suicide 
by jumping off of the ship. Though these cases have been going on for 
more than a year and HRDF has collected significant evidence, Thai 
police have yet to charge any broker, boat captain, or boat owner for 
the abuses.
    When cases are prosecuted, they often result in small fines and no 
jail time for the perpetrators--barely a deterrent for exploitative 
employers reaping vast profit from the misery of others. Other cases 
may get put on hold for years while perpetrators are out on bail. 
Moreover, whistleblowers, in the form of trade union or NGO activists, 
journalists and migrant workers, often face retaliation for raising 
issues of forced labor and corruption linked to human trafficking.\12\
    While public awareness campaigns and education for at-risk groups 
are important tools for prevention, one of the key ways to prevent 
forced labor is to create an enabling environment through the rule of 
law that promotes transparency and accountability. Increasing 
prosecutions and convictions, and imposing harsh penalties (including 
significant jail time and economic restitution) may be an even more 
effective prevention tool. Workers must have easily accessible avenues 
to report violations and attain justice, without fear of retaliation--
and government officials must be trained and encouraged to respond 
quickly and effectively.\13\
    The Solidarity Center sees the low levels of forced labor 
prosecutions, lack of political will and impunity as evidence of many 
governments' dismissal of forced labor as a serious issue. Labor 
migration is seen as a profitmaking mechanism, for employers, owners of 
recruitment agencies and government officials, and human trafficking as 
just an unfortunate consequence.
  3. monitor and enforce laws regulating forced labor in supply chains
    Given our globalized economy, the link between worker exploitation 
and human trafficking in the context of forced labor perpetrated by 
private actors through economic coercion means that products made with 
forced labor are ending up on our store shelves. And, governments and 
businesses are doing little to ensure that supply chains are untainted 
by forced labor and human trafficking.
    In general, it is difficult to quantify the extent of forced labor 
in global supply chains. But as those supply chains reach down to more 
and more suppliers, the chances that trafficked people are in the labor 
force increase. For example:

  <bullet> When buyers and multinational corporations demand cheap or 
        unrealistic pricing structures from suppliers, severe labor 
        abuses, including forced labor, often result in their supply 
        chains.\14\
  <bullet> Similarly, when employers contract out or hire unregulated 
        subcontracted suppliers, or rely on labor recruiters and 
        employment agencies, they should not be surprised to find that 
        they have trafficking victims in their production lines.
  <bullet> When employers refuse to enforce or claim that it is too 
        difficult to monitor adherence to core labor standards in their 
        supply chains, the probability that they will find forced 
        labor, debt bondage, and other severe forms of labor 
        exploitation increases.

    The U.S. Government has two important resources at its disposable 
to monitor industries in countries with a high prevalence of forced 
labor and vulnerability to other forms of modern slavery. The annual 
Department of State's (DOS) ``Trafficking in Persons Report'' and the 
Department of Labor's (DOL) ``List of Goods Produced with Child Labor 
or Forced Labor Report'' are excellent resources to help identify 
vulnerable economic sectors for forced labor. Products identified on 
the DOL's list from countries identified by DOS as having significant 
labor trafficking problems, however, continue to enter the United 
States, meaning that in all likelihood the U.S. Government is allowing 
imports of products made with forced labor.
    In 2008, the Solidarity Center released a report as part of its 
Degradation of Work series titled, ``The True Cost of Shrimp: How 
Shrimp Industry Workers in Bangladesh and Thailand Pay the Price for 
Affordable Shrimp.'' Thailand is one of the main exporters of shrimp to 
the United States. The report uncovered major human rights abuses in 
the industry: unpaid wages, unsafe and unhealthy workplaces, child 
labor, forced labor, physical intimidation, violence and sexual abuse. 
Seven years later, little progress has been made to clean up the 
industry, as reports continue to surface about human trafficking of 
migrant workers in the fishing and seafood-processing sector in 
Thailand.\15\ ``The Guardian'' found that such forced labor plays an 
integral part in the production of shrimp sold in leading supermarkets 
around the world, including in the United States, in stores such as 
Walmart and Costco.\16\
    And despite U.S. laws that prohibit the importation of goods made 
with forced or child labor, Thai shrimp continues to be found at major 
U.S. retailers and in consumers' freezers. Mexican chilies, more easily 
plucked by children's hands from 3-foot plants,\17\ are processed into 
salsa for U.S. dinners. Similar concerns may be raised about products 
such as ready-made garments from Haiti and Jordan, or electronics from 
Malaysia.
    The U.S. Government must do more to ensure that multinational 
corporations are held accountable for their practices abroad. And we 
must increase government scrutiny of imports to ensure goods made by 
forced labor are not allowed into the U.S. marketplace. This type of 
economic consequence will be a catalyst for change.
    The 1930 Tariff Act prohibits the importation of goods into the 
United States made with forced or child labor. This law, however, is 
rarely enforced as the ``consumptive demand exception'' weakens it. As 
required by the 2005 Trafficking Victims Prevention Reauthorization Act 
(TVPRA), the U.S. Department of Labor ``maintains a list of goods and 
their source countries which it has reason to believe are produced by 
child labor or forced labor in violation of international standards.'' 
\18\ Even though many of the goods on the list are produced for export 
by the identified countries, the list has not been used to enforce the 
Tariff Act.
    Moreover, U.S. Immigration and Customs Enforcement (ICE) must 
notify foreign governments of its intent to inspect workplaces that 
export products to the United States. Such notification results in the 
``cleansing'' of workplaces to remove any signs of trafficking or 
forced or child labor. Moreover, U.S. law does not allow evidence 
collected by unions, the media, or nongovernmental sources to be the 
basis for restricting the importation of products made by trafficked or 
forced labor. This must be reformed. The Department of Homeland 
Security must review and rework the role of ICE in overseas 
inspections.
    Many countries that have been shown to have significant labor 
trafficking problems continue to receive trade preferences from the 
U.S. Government. Mexico, Brunei, Malaysia and Vietnam, four countries 
with significant forced labor problems, are part of the Trans-Pacific 
Partnership (TPP) negotiations. Lawmakers have a significant 
opportunity in the context of TPP to call out forced labor and modern 
slavery in these states and negotiate over improvements in laws and 
practices before any new trade agreement goes into force. If we really 
want new tools in the struggle against modern slavery, Congress can 
urge the administration to use the leverage it has right now to 
negotiate meaningful changes to laws and practices before the agreement 
takes effect, not after--and to ensure any final trade deal includes 
vigorous monitoring and enforcement standards.
    Congress should also encourage and support the U.S. Trade 
Representative (USTR) to suspend Generalized System of Preferences 
(GSP) and other trade benefits for any country that does not 
effectively address forced labor. Economic consequences are key to 
eradicating forced labor. And countries that are habitual abusers of 
vulnerable workers should face trade sanctions. Moreover, bilateral and 
multilateral trade agreements should contain labor standards and 
protections to prevent trafficking, ensuring those standards apply to 
all workers, including migrants.
                   4. promote worker-driven solutions
    Multinational corporations' codes of conduct--which are voluntary 
and unenforceable--have failed to protect workers from forced labor in 
supply chains. Solidarity Center staff see examples of this first hand 
in garment/textile, agriculture, and seafood processing across four 
continents. Research shows what does NOT work: private, voluntary 
corporate social auditing and other traditional ``corporate social 
responsibility'' (CSR) approaches have proliferated over the last 20 
years but on the whole have failed to adequately address labor 
exploitation and modern slavery in global supply chains.\19\
    Indeed, despite their codes of conduct, corporations often argue 
that it is too difficult or too expensive for them to map and monitor 
their entire supply chains. However, in the case of Mexican tomatoes, 
the Los Angeles Times reporter and a photographer--on a newspaper 
budget--managed to track gross violations throughout the export 
agriculture industry, including child labor, and follow supply chains 
to U.S. grocery stores. In addition, the Times reported the regular 
presence of buyers inspecting produce, just feet from abused 
workers.\20\ Obviously, whatever corporate social responsibility 
guidelines those companies have in place carry little weight--and other 
pressure is required.
    Companies can and should do more. Secretary of State John Kerry 
summed up the situation last week, at the White House Forum on 
Combating Human Trafficking in Supply Chains: \21\ ``Governments can 
lead the way in ensuring that suppliers and contractors are held to the 
highest standards and adopt the highest standards. Companies can 
enforce regulations against human trafficking throughout their supply 
chains, and that includes the production of raw materials, labor 
brokers, contractors, and subcontractors throughout the final 
product.''
    Still, workers are key to eradicating forced labor and trafficking 
in supply chains. Workers see abuses or may be the exploited on a farm 
or in a factory. We know that firsthand reporting of abuses and 
exploitation by workers, unions, and rights organizations shine a light 
on abusive practices through on-the-ground investigations and worker 
whistleblowing. It is crucial that the U.S. Government support 
monitoring and the efforts of workers to report human rights violations 
in their own workplaces, without fear of retaliation. Ultimately, 
workers and trade unions must be empowered to monitor supply chains 
because history shows that abuses in the workplace only end when 
workers can assert their rights under ILO conventions and national laws 
are respected. Employers and governments must therefore support and 
respect the freedom of association for workers.
    We should embrace proven worker-driven models of corporate 
accountability like the Coalition of Immokalee Workers' Fair Food 
Program, which is an excellent example of how economic consequences can 
help to eliminate forced labor and other forms of labor trafficking in 
an industry.\22\ Governments should impose trade restrictions, import 
bans or other penalties on products made with forced labor, and 
multinational corporations should exert their significant power as 
buyers to hold suppliers accountable to supply chains free of forced 
labor.
    Finally, freedom from forced labor and slavery are established 
human rights principles. The United Nations Guiding Principles for 
Business and Human Rights provide a powerful and inclusive baseline 
that can be employed in the global fight to end modern slavery.\23\
                toward a robust u.s. government response
    Addressing the role of private actors in forced labor and modern 
slavery that is perpetuated through the use of economic coercion 
requires an integrated approach--promoting worker rights, increasing 
access to justice, ensuring safe migration and focusing on economic 
growth that promotes shared prosperity. It is also requires an 
integrated approach by government.
    The U.S. Government has shown true leadership in the global fight 
against human trafficking, including expanding the understanding that 
human trafficking is also about labor exploitation. But as we continue 
to learn about the scope and magnitude of modern slavery, we know that 
much remains to be done. We need significantly greater resources, and 
we need approaches that address all facets of the problem, and 
especially the underlying root causes of human trafficking. While it is 
crucial to identify and protect victims, prosecute perpetrators, our 
ultimate goal of course is to prevent the exploitation in the first 
place.
    The U.S. Department of State's Office to Monitor and Combat 
Trafficking in Persons (J/TIP) plays an absolutely crucial role in 
pressuring and supporting governments around the world to address 
modern slavery. The effectiveness of the J/TIP office given its small 
size is commendable. Importantly, and with bipartisan consensus, it has 
raised the profile of forced labor and human trafficking within our 
government and has had unmatched influence on how multilateral 
institutions, private actors, and governments around the world define 
and address the scourge of modern slavery. The tier rankings and 
accompanying diplomacy provide one of the most effective tools the 
United States government has for promoting accountability to human 
rights in our entire foreign policy agenda.
    As a lifelong activist and passionate defender of human and labor 
rights, I can tell you how refreshing it is--and how incredibly unusual 
it is--to see such regular coherence of policy, diplomacy, and program 
support for work on the ground around the world that comes out of J/
TIP. J/TIP receives less than $20 million a year for its grantmaking 
program. Increased resources for J/TIP could greatly expand its ability 
to coordinate the U.S. Government response to trafficking, and allow J/
TIP to focus more of its attention on prevention efforts globally. And 
it is absolutely crucial that the new Ambassador for the J/TIP office 
be committed to addressing both labor and sex trafficking; be able to 
take on recalcitrant governments; and be a unifying, not polarizing, 
force in the antitrafficking movement.
    And this committee also oversees other agencies in the U.S. 
Government that are fundamental to combating forced labor around the 
world. They include the State Department's Bureau of Democracy, Human 
Rights and Labor (DRL), which promotes human rights, including worker 
rights, as a way to prevent human trafficking. DRL could do much more 
to help eradicate modern slavery if it was given the policy direction 
and resources to mainstream the promotion of the migrant rights agenda 
further within the Department of State and U.S. embassies. The 
Department of Labor's Bureau of International Labor Affairs (ILAB), 
which provides technical assistance to governments on how to implement 
and enforce core labor standards as a way to prevent forced labor and 
child labor, is responsible for producing the annual List of Goods 
Produced with Child Labor or Forced Labor required by the Trafficking 
Victims Protection Act (TVPA). ILAB engages with businesses and workers 
to address root causes of forced labor, and has championed the 
importance of using rigorous data collection and analysis in this 
struggle. The U.S. Agency for International Development (USAID), 
through its Counter-Trafficking in Persons (C-TIP) policy and country 
based programs, is finding ways to integrate antitrafficking 
initiatives into all of USAID's strategic objectives. Despite the clear 
connection between economic, social, and democratic development and the 
prevention of severe forms of labor exploitation, all of these agencies 
are too understaffed and underresourced to address the scope of the 
problem.
    Finally, we are encouraged that the Senate is discussing ways to 
spur a bold and more aggressive global approach to ending these 
enduring horrific human rights abuses that are the focus of the hearing 
today. A successful new initiative will:

  <bullet> Prioritize an approach that addresses all forms of 
        trafficking, e.g., sex trafficking and labor trafficking.
  <bullet> Embrace principles of transparency, accountability, and 
        survivor leadership in interventions; ensuring that trafficking 
        survivors, civil society, and worker organizations have 
        meaningful input and participation.
  <bullet> Build on the steady progress of current U.S. Government 
        efforts, and not rechannel resources that are currently 
        authorized to combat trafficking domestically and globally, but 
        rather represent an additional investment by the U.S. 
        Government to supplement the meager resources available today 
        in relation to the scale and severity of the crime.
  <bullet> Support coordination among agencies to ensure a 
        comprehensive, holistic 
        approach to combating human trafficking. This includes working 
        in close cooperation with international agencies, such as the 
        International Labor Organization.
  <bullet> Be linked to the priorities and recommendations in the 
        annual ``TIP Report'' and the ``List of Goods Report''; and, 
        reports of United Nations agencies, such as the International 
        Labor Organization.

    Thank you again for the opportunity to testify and for your 
continued leadership in combating trafficking for forced labor and 
other forms of severe labor exploitation around the world. I welcome 
your questions.

----------------
End Notes

    \1\ ``International Labor Organization (ILO) Global Estimate of 
Forced Labor.''
    \2\ Profits and Poverty: The Economics of Forced Labor, 
International Labor Organization, 2014.
    \3\ The ILO estimates that out of the 21 million, 4.5 million (22% 
total) are victims of forced sexual exploitation. ILO Global Estimate 
of Forced Labor.
    \4\ Gallagher, Anne T., The Global Slavery Index--Seduction and 
Obfuscation, November 28, 2014.
    \5\ Anne Gallagher was named a ``TIP Report Hero'' in the 2012 
Department of State ``Trafficking in Persons Report.''
    \6\ Id.
    \7\ The term ``migrant worker'' is the internationally accepted 
term for a person who migrates for employment, whether temporary, 
seasonally, or permanently. In the United States, in everyday language, 
``migrant worker'' may refer to a seasonal or temporary worker, and 
``immigrant worker'' refers to someone who migrates for work on a more 
permanent basis or who has residency rights. I will use the term 
``migrant worker'' in my testimony to refer to all workers who migrate 
for work, regardless of their status or length of stay in the 
destination country.
    \8\ In its Profits and Poverty report, the ILO found ``the payment 
of recruitment fees, even to relatives or friends, leads to a higher 
probability of ending up in forced labor.''
    \9\ See for example ``Summary of Preliminary Audit of U.S. Walmart 
Suppliers that Employ Guestworkers.'' National Guestworker Alliance.
    \10\ SB 477: Requires foreign labor contractors to register with 
the Labor Commissioner and penalizes intimidation, discrimination, and 
other violations to prevent the exploitation of foreign workers.
    \11\ ``Desperate Workers on a Mexican Mega-Farm: `They Treated Us 
like Slaves' ''. Los Angeles Times. December 11, 2014.
    \12\ For example, a U.S. labor rights group, the National 
Guestworkers Alliance, found evidence that Mexican workers in one 
Louisiana plant were coerced by their employer into working in 
dangerous conditions against their will by threatening to harm their 
families, specifically their children, in Mexico. The workers 
understood this treat to be real as the owner bragged about knowing 
``bad people'' who would do his bidding.
    \13\ Congress and other governments must pass national 
whistleblower protection laws (such as the ``Protect Our Workers from 
Exploitation and Retaliation,'' or POWER Act) regarding trafficked and 
vulnerable migrant workers. Such legislation would serve as a model for 
other governments globally. Also, companies should ensure that there 
are worker protections in company policy all along the supply chain, 
and advocate to governments for such protections.
    \14\ The pricing structure as a cause of human trafficking cannot 
be overemphasized, as this is an underlying factor that employers, 
business, corporations, and consumers can all address. As described in 
the Solidarity Center's report, The True Cost of Shrimp: ``As a 
commodity, the price of shrimp fluctuates according to supply and 
demand, and price pressure is significant all along the supply chain. 
Retailers, sensitive to the risk involved with importing fresh food, 
press import companies for faster distribution, acceptable quality and 
the lowest prices. Importers, aware that market fluctuations can affect 
prices, leverage their bulk purchasing power to demand speedy delivery 
from producers. Trapped between producers and importers are labor-
intensive shrimp factories. Often, the factories' response to price 
pressure is to squeeze wages, neglect workplace health and safety 
regulations, and cut other corners that leave shrimp workers bearing 
the social cost of affordable shrimp.'' The True Cost of Shrimp, 
Solidarity Center, 2008, p. 11.
    \15\ See for example: ``Trafficked into Slavery on Thai Trawlers to 
Catch Food for Prawns,'' The Guardian, June 10, 2014.
    \16\ See ``Revealed: Asian Slave Labor Producing Prawns for 
Supermarkets in U.S., U.K.,'' The Guardian, June 10, 2014. See also 
``Thailand's Seafood Industry: A Case of State-Sanctioned Slavery?'' 
The Guardian, June 10, 2014.
    \17\ ``In Mexico's Fields, Children Toil to Harvest Crops that Make 
it to American Tables.'' Los Angeles Times. December 14, 2014.
    \18\ http://www.dol.gov/ilab/reports/child-labor/list-of-goods/.
    \19\ See ``Responsibility Outsourced: Social Audits, Workplace 
Certification and Twenty Years of Failure to Protect Worker Rights'' 
AFL-CIO April 2013.
    \20\ ``Desperate Workers on a Mexican Mega-Farm . . . '' Los 
Angeles Times.
    \21\ Remarks at the White House Forum on Combating Human 
Trafficking in Supply Chains. U.S. Department of State. January 29, 
2015.
    \22\ http://ciw-online.org/slavery/ and http://ciw-online.org/fair-
food-program/.
    \23\ The U.N. Guiding Principles were adopted unanimously by the 
U.N. Human Rights Council in 2011. They recognize that when it comes to 
human rights, the State has the duty to protect, Corporations have the 
responsibility to respect these rights, and Victims have the right to 
access remedies when violated and provide implementation guidance to 
states and corporations.

    The Chairman. Well, thank you both. Great testimony and we 
really appreciate your efforts in being here and your efforts 
regarding this issue.
    I have come to believe that through Congress, we can create 
and lead a vision to end modern day slavery. I really believe 
that. And we have had conversations with both the private 
sector and public sector--some partners around the world. I 
really believe that, undoubtedly, with the United States behind 
it, we can lead, we can solve this, and we can bring others to 
the table.
    One of the things that I have learned is that many 
organizations are adopting best practices, okay? And, Gary, if 
I could, my staff has prepared a number of questions, but I was 
able to go to the Philippines and see your work there. And I 
would just say to the audience and the people here that seeing 
the 22 young women that we saw that day, you would have to be 
not a human being to sit through that with dry eyes.
    I would just like, with my time, if you could just walk 
through how you go into a jurisdiction and build from the 
ground up the type of effort that you just talked about so that 
others might hear.
    Mr. Haugen. Thank you, Mr. Chairman. Well, it begins by 
where all the best information comes, and that is by actually 
walking alongside the victims of slavery. If you do not 
actually get close to them and understand their experience, you 
just will never be able to serve them in a way that ends 
slavery. But it also means having to get to know the experience 
of the perpetrators, the people who do this.
    What will make them afraid to try to enslave another 
person? So what we do is we go and we begin to work cases. We 
work with local partners there on the ground. We raise up a 
local national team of investigators and lawyers and social 
workers, and they proactively go find where are the victims of 
slavery. Then we take those cases to the actual authorities, 
and we do something we call collaborative case work. We 
actually begin to work cases with the authorities.
    And what you find out is what is broken in law enforcement 
that could be fixed in order to make sure that the law is 
enforced because it is thriving because it is not. So, it 
requires working these cases through the system and finding 
where is it broken. And in that process you make a diagnosis 
that is not just about blaming. It is about improving a 
capacity.
    And so, what we have now seen is that you can improve the 
police capacity, the prosecution, the courts, and, critically, 
the survivor care services in a way that actually brings hope. 
We have seen in the Philippines, for instance, measurable 
decreases of sex trafficking of kids by about 80 percent over 
about only a 4-year period of time because enforcement kicked 
in. We walked alongside them with collaborative case work, 
began to transform the system, and then did what we are doing 
now, which is making sure that the community owns and imbeds 
that victory so that it goes on without IJM's engagement.
    What has happened in the Philippines, the success in the 
second-largest city so inspired the government to then continue 
this model in Manila, the largest city, and Pampanga, another 
city that had the largest sex trafficking of kids. And so, what 
you do is you restore hope to the system, and law enforcement 
can actually do its job.
    We did not have to substantially reduce poverty in the 
Philippines over those 4 years. Other programs were getting 
after that, and that is important in reducing their 
vulnerability. But we did not have to wait for that to happen 
to see a nearly 80 percent reduction in the victimization of 
kids in the commercial sex trade. Is that helpful, Mr. 
Chairman?
    The Chairman. So, the question is, I mean, as we begin to 
look at doing something, mobilizing on a global scale, is what 
you have done there, in your opinion, something that can be 
replicated around the world where slavery is just a part of the 
culture there?
    Mr. Haugen. We have no doubt about that. Some places will 
be harder than others. We are working in South Asia, Southeast 
Asia, Africa, Latin America, really different contexts. But one 
thing is certainly true. It seems like a culturally acceptable 
practice as long as no one gets in trouble for it. But when 
people start to get marched off to jail for it, everyone starts 
to realize, oh, yes, this is against the law. The law can 
actually be enforced, and I do not want to be in this business 
anymore.
    That is a transferrable concept. We have seen it now 
replicated due to some private financial support in South Asia 
that has allowed us to replicate to now dozens of other 
organizations who can do the exact same thing.
    The Chairman. You know, you compared this to malaria. We 
have had some of the same results in PEPFAR because we have 
continued to focus on treatment, although there is always a 
push, as you mentioned earlier, to sort of move out into other 
areas. But if you focus on treatment, then you have the kind of 
results, and we have been able to do that. This committee has 
been able to make sure that the focus is on treatment.
    One of the things that I think people would be concerned 
about is how do you know you are achieving the results that are 
laid out with an issue like this? Could you talk to us a little 
bit about how you set the base and how we can actually measure 
the results in a way that if we were to lead an effort like 
this, we would know that we were actually achieving results?
    Mr. Haugen. This is absolutely critical, Senator, as you 
think about stewarding the taxpayer's money, of making an 
investment in the fighting against slavery. Could you actually 
measure that it is working? This has never been done before 
until the last decade where we now can go into communities and 
do prevalence studies. We can measure how much sex trafficking, 
forced labor is actually taking place by infiltrating the 
criminal networks who are operating and get a baseline. Then 
you can carry out your intervention and measure at a halfway 
point, and then at the end, whether or not there has actually 
been two things: one, an increase in the performance of the 
criminal justice system in enforcement, and then a correlated 
decrease in the prevalence of the slavery.
    I do not think we should be going forward with significant 
investments in fighting slavery unless there is measurement 
about whether or not those efforts are succeeding. Are they 
suceeding in trying hard? No. In lots of activity? No. In 
training at fun days at the Sheraton? No. But did it actually 
measurably reduce the amount of slavery over time? That is now 
possible, and that is the huge development that now gives us a 
moment in history to get rid of slavery.
    The Chairman. And in closing, Shawna, in listening to that, 
I know you have had a tremendous amount of experience in supply 
chains and efforts in that regard. Do you think we are at a 
point in time where we can measure success and that these types 
of best practices can be multiplied in other places around the 
world?
    Ms. Bader-Blau. I absolutely do, and I do agree that the 
United States has a very important role to play here. In fact, 
the agencies of the U.S. Government and departments of the U.S. 
Government that are focused on forced labor and trafficking, 
woefully underfunded as they are, have been making some good 
innovations in these efforts. The Department of Labor's 
International Labor Affairs Bureau, for example, has focused 
more on data collection, and monitoring, and best practices, 
and replication.
    I would say that the TIP office of the State Department, I 
think it is, in fact, and I can say this having looked across 
our foreign assistance framework. Our work out of the TIP 
office, as underfunded and small of an effort as it is compared 
to what we need in the world, is one of the places where we 
have a very coherent policy and programmatic orientation where 
together policies and programs and directed in the service of 
diplomacy fighting this scourge globally. And if we could bring 
more resources to that fight, I think that office could do a 
lot more as well.
    The State Department, the Bureau of Democracy, Human 
Rights, and Labor, has a role to play on root causes and 
identifying root causes around the global migration problem.
    Some of the issues I discussed around recruitment fees and 
the extreme labor exploitation and forced labor conditions of 
domestic workers, for example, that we see in the gulf. Our 
diplomacy should be much more robust and aggressive on tackling 
the root causes of this very difficult form of modern slavery 
that is hard to eradicate, but is the real truth of the lives 
of domestic workers in dozens of countries around the world.
    So, there are programs that work and can be replicated. And 
I would really enjoy working with the committee to flesh some 
of those out. I can name just one really quickly. In Florida, 
you will know of the program of the Coalition of Immokalee 
Workers, Fair Food Program, working with several international 
U.S.-based companies has figured out a way to eradicate forced 
labor in tomatoes in Florida through a program jointly with big 
buyers. And that has been a really successful, highly regarded 
program. It is actually a worker-driven program. It is called 
the Fair Food Program there in Immokalee, FL.
    We also had a great experience in Liberia on the 
Bridgestone Plantation where for decades we had a very bad 
problem with child labor there. And with the democratic opening 
at the end of the civil war in Liberia and the emergence of 
civil society in the country, an organization formed there, the 
Firestone Agricultural Workers Union of Liberia. They were able 
to work with the company to lower quotas that were causing all 
these children to have to work with their families in order to 
meet the quotas, and they lowered these quotas through 
bargaining. Together they lowered the quotas that were demanded 
of each worker, so husbands did not have to bring their 
children and wives to help them meet these quotas. And in so 
doing, they created a new stream of funding to pay for schools 
on that planation, and today child labor has been eradicated on 
that plantation. It is really a success story that we could 
invest in and a model we could work on globally.
    The Chairman. Thank you for that full answer, and I am 
sorry I went over just a little bit. As we turn to our 
distinguished ranking member--thank you both again--Senator 
Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Mr. Chairman, 
you get to go over as long as you want as far as I am 
concerned. In any event, thank you both for your testimony and, 
more importantly, for your work.
    I want to start with you, Mr. Haugen. Basically, I heard 
your overarching theme is that we have to end impunity if we 
want to end slavery at the end of the day, modern day slavery. 
And so, that to me means in addition to the infrastructure that 
your ministry has built and working on creating the access to 
those who are the victims of slavery, bringing their stories 
and information to light, it means governments have to have a 
willingness to fight because impunity ultimately prevails if 
governments are not willing ultimately to prosecute.
    So I heard you in response to the chairman talk about how 
some of the work that you have done has helped governments 
incline, but have you found governments that are not inclined 
to put a priority to the question of ending impunity in modern 
slavery? And if so, how do we break through with those 
governments?
    Mr. Haugen. Sure. To be clear, I think in every setting 
where we have started, the government was disinclined to invest 
in this effort, so we are always up against the lack of 
political will. Three things have been super powerful. One is 
rallying the local community to demand that their local 
government do a better job, and there are heroes, local 
organizations, leaders that can be rallied to that, and we have 
seen that shift. And what you do is you end up giving them a 
lot of the evidence and clarity about the nature of the 
problem.
    Secondly, international influence matters tremendously. So 
in countries like the Philippines and Cambodia, it mattered 
tremendously that this was a priority of U.S. diplomatic 
interaction. We saw the situation change from not being an 
interest at all to the local government, to becoming a huge 
interest.
    The third thing that is really quite interesting now is 
that the private sector has a powerful role to play because 
there are very, very large international corporations that 
carry reputation exposure because they have forced labor in 
their supply chains. And so, now they are getting a lot of 
proper pressure, and there are things they can do to take care 
of it themselves. But what they also can do is to begin to turn 
their attention to those local governments and say, hey, we are 
getting all this exposure because you do not enforce these laws 
at all. To begin to direct that kind of influence will matter.
    The fourth thing that matters tremendously is demonstrating 
what is possible. A lot of what looks like a lack of political 
will is despair. They do not think it is possible to get the 
police to actually enforce the laws without corruption and with 
excellence. We have seen that once you put together a unit that 
can do that and demonstrate it is possible, people get a vision 
for it, and things move very fast.
    Senator Menendez. And when you were talking about creating 
community support, I would assume those are individuals who are 
not the victims of trafficking, but others in the community who 
bore the slavery and trafficking that is taking place, and try 
to create a change in their government. Is that right?
    Mr. Haugen. Absolutely, local organizations.
    Senator Menendez. And let me ask you this. What can we do 
from your experience, what can governments, and the private 
sector, and the public sector do to increase protections for 
potential trafficking victims during conflicts, which 
increasingly seems to be one of our challenges?
    Mr. Haugen. Yes, that is, I think, the largest challenge 
for us is trying to address trafficking in sectors where there 
is no rule of law. It is a failed state. It is a conflict zone. 
One of the things that absolutely we can begin to do much 
better is what Shawna alluded to is make sure that those who 
are fleeing those conflicts and are refugees, displaced people, 
to make sure that they are just not in floating circles of sort 
of lawless chaos, that there are ways to make sure that they 
are reasonably well protected, and so that we look to see 
whether or not there is actually law enforcement that is 
protecting those populations and regulation of the treatment of 
those that are fleeing those zones.
    I am not going to tell you that it is going to be possible 
to effectively enforce these antislavery laws in places where 
there is an ongoing war. But we can reduce the vulnerability of 
those who are displaced by it, and we can go to the places 
where most of the slaves are, which are not conflict zones. 
They are reasonably peaceful, stable countries where simply 
they do not actually enforce the laws against slavery. That is 
where the tens of millions are.
    Senator Menendez. Ms. Bader-Blau, I am interested. You 
mentioned Qatar as one of your examples. In January, I sent a 
letter to the Secretary of State with our concerns about the 
realities of forced labor and foreign labor during Qatar's 
infrastructure projects in advance of the 2022 World Cup. And 
while we applaud Qatar for winning the site of the World Cup, 
we also know that in this lead-up to the dramatic 
infrastructure work that needs to take place, there are real 
challenges to some of the workers who are falling in the same 
type of slavery that you acknowledge. So I will look forward to 
seeing the Secretary's response to that.
    So, you gave some pretty powerful examples of what workers 
themselves can do as it relates to trying to end human 
trafficking and slavery, particularly in the labor context. 
What more can governments do to end forced labor in the supply 
chain, and what more can the private sector do? Mr. Haugen said 
that there is a powerful incentive for the private sector to 
get it right because they do not want to have their brand 
tarnished. In a different context, I have been pursuing this 
with workers in Bangladesh. The question I want to know from 
you from your perspective, what can the governments do to 
create a more powerful action against the impunity, and also 
what can corporations do.
    Ms. Bader-Blau. Thank you, and I think those are the key 
questions really. You know, if I could start with government 
and if I could start with our own government, you know, looking 
at--you started with the example of Qatar. In fact, the entire 
gulf has a problem with extreme forced labor, Saudi Arabia 
being a major challenge as well as the United Arab Emirates and 
Kuwait. The whole gulf has this problem.
    When I spent time in the gulf, what I found is when you 
talk to migrant workers, they say that their governments where 
they come from do not do anything to help them. And when you 
talk to the governments privately, what they tell you is, well, 
you know, if we tell Saudi Arabia or Qatar that we demand a 
minimum wage of $350 a month for our construction workers, they 
will just say we will not take you, we will take Burmese 
workers instead. And so, there is a power dynamic between the 
wealthy countries that are importing labor and the home 
countries that view migration as an important development tool 
for themselves. It is a commodification really of the poorest 
people on the planet through this system.
    And I think the United States could actually fill a major 
gap here working with other major countries to get the home and 
host countries together that are playing this very, very bad 
race to the bottom game with the lives of very, very poor 
people around the world, and say, look, stop this race to the 
bottom. The Burmese construction workers are cheaper than the 
Indians, are cheaper than the Nepalese. Have a convening of the 
home country countries and talk about how that leads to forced 
labor and trafficking.
    I think we also really need to address this question of 
recruitment fees, and the United States can do so much more on 
this question. I cannot tell you how many people I have met in 
my experience who say the reason I have to stay in the 
despicable working conditions I am, and the people we do not 
see that I could not even meet because they are trapped in a 
home and are not allowed out, is because they owe tens of 
thousands of dollars in some cases to recruiters.
    This recruitment agency around the world, these agencies 
need to be better regulated, and we need to play a bigger role 
in that. They operate often under the radar in an illegal 
manner. They are not regulated by their states. They often 
operate with mafia-like tendencies in many countries and extort 
money from very desperate people. Without any focus on any 
regulation on the recruitment industry, the chance that we are 
going to end this part of slavery that is debt bondage and 
forced labor is very, very low. So I think we could play a very 
serious leadership role there.
    In terms of corporations, I think corporations are really 
the key since most forced labor today is in the private economy 
around the world, and I think the question of supply chains is 
a tough one. There is endless subcontracting out that happens 
to keep prices down. Well, the real question is, at what point 
do we say to ourselves that it is time for corporations to say, 
yes, I agree, I would like to eradicate forced labor in my 
supply chain? I am going to make this a priority, and I am 
going to hold myself accountable to this. And so, therefore, I 
am going to make the entire chain transparent. I will let 
everyone know who our subcontractors are. And I will, as a CEO, 
I will guarantee that we are going to work directly with each 
subcontractor down the chain to make sure that they prove there 
is no forced labor and no slavery there.
    We have been able to achieve amazing innovations in the 
private sector through incredibly good focus on quality control 
through supply chains. I know that we can do this to end forced 
labor as well, and I think this committee could play a real 
role in that regard. I think there are a lot of good examples 
there to be had.
    Senator Menendez. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you, Senator.
    Senator Risch.
    Senator Risch. Thank you very much, and thank you for your 
testimony. One thing that you did not pay much attention to, 
something that struck me in the years I have been on this 
committee and on the Intelligence Committee, is a condition 
around the world that most Americans really are unaware of, and 
probably would be surprised that in the United States and only 
a handful of other countries, bribery is not acceptable.
    In listening to witnesses from all over the world talking 
about the issues that they have, particularly when it comes to 
nonenforcement of laws, bribery seems to be ubiquitous around 
the world. And obviously the less money there is, the more 
powerful money becomes. A person who wants to stay in power, be 
it through votes or whatever else, will ignore the rule of law 
in order to garner votes. And it surprises me how ubiquitous it 
is, how acceptable it is, how in parts of the world it has 
quasi-legal status, even legal status in some parts of the 
world.
    So, what do you do when you run into this? First of all, is 
this an area of your concern, and secondly, what do you when 
you run into that where, okay, you have found the problem, you 
have identified who the people are, who the actors are. You 
have got a law that is on the books. And, like you said, there 
is reluctance on the government's part, and probably at least 
on occasion that it is a result of bribery. What do you do in 
that kind of a--first of all, how common is this, and then, 
secondly, what do you do with it? Mr. Haugen first.
    Mr. Haugen. Just to affirm, Senator, it is massively 
common. Every context we have gone into we have seen 
overwhelming police corruption, corruption of the criminal 
justice system, which gets paid not to enforce the law. And 
this can seem like a completely overwhelming situation until 
you adopt the perspective of the enslaver or the trafficker, 
which is from their corruption: What do they need? A reduced 
probability that they will not get in trouble? No. They need 
certainty that they will not get in trouble, and so they make 
all the bribes they need to make sure that they are safe.
    What happens, however, when you introduce a vetted, 
trained, specialized unit that is actually enforcing the law--
it is going around a rogue force and enforcing the law--and it 
completely disrupts the corruption network because now I am 
paying money, but it is not guaranteeing me safety. And so, we 
have seen this incredibly powerful effort, or effect really, of 
vetted units that can disrupt these corruption networks so you 
do not have to actually clean up all the corruption before you 
get results. You can establish some vetted, trained units that 
are enforcing the law, and it makes that perpetrator get out of 
the business because he cannot buy certainty anymore.
    We have also found what we call the 15/70/15 rule in law 
enforcement. Fifteen percent of police show up to try to steal 
and hurt people every day, 15 percent show up trying to do the 
right thing, and the 70 percent in the middle, they are just 
waiting to see who is going to prevail. And when the corrupt 
ones are prevailing, they are right there with the corrupt 
officers, and it looks like that system is 85 percent corrupt.
    But when the corrupt officers start going to jail, they 
start failing to get the jobs, and the promotions and the 
success and rewards go to those who are actually succeeding, 
that 70 in the middle who wants to keep their jobs, they just 
scoot themselves right over. And that starts to very quickly 
look like a police department that is pretty much 85 percent 
functioning. This transformation we have seen with our own eyes 
in countries across cultures, and it is very encouraging.
    Senator Risch. That is assuming, of course, they cannot get 
to the people at the top that are hiring these units that will 
go out there.
    Mr. Haugen. Yes, sir, but that has been surprising that we 
have seen that in most contexts it does not go all the way to 
the top.
    Senator Risch. It operates at the lower levels.
    Mr. Haugen. Yes, sir. They will not want to necessarily 
proactively address the patronage of people that they are 
protecting. But if you expose to them that this is taking 
place, which is what you do with real evidence, they will not 
protect those folks that are then exposing them to liability.
    Senator Risch. Shawna.
    Ms. Bader-Blau. Thank you, and I think we share that 
analysis. I maybe would add one piece on in terms of forced 
labor and the connection to bribery. I was mentioning the 
recruiters. There are many governments around the world that 
are trying to experiment with getting rid of the market for 
illegal recruiters by regulating it and owning it, basically 
running the market through direct-direct government-to-
government recruiting, running the industry rather than leaving 
it to these very diverse and unregulated markets that are run 
by sort of the legal mafias, and also thrive on bribery, 
corruption, and gangs.
    Senator Risch. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I thank you all 
very much for your work. In my work with the Helsinki 
Commission and the OSCE, trafficking has always been a very, 
very high priority. And I think one of the most impressive 
visits I have done is to visit victims' centers in foreign 
countries because it shows that the community understands that 
those who have been trafficked are victims, and that if you 
need to get papers in order to be legal, you have a resource 
you can go to and escape the person who has trafficked you. So, 
I would just point out that there are ways to counter this, and 
that we should be looking at it.
    One of the great achievements in dealing with trafficking 
in the United States is the Trafficking in Persons Report. It 
was not easy to convince the State Department that they needed 
to be engaged. Now, they are very proud of the work that we do 
in trafficking and on the TIP Report. Whenever I have an 
ambassador from another country or a foreign minister in my 
office, I always have the TIP Report, and I always go over 
trafficking with them and ways that they can improve in 
trafficking, because the issue is not just with the origin 
country or even the destination country, but also the transit 
country. So, there are different areas that you can stop the 
trafficking, and a war zone is one of the other three. There 
are other areas that can help us prevent that type of 
trafficking.
    My first question is, How can we improve the TIP Report to 
deal with your concerns? I know countries do not want to be on 
the Tier 2 Watch List and certainly not the Tier 3, but there 
is waiver authority, and there is concern as to whether we can 
make the TIP reports even more effective, particularly dealing 
with trafficking and forced labor.
    Mr. Haugen. Well, first of all, Senator, I want to thank 
you for carrying the TIP Report around. It is kind of a stinky 
document to carry around the world, but it is unbelievably 
powerful because governments do not want accountability and 
transparency for the reality within their country for this 
horrible crime. And yet there is nothing really like it in the 
world in terms of ratcheting up the pressure. I have seen 
governments going from not caring at all to running in a hurry 
to address the problem and actually changing law enforcement to 
respond.
    I think what the TIP Report primarily needs is just 
enhanced stature and support from the whole U.S. Government to 
say this is not a document we are ashamed of. This is not a 
little office of the State Department that we are barely going 
to mention. In fact, we have been actually saying you ought to 
allow the TIP Office to become a full bureau so it is in the 
important conversations at the table where a lot of the 
political decisions about where pressure is going to be applied 
and not take place, and they are not actually in the room.
    But I think strengthening the political stature of this as 
a priority for us is what is going to make the difference 
because the TIP Report has, I think, just about all the 
information that it needs. It can be strengthened on 
performance measurements of the criminal justice system I 
think, but that is extraordinarily strong. And what mostly 
needs to happen is just the stature with which our diplomatic 
interactions bring strength to bear on behalf of it.
    Ms. Bader-Blau. Thank you for the question, and thank you, 
all the Senators on this committee, for the focus on the TIP 
Report. It is a really important report. As a human rights 
activist, I would say I find the TIP Report and associated U.S. 
diplomacy to have the highest potential for impact on human 
rights than anything we do in our U.S. foreign policy. And I 
have actually seen that on the ground, seen the TIP Report when 
we focus a diplomatic effort behind the tier rankings and match 
it with adequate program and support on the ground make a real 
impact in the lives of average people. It is a very important 
report.
    I think, you know, in terms--for us how the TIP Office 
could be more effective certainly with more resources, right 
now they are small enough that they have to really focus 
interventions. You know, they have got that really amazing 
report that covers the whole globe with fantastic suggestions 
at eradicating forced slavery and modern slavery and for every 
country in the world, and they do not have the resources to do 
it all. It means that they have to triage each year and do very 
little work compared to what they have the capacity for, so I 
think that would help.
    Senator Cardin. Let me go to your point that you raised on 
transparency in the supply chain. We looked at voluntary ways 
to get more transparency in different areas. In extractive 
industries we have the EITI, which is a voluntary way countries 
can come together to disclose their energy and mineral 
contracts so that we can trace money that should go to the 
country itself but may go toward corruption. We found EITI to 
be helpful, but it is still not enough. So in the Congress we 
have passed a transparency bill known as Cardin-Lugar that 
requires mandatory SEC filings from extractive industries.
    What would you recommend in regard to transparency in the 
supply chain dealing with forced labor? Do we need a mandatory 
reporting requirement in the United States that would hopefully 
then be picked up by other countries so that we can get a more 
comprehensive view, or are you to believe that we can develop 
the protocols voluntarily within the business community in this 
regard?
    Ms. Bader-Blau. Senator Cardin, thank you. I am not a fan 
of voluntary reporting when it comes to something as vile as 
slavery and forced labor. I think it is not too much to ask, 
and believe that we can come up with a mandatory reporting. And 
I do believe that legislation would help with that.
    Senator Cardin. And I assume that the United States is 
going to have to lead here. If we do not do it, other countries 
will not take the initiative.
    Ms. Bader-Blau. The United States absolutely must take the 
lead on this.
    Senator Cardin. My last question deals with the 
opportunities under the Trans-Pacific Partnership, TPP. 
Malaysia is one of the TPP aspirants. They are on Tier 3 in the 
TIP Report. What would you expect us to be able to accomplish 
in successful TPP negotiations as it relates to trafficking?
    Ms. Bader-Blau. Well, I believe that thankfully we have 
this very strong set of recommendations in the TIP Report for 
Malaysia, for example. I think that we should take that like a 
handbook when working on this new trade agreement. Before we 
lose the leverage of extending the trade agreement, to work 
with the Government of Malaysia to make the changes that are 
needed and laid out in that TIP Report.
    You know, for example, we work in Malaysia, and since the 
Tier 3 ranking came out, we have seen, on the ground, very 
little coming out of the government in terms of changes. They 
are not increasing prosecutions. They are not going after the 
bad actors, and they are not rescuing victims from forced 
labor. I do not think we should let this go. I think we should 
work a little harder on that, and I think we should ask for 
changes in advance of turning over our leverage in the TPP.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you, and thanks for your leadership on 
this issue the entire time you have been in Congress, and for 
being here today, absolutely.
    Senator Isakson.
    Senator Isakson. I want to follow up on Senator Cardin's 
point and your response. You know, we found in Africa with the 
Millennium Challenge Corporation and the moneys that are 
invested in Africa, we conditioned a lot of those investments 
based on a lessening of corruption and improvement in labor 
standards. And we have in some cases taken countries out of 
those programs because they would not cooperate.
    When we do the TPP, one of the main things we want to do is 
use the leverage if these countries want to do business with 
the United States to have incremental improvements in the way 
they treat their labor and a total disregard for human 
trafficking. Would you agree with that?
    Ms. Bader-Blau. I believe that before we negotiate a TPP, 
if we put this all hard on the table, they want that agreement 
really badly. And I think we can use this time to say before we 
finish this agreement, we want to see some real steps, some 
real changes. We have experiences with other negotiations 
related to trade that the incremental approach sometimes just 
means incremental is 15 or 20 years.
    And I think with such an extreme case like forced labor and 
trafficking, I think it is not too much to ask that we see real 
significant changes in policies and practices before we finish 
the negotiations.
    Senator Isakson. And we found incremental is acceptable as 
long as when they violate an increment, they have a punishment 
for it, and they actually realize there is a consequence.
    Ms. Bader-Blau. And that is the other issue is that whether 
or not it is before or after, at some point we also need to 
monitor and enforce. And the ongoing resources for the TIP 
Office, the State Department and even USAID that is now trying 
to work across the agency to mainstream TIP through its C-TIP 
policy. More resources to these agencies will help monitor over 
time. I think that is a really important point.
    Senator Isakson. I read your story in your testimony about 
the Indian woman who hired a recruiter 20 years ago to find her 
a job, and the recruiter found her a job in Kuwait City. She 
and her husband followed the recruiter to Kuwait City, and if I 
read it correctly, the University of Kuwait hired her, and she 
has for 2 years washed towels in the women's dormitory at the 
University of Kuwait. Was never allowed out of the building 
where she washed those towels, and was not allowed to see her 
husband.
    And it occurred to me that I know traffickers take 
advantage of poverty, and they take advantage of weakness and 
illness. Are they also taking advantage of the treatment of 
women under Sharia law or in Islamic states where women are a 
second-class citizen by virtue of that religion, because Kuwait 
City with its great university, you would think as an employer, 
the university would everything to have equality for the women. 
But to actually be employing the woman in a substandard job, 
and almost holding her as a slave, is the religion a part of 
that? Is it cultural? What is it?
    Ms. Bader-Blau. In some ways I wish it were as easy as 
cultural because then we could say it would be worse in one 
place or another. But the reality is the condition, 
particularly of domestic workers, in most parts of the world is 
just that, and that includes countries of all different 
religious and ethnic backgrounds. We see this problem from 
Southeast Asia, across China, in the Middle East, and beyond.
    The problem is really that when people employ domestic 
workers, they view them as people that they can lock away in 
the house that no one is even going to see and are at their 
beck and call. There is no regulation of their work. They are 
not even seen as workers--they are not covered by labor laws. 
And it is painfully common that forced labor is present in the 
domestic worker arena. And I would say, though, that what is 
common is that the majority of domestic workers around the 
world are women. And I do think that there is a common gender 
inequality issue that affects forced labor of women in domestic 
work.
    Mr. Haugen. I would add a word on that, Senator, which is 
simply to say there are variations on cultural attitudes about 
treatment of women and treatment of the poor, but all these 
countries have put in law that slavery is not permitted. And 
the question is are they simply enforcing the cultural norm 
they have actually already embedded in the law, and the answer 
is ``No.'' But we can now powerfully move countries to actually 
enforce the cultural norm in law, and for most slaves, that 
will end slavery for them.
    Senator Isakson. Following up on--since you are talking, I 
will follow up with one question I have for you. Every golf cap 
I have bought in the last 25 years was made in Bangladesh, and 
we have seen a tremendous movement of textiles to Asia and the 
Pacific region. How are our companies in America doing in terms 
of holding producers of those products to a higher standard in 
terms of their labor laws in those companies?
    Mr. Haugen. How are U.S.----
    Senator Isakson. How are U.S. companies who retail those 
products--are there any--are U.S. companies showing--shining a 
light on better treatment for those workers and trying to avoid 
doing business with people who are actually holding people in 
slavery?
    Mr. Haugen. I think definitely when the United States 
treats it workers well, it raises the bar.
    Senator Isakson. But I am talking about in terms of the 
workers in the country where the baseball caps are made, for 
example.
    Mr. Haugen. Yes.
    Senator Isakson. If an American company buys them and 
trademarks them, with their trademark on them, do you see 
evidence of United States companies putting a standard of 
excellence or a standard of behavior on those countries in 
terms of their labor laws?
    Mr. Haugen. Yes, we do. Because that is part of their 
supply chain, they carry with them exposure for abuses that 
take place in that supply chain. And as consumers increasingly 
care about that, we are starting to see it bump up to the very 
top of boardroom discussions that that exposure exists. And it 
now has the opportunity to then leverage influence in those 
countries to actually enforce the laws against those abuses.
    Senator Isakson. That is the point I wanted--Mr. Chairman, 
I wanted to make that point because--he is in a conversation 
with the ranking member. But I wanted to make that point for 
this reason. Senator Coons and I went to South Africa 2 years 
ago and toured some textile finishing plants that were 
finishing products for sale in the United States of America. 
And the companies, and I am not going to get into names, but 
the companies that were buying the finished product from 
those--were requiring standards of better treatment of their 
workers, and were using that as a marketing tool in the United 
States for the product they were selling. And that is where you 
take the paradigm of taking the advantage of poverty away and 
taking advantage of excellence in marketing. And so, I think 
that is a good point to continue to make.
    Mr. Haugen. Yes, sir.
    Senator Isakson. Thank you.
    Ms. Bader-Blau. If you have examples like that, I think we 
should raise them up. I think that is more the exception than 
the norm, and the truth is I think we have seen a real mixed 
record on companies taking responsibility for behavior down 
their supply chains. We see often more distancing than 
accountability, and I think that is one of the problems we need 
to solve.
    Senator Isakson. I will get you some good information after 
the meeting. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thank you for 
time and testimony today. Before this hearing, I had an 
opportunity to visit with the Colorado Organization for Victim 
Assistance. I met with them back in Colorado, and had followup 
with them prior to this hearing just to talk about some of the 
things that we see, that we hear, that we face in Colorado and 
our States. And in some of the--some of the information they 
sent, some of the articles, some of the studies that they had 
reported, it talked about how when it comes to human 
trafficking issues--this is your modern day slavery--that many 
of the victims and many of the foreign national trafficking 
victims have been assisted by the Colorado Organization for 
Victim Assistance, come to this country legally with guest 
worker visas. Is that true?
    [Nonverbal response.]
    Senator Gardner. So we are not really talking about like 
somebody who has not come to this country illegally, who snuck 
through the cracks--gotten through the cracks somehow and is 
not accounted for, but is somebody that we know through the 
process. Is that the case around the world as well?
    Ms. Bader-Blau. In our estimation, for the most part, yes. 
People do migrate on legal visas to go from Nepal to Saudi 
Arabia. As a very poor person without a lot of money to buy 
that ticket and figure out the visa, no. They have a broker. 
They help them get into the country legally. The problem is the 
visa program itself. The visa they come in on ties them to an 
employer, and there is no regulation about what happens before 
they leave. So if they have had to pay $6,000, $8,000 illegally 
to a broker that they are now indebted to, sold their house, 
this is very common.
    And then, they go to a country where they are on a legal 
visa program, but then something happens. The employer, because 
of lack of enforcement, does not pay what they are owed. They 
are trapped in debt bondage, and this is incredibly common.
    Senator Gardner. I think one of the challenges that we have 
as policymakers, as leaders in this effort to combat this, I 
think a lot of people think that this may be related to 
immigration when it is not. I mean, this is actually just--you 
know, in terms of documents or visas, that is not the issue. 
The issue is how people are treating--how we are holding people 
accountable.
    There is a story that they shared about two brothers from 
Peru who came to Colorado, who were working on a sheep ranch in 
western Colorado. And it talked about how they were treated, 
how they were abused, how they had been--passports withheld, 
and it talks about how they escaped. It talks about this very 
telling story, this very emotional story about how they were 
able to escape, and what they did, and the fear that they lived 
under, and who they went to for assistance, not knowing whether 
their employer was going to find them and trap them back into 
this great tragedy again.
    Are we doing enough in the United States to hold those 
employers accountable, to make examples? When this is reported, 
are we doing enough so that when we talk to other nations, when 
we enter into agreements, that they can look at us without 
hypocrisy knowing that we have done everything we have said we 
want them to do? Are we doing enough?
    Mr. Haugen. If I could just respond. You have a critical 
insight here because it is absolutely true that the vast 
majority of slaves in the world are citizens within their own 
country. Yes, moving populations and immigration is one of 
those vulnerability factors, but most slaves--most of this 30 
million or more slaves are citizens within their own country. 
So the United States will not be able to have as effective a 
leadership role in helping other countries in that regard if it 
is not doing what it can do within its own country to make sure 
it is enforcing laws to protect the basic rights of workers 
here within our borders, and holding companies accountable that 
violate those laws.
    Senator Gardner. Go ahead.
    Ms. Bader-Blau. I will just quickly agree and say within 
our guest worker visa programs, there are lots of gaps in terms 
of making sure that people are not coming into these programs 
indebted before they come, that once they come, if they face 
exploitation or abuse, that they are able to, without 
retaliation, raise unsafe working conditions or harmful 
employment conditions. And their ability to do that is very 
limited, and also being tied to employers is still a problem in 
the United States.
    Senator Gardner. And there have been things like the 
Polaris Project, which up until this past year had Colorado 
ranked very low in terms of its laws and protections it was 
providing to workers. But as a result of changes made by the 
State legislature, this past year rank it in the top tier, in 
fact, one of the States with the best laws to protect people.
    When we look around the globe, though, are we able to see 
those kinds of changes being made in the way that we--Colorado 
has a law basically on the books that stated laws against 
trafficking, trafficking in children statute. They had that on 
the books, but the courts interpreted it in such a way that the 
person had to literally own a child victim and transfer 
ownership in order for them to be convicted under the statute. 
Now, that statute has been changed. Do we see those same kinds 
of legal loopholes or problems around the globe that are 
allowing people to get off the hook?
    Mr. Haugen. We have reviewed the laws in scores of 
countries where we are operating, and there are sort of 
technical difficulties, improvements that could be made. But 
overwhelmingly, the reason that there are tens of millions of 
people in slavery is not because the legal scheme is 
inadequate. It is that the enforcement mechanism is not even 
attempted to be leveraged, so this is our point of focus.
    And when you focus on enforcement, you do end up finding, 
oh, here is the hiccup in the law that needs to be addressed 
for us to comprehensively do this. But right now, the thing we 
have to wrap our minds around is that you are at greater risk 
of being struck by lightning than you are of actually going to 
jail for these crimes in the countries that have the most 
slaves.
    Senator Gardner. And are--I am sorry. Please.
    Ms. Bader-Blau. I would say in my experience, particularly 
in the Middle Eastern countries where I have worked and 
witnessed this issue, you know, even in a country with very 
weak rule of law and no focus on human rights--you can take 
Saudi Arabia--you are not allowed to not pay workers, I mean. 
And the biggest incidents of forced labor you see in a country 
like Saudi Arabia are employers that literally do not pay 
workers and force them to work for months and months and 
sometimes years on end. It is illegal even under Saudi law, and 
they are not held accountable.
    Senator Gardner. And how are we doing in terms of 
coordination with local law enforcement, State law enforcement, 
I mean, in terms of the laws international organizations, 
associations? How are we doing with that coordination to make 
sure that we have the communication available to prevent this?
    Mr. Haugen. I think this is getting much, much better.
    We have been at this for almost 20 years now, and here in 
the United States you have seen because of the political will 
expressed now to address it, the coordination of law 
enforcement is making it harder and harder and harder for 
traffickers to get away with what they are doing. But it 
requires sustained attention. That is the thing because it 
preys upon those who are politically the weakest. So it 
requires those of us who have more political influence just to 
make sure that law enforcement is prioritizing these things 
continuously because as soon as we take our gaze off of it, the 
traffickers will come right back in.
    Ms. Bader-Blau. And I would just say that I think we could 
do a lot better. I think that we have laws on the books that 
are supposed to prevent the importation of goods that are made 
with forced labor and child labor. They are not enforced 
adequately. There is not enough inspection. There was recently 
a--you may have seen it. In December, the Los Angeles Times 
wrote, I think, a five-part series on forced labor in Mexico in 
agriculture, and the reporters chased the supply chain all the 
way back up to United States supermarkets on a shoestring 
budget, and found endemic forced labor in agriculture in 
Mexico.
    You know, these goods are made with forced labor and child 
labor, young girls as young as 12 years old, you know, picking 
chilies off plants that end up in our supermarkets. We should 
enforce these laws and make sure that does not happen.
    Mr. Haugen. Can I just add on, the data that we have seen 
in the fight against terrorism to actually bring intelligence 
together coherently, and to mine it, and to apply analytics 
that allow you to chase down where the bad guys are, those same 
tools could be applied to the fight against slavery, but we are 
going to need a coordinated international effort, a fusion of 
data by which that crime fighting can actually take place. And 
that is possible now if we come together with the resources to 
build such a capacity.
    Senator Gardner. Thank you.
    The Chairman. Thank you. Thank you very much.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman, for holding this 
hearing. At the outset, let me congratulate you for the title, 
``Ending Modern Slavery.'' That is exactly what it is. I have 
no problem with the term ``trafficking,'' except I think it 
sometimes sanitizes what we are talking about. ``Trafficking'' 
makes it sound like people are just being moved around from 
point A to point B. It is not the moving around as much as what 
happens once they get there. And I think ``modern slavery'' 
accurately assesses it.
    To that point, we have an ambassador at large for 
trafficking in persons--it should be an ambassador at large for 
ending human slavery or modern slavery--that has sat vacant for 
a number of--for quite a period of time. I hope that there will 
be a nomination and that we can get that confirmed because I 
think that is important in terms of the U.S.'s role around the 
world on this issue.
    I wanted to touch on two subjects. The first is, and we had 
not touched on this yet, but let me ask you this. There have 
also been reports of abuses in the diplomatic corps here in the 
United States. Do you have any unique insight into some of 
those abuses and how they have used their diplomatic status to 
bring--in some instances we have seen here in Washington, to 
see domestic workers that are actually being not compensated 
and held against their will?
    Mr. Haugen. Just to say I think it is a manifestation of 
the basic phenomena, which is at the highest levels this is not 
taken seriously as a crime, as a horror, and as something in 
which actual consequences must be brought to bear. And as long 
as it is seen that, well, wink-wink, you know, if you have the 
right place, if you have the right power, you can get away with 
this. That is what happens in the countries where the vast 
majority of slaves are. The people of power, of influence, they 
get away with it on a vast scale.
    But what law brings so beautifully is equal protection of 
the law to say that the poorest and the richest by the law are 
on the same playing field, and that is the opportunity we have 
now is to see that these laws are actually enforced. Nothing 
makes that look more ridiculous than when you have these 
diplomatic abuses.
    Ms. Bader-Blau. Thank you for the question, and we think it 
is really horrific abuses we are seeing in the diplomatic 
corps. And I agree with Gary, it is a pretty vile practice. We 
understand--however, there has not been a tough enough reaction 
on the part of our own government to these abuses in the 
diplomatic corps, and sometimes it is because we have sensitive 
relationships with the governments in question. And that 
happens, as you know, with the tier rankings and the TIP Report 
on occasion as well.
    You know, the extent to which we can de-link some of our 
more difficult diplomatic relationships with countries from the 
actual holding account to a law would be better. We understand 
now it may be the case that domestic workers from India will be 
allowed to come in again to join the diplomatic corps under a 
different visa category, and I think that would be something to 
look into.
    Senator Rubio. I know that sex trafficking and sex slavery 
gets a lot of attention and rightfully so. I want to talk about 
that. My point is that it is the labor slavery that really is 
still the predominant number, and it can happen anywhere. I 
mean, people would be shocked at how prevalent it is here 
domestically.
    I wanted to ask you domestically for a moment in the United 
States about three topics. The first is on the sex slavery 
side. Do you have any sort of insight about how many, 
particularly women, but even children, obviously women. Let me 
focus on that first, the adult women, who are in the trade now 
could be considered people that are being trafficked and/or 
held against their will? It is my personal view that virtually 
all of them are one way or another because coercion is not 
necessarily someone holding a gun to your head or someone 
refusing to pay you. But things like drug addiction are used as 
a tool. Things like fear of escape, even psychologically. It 
has been my experience in the interaction I have had with law 
enforcement involved in this that you should consider virtually 
every woman in that industry as being a victim of slavery 
basically.
    Mr. Haugen. I would just say that there are, you know, 
disagreements about this and what constitutes coercion and so 
forth. One of the things we do know is that if you are a minor, 
you cannot consent to this kind of abuse, and yet you can find 
plenty of minors there if you prioritize this as a proactive 
criminal investigative matter. And you can secondly find 
straight-up violence, and the evidence of it, and clarity of 
it, that also makes it clearly an act of coercion and a 
criminal act.
    So, yes, there is place obviously for some disagreement, 
but the sad part is where there is no disagreement, but there 
is also not adequate enforcement of the law. And this just 
needs to be a priority for us community by community.
    Senator Rubio. The reason why I ask you this, and I wanted 
you to comment as well, Ms. Blau, there are publications in the 
United States that openly advertise on their pages for these 
services. And, in fact, the same publications, like ``Village 
Voice,'' that have gone on to write articles ridiculing this 
whole notion that there is human slavery in the United States--
that there is slavery in the United States with regards to the 
sex trade. And there has been all sorts of actions taken here 
to condemn that.
    And the reason why I ask you that question is because 
oftentimes when law enforcement interacts, for example, with 
women that are being--that are in prostitution and have, in my 
opinion, been coerced into it either through drug addiction, 
abuse, or a combination thereof, there is a debate within the 
law enforcement community about whether they should be treated 
as perpetrators or as victims. And we have had this debate in 
Florida as well.
    When you interact with someone that you basically have 
found at a brothel or, in some instances, some of these massage 
parlors and so forth, the debate has been should we arrest 
them, and put them in jail, and treat them as a perpetrator, or 
should we pull them out of that environment, put them into a 
safe place where they can realize that there is an escape for 
them, and they can break that pattern. And we have gotten a lot 
of pushback from both law enforcement and prosecutorial 
agencies who believe that it is important to treat them as a 
perpetrator first, that that is the only way you are going to 
get them see differently.
    Do you have an opinion on the right way to address that, 
because it has been--it is an issue of controversy in the law 
enforcement community?
    Mr. Haugen. I will state a clear preference, that the 
preference and better law enforcement way to approach this is 
to actually treat them as victims. You will get their 
cooperation. You will be able to get behind the real criminal 
networks and activities that are behind it. And I do think from 
my own law enforcement experience, it is a bit of a sloppy 
excuse to pretend that that is not possible.
    Ms. Bader-Blau. And I think we need a very robust program 
of training of law enforcement on this issue. And it is not 
just in the United States, it is globally. We have had programs 
that we have done in other countries, Indonesia and other 
places, where we have worked law enforcement to identify people 
that otherwise look, according to the laws, as they are 
perpetrating a law, to a violation of a law, such as in the 
commercial sex industry to identify them as victims by asking 
them questions. How did you get here? Where did you come from? 
How old are you?
    The truth is I believe that many cases of labor trafficking 
originally end up in sex trafficking, and we find that if law 
enforcement can actually be trained on talking to people and 
understanding where they come from, that we can get more 
prosecutions, and we can really focus our ire where it belongs 
on the traffickers, and not the victims.
    Senator Rubio. I know I am out of time. In your experience, 
the majority of people from abroad that are here in the 
commercial sex industry, did they know they were coming to that 
industry when they were brought?
    Ms. Bader-Blau. I do not have a particular stat on that.
    Senator Rubio. Okay.
    Mr. Haugen. In my experience, the majority are victims of 
coercion and fraud.
    Senator Rubio. False pretense. They thought they were 
coming here to make a commercial product, and they ended up 
trapped in this industry.
    Mr. Haugen. Correct.
    Senator Rubio. Thank you.
    The Chairman. Thank you. You all have been outstanding 
witnesses. In my opening comments I mentioned the role Congress 
has played. But, I think because of your efforts and so many 
advocates from around our country, the administration, too, I 
think is very focused on this. I know Secretary Kerry recently 
referred to a much more robust effort. So I think this is 
something that we can all work on together in a very positive 
way, and I want to thank you both for a lifetime of effort in 
this regard, for being here today, for sharing your 
experiences, and for working with us in the future. Thank you 
very much.
    And now we will have the second panel. Do we have our 
second panel?
    Mr. Abramowitz. Yes. Sorry, Mr. Chairman. They were just 
out in the hall doing an interview with CNN, so they are just 
waiting for them to clear, and they will be right in. I told 
them they had to mention your name, Mr. Chairman, and Senator 
Menendez if they were going to do this interview in your 
hearing, but I do not know if that happened.
    The Chairman. They get mentioned enough, thank you.
    Senator Menendez. That is a former congressional staffer. 
[Laughter.]
    The Chairman. We will now turn to our witnesses for the 
second panel. Thank you for being here. Our first witness is 
Mr. James Kofi Annan. In 2013, he was awarded the World's 
Children Prize for his work to stop child slavery. He himself 
was a fishing slave as a child for 7 years. He managed to 
escape, get an education, and become a bank manager. In 2007 he 
left the bank to work solely to stop child slavery. By that 
time, he had already started an organization called Challenging 
Heights in 2003, which has liberated over 500 children from 
slavery.
    Liberated slave children come first through Challenging 
Heights' safe home for 65 children. Challenging Heights also 
runs a school for 700 pupils of different ages. They offer 
training to poor mothers so that they can support their 
families and do not just sell their children into slavery. He 
has supported over 10,000 children who have been slaves or at 
risk for slavery. Thank you for being here.
    Our second witness is Shandra Woworuntu, the founder of a 
nonprofit organization dedicated to empowering human 
trafficking survivors through mentorship and job training. She 
graduated from college with a major in finance and bank 
management in her native Indonesia. After graduation, she 
became the manager of the Treasury Department of the Korea 
Exchange Bank in Indonesia, specializing in money market 
trading.
    When political turbulence erupted, she lost her job because 
of economic, religious, and racial persecution. She applied for 
a job that promised a 6-month position in the hotel industry in 
Chicago, which led her to become--and to survive being--a 
victim of a criminal human trafficking organization. Thank you 
again for being here today.
    Our next witness is David Abramowitz. He is vice president 
of policy in government relations at Humanity United, a 
foundation that focuses on advancing human freedom by combating 
human trafficking and modern slavery, among other human rights 
issues. Previously he served as Department of State's Office of 
Legal Advisor.
    In 1999, he joined the staff of the Committee on Foreign 
Affairs for the House of Representatives, and served as chief 
counsel. Over the next year 10 years, he worked on such 
legislation as the Victims of Trafficking and Violence Act of 
2000 and the William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2008.
    And with that, we will recognize James Kofi Annan. If you 
would begin and just go in order. Thank you all for being here.

 STATEMENT OF JAMES KOFI ANNAN, FOUNDER, CHALLENGING HEIGHTS, 
                     KANESHI, ACCRA, GHANA

    Mr. Annan. Thank you, Chairman Corker, Senator Menendez, 
and other members of the committee for holding this important 
hearing. I am the founder of Challenging Heights, an 
organization that for 10 years has helped children who have 
been trafficked into modern slavery in Ghana. We deliver social 
justice interventions to children, women, and underserved 
communities in coastal and farming communities. Our work 
includes rescue, rehabilitation, and reintegration of children 
who have been trafficked into the fishing industry. We also 
raise awareness of trafficking in communities to prevent 
trafficking and re-trafficking of children.
    In fishing communities along the lake, Ghanaian children 
are being sold into a life of forced labor, malnutrition, 
abuse, and no school. Traffickers prey on poor families in 
communities along the country's coast. Typically, families are 
told by their traffickers that if they let their children come 
to the lake, they will live with relatives who will care for 
them and send them to school in exchange for a few hours of 
work after school. In reality, the children 
are forced to work long hours on their boats and in dangerous 
conditions.
    A typical day might begin at 3 a.m. and end at 8 p.m., and 
include challenging tasks such as casting nets, diving, 
hauling, with only one meal served. Children often get stuck in 
the nets at the bottom of the lake as a result of unsafe 
diving. If a child is caught escaping, the consequences can be 
brutal. Often the families do not hear from their children 
again.
    I founded Challenging Heights because I was a victim of 
this slavery situation myself. I was forced to work in the 
fishing boats on Lake Volta as a young child. I understood the 
challenge of surviving such a trauma, and I also saw the 
tremendous potential to change things in my country to prevent 
child labor, to rescue children from slavery, and to give those 
survivors a chance for a good life.
    Our organization supports hundreds of children and their 
families each year. We help prevent trafficking by helping 
vulnerable children to go to school, by creating awareness, 
building communities' capacity to stand up against trafficking. 
We also have a survivors' rehabilitation center and a child 
trafficking survivor support network aimed at providing 
protection for children.
    I am very proud of my organization's accomplishments, but I 
know that there is so much more we need to do to stop 
trafficking in Ghana and throughout Africa. The U.S. Government 
plays an important role in this direction. The U.S. State 
Department's Trafficking in Persons Report issued each year is 
a useful tool for Ghana and other governments, helping to keep 
them accountable for continuing to do better work to stop 
trafficking. Each year I contribute to the report so it 
reflects the most up-to-date reality facing trafficking 
survivors in Ghana. And just a couple of days ago I was sent 
information to start making my input. I host U.S. Government 
officials, showing them firsthand the dire situation facing 
children at risk of exploitation.
    The United States diplomatic pressure is very important in 
helping to persuade the Government of Ghana to act. It is 
critical that these efforts continue and are properly funded. 
In particular, we would like to see a renewal of commitment to 
the National Plan of Action, which the government itself has 
created, and money allocated to the Human Trafficking Board to 
be released for immediate use.
    The Department of Labor's Bureau of International Labor 
Affairs also plays an important role in combating trafficking 
in Ghana and other countries. First, it conducts research on 
international labor, forced labor, and human trafficking, and 
publishes very valuable reports that help hold countries 
accountable. The Bureau funds projects for organizations and 
engages in efforts to eliminate exploitative child labor around 
the world. And lastly, it assists in the development and 
implementation of U.S. Government policy on international 
labor, forced labor, and human trafficking issues.
    This important bureau must retain its resources and 
expertise to address the most intractable forms of child labor 
and exploitation. I urge Congress to consider legislation that 
would secure permanent resources for ILAB and insulate it from 
political shifts. I also believe that the U.S. Government can 
improve implementation of its development programs. Whether it 
is building a school, constructing a highway, or distributing 
food aid, the U.S. Government must integrate strategies for 
preventing, identifying, and responding to trafficking.
    It is especially important that development programs fund 
projects that focus on prevention of slavery, and I will 
specifically cite the example of the Millennium Challenge 
Account, which we believe can be tied to some of these issues 
of slavery. Ideally, the government should target resources 
toward grassroots organizations as Ghanaians themselves and 
those in other countries struggling to end human trafficking 
are the only ones who can do the difficult work of changing 
attitudes in their own countries.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Annan follows:]

                 Prepared Statement of James Kofi Annan

    Thank you, Chairman Corker, Senator Menendez, and other members of 
the committee for holding this important hearing to consider how fight 
modern slavery, a most horrific human rights crime.
    I am the founder of Challenging Heights, an organization that for 
nearly 12 years has served children who have been trafficked into 
modern slavery in the Lake Volta region of Ghana. Our organization 
delivers social justice interventions to children, women, and 
underserved communities in coastal and farming communities. Our work 
includes rescue, rehabilitation, and reintegration of children who have 
been trafficked in the fishing industry, as well as creating community 
awareness on these issues in order to prevent trafficking and re-
trafficking of children.
    Challenging Heights also contributes to policy and awareness 
creation and the public discourse on issues affecting Ghanaian 
children. Additionally, the organization runs a school for more than 
700 children who are survivors of child trafficking or who are at risk 
of child trafficking.
    The question you are asking today: What is the best way forward to 
ending modern slavery? That is a very big and important question. I 
believe the answer has many facets, just as human trafficking takes so 
many forms.
    In fishing communities along Lake Volta, Ghanaian children are 
being sold into a life of forced labor, malnutrition, abuse, and no 
schooling. Traffickers prey on poor families in communities along the 
country's coast. Typically, the families are told by the trafficker 
that if they let their children come to the lake they will live with 
relatives who will care for them and send them to school in exchange 
for a few hours' work after school. In reality, the children are forced 
to work long hours on the boats in dangerous conditions. A typical day 
might begin at 3 a.m. and end at 8 p.m. and include challenging tasks 
such as casting nets, diving, and hauling, with only one meal served. 
Children often get stuck in the nets at the bottom of the lake. If a 
child is caught escaping, the consequences can be brutal. Often the 
families do not hear from their children again.
    I formed Challenging Heights because I was a child slave myself who 
was forced to work in the fishing boats on Lake Volta as a young boy. I 
understood the challenge of surviving such a trauma, and I also saw the 
tremendous potential to change things in my country, to prevent child 
labor, to rescue children from slavery and to give those survivors a 
chance for a good life.
    Today, Challenging Heights supports hundreds of children and their 
families each year. We help prevent human trafficking from taking place 
by helping vulnerable children go to school, creating awareness and 
building community capacity to stand up against trafficking. We also 
have a 65-capacity survivors' rehabilitation center, and a child 
trafficking survivors support network aimed at providing protection for 
children.
    I feel proud of our accomplishments, but I know that there is so 
much more we need to do to stop trafficking in Ghana and throughout 
Africa. The United States Government plays an important role.
    First, the U.S. State Department's Trafficking in Persons Report 
issued each year is a useful tool for Ghana and other governments, 
helping to keep them accountable for continuing to do better work to 
stop trafficking. Each year I contribute to the report so it reflects 
the most up to date reality facing trafficking survivors in Ghana. I 
host U.S. Government officials, showing them firsthand the dire 
situation facing children at risk of exploitation.
    The United States diplomatic pressure is very important in helping 
to persuade the Government of Ghana to act. It is critical that these 
efforts continue and are properly funded. In particular we would like 
to see a renewal of commitment to the National Plan of Action, and 
money allocated to the Human Trafficking Board released for immediate 
use.
    The Department of Labor's Bureau of International Labor Affairs 
(ILAB) also plays an important role. The Bureau does a number of 
important things that affect trafficking in Ghana and other countries:

          (1) It conducts research on international child labor, forced 
        labor, and human trafficking and publishes very valuable 
        reports on the worst incidences of child labor, and lists of 
        goods produced by child labor and forced labor;
          (2) The Bureau funds projects for organizations engaged in 
        efforts to eliminate exploitive child labor around the world; 
        and
          (3) It assists in the development and implementation of U.S. 
        Government policy on international child labor, forced labor, 
        and human trafficking issues.

    One thing I am concerned about is that this important Bureau 
retains its resources and expertise to address the most intractable 
forms of child labor and exploitation. Even as gains are made in 
reducing the prevalence of child labor worldwide, real and complex 
problems remain. I believe Congress should consider legislation that 
would secure permanent resources for the Bureau of International Labor 
Affairs and insulate it from political shifts.
    I also believe that the U.S. Government can improve the 
implementation of all its development programs by integrating an 
antitrafficking lens. Whether it is building a school, constructing a 
highway, or distributing food aid, the U.S. Government must integrate 
strategies for preventing, identifying, and responding to trafficking. 
It is especially important that development programs fund projects that 
focus on prevention of slavery. Ideally, the government should target 
resources toward grassroots organizations, as Ghanaians themselves--and 
those in other countries struggling to end human trafficking--are the 
only ones who can do the difficult work of changing attitudes in their 
own communities.
    Mr. Chairman, thank you for the opportunity to share my 
perspective, and for this committee's work to find a way to end modern 
slavery.

    The Chairman. Thank you very much.
    Ms. Woworuntu.

                STATEMENT OF SHANDRA WOWORUNTU, 
               TRAFFICKING SURVIVOR, NEW YORK, NY

    Ms. Woworuntu. Thank you, Chairman Corker, Senator 
Menendez, and other members of the Foreign Relations Committee 
for holding this hearing today. I am an advocate, a survivor of 
human trafficking, and the founder of Mentari, a nonprofit 
organization dedicated to providing human trafficking survivors 
with mentorship and job training to help them rebuild their 
lives.
    In my native Indonesia, I was a college-educated financial 
analyst employed by an international bank. I lost my job in 
1998 because of political turbulence and its fallout, so I 
expanded my job search to the United States. And after I 
responded to advertisement for a job in a hotel in Chicago, I 
checked my legal documents, paid a $3,000 recruitment fee, 
accepted the position, and I flew to New York City.
    I entered the United States lawfully on a nonimmigrant visa 
arranged through the recruitment agency that brought me here. I 
was picked up at the airport with five other women, and soon 
our passports were forcibly taken, and our lives threatened. 
And the abusive situation become clear: we were being 
trafficked into the sex trade. And they asked me to pay $30,000 
U.S. to be free.
    I managed to escape, and I cooperated with law enforcement 
to successfully prosecute my trafficker, and we rescued many 
girls. It was hard for me to survive because there were not 
many services available to help me. Safe Horizon in New York 
assisted me to stay legally in the United States.
    I believe to end human trafficking globally, the U.S. 
Government needs to focus on prevention and strengthening 
policies to prosecute the traffickers, and to provide victims 
with stable and sustainable support. And I also believe that 
policymakers should listen to the voices and opinions of 
survivors of human trafficking. And I thank you for doing that 
today.
    One of the best ways to prevent human trafficking is 
through education and awareness. I urge Congress to invest in 
supporting and encouraging countries to implement programs that 
will make people more aware, and will help them question 
whether a job opportunity is legitimate or the work of criminal 
labor recruiters, like the one I met in Indonesia. Labor 
recruiter and contractors are directly involved in the 
trafficking and exploitation of workers around the world. 
Criminal recruiters make false promises about the job, and 
charge workers high recruitment fees that force workers to stay 
in abusive or exploitive working conditions under debt bondage.
    Mr. Chairman, last year Congress considered, but did not 
pass, the Fraudulent Overseas Recruitment and Trafficking 
Elimination, or FORTE, Act of 2013. I urge you to support 
introduction and passage of similar legislation this year. This 
will require that workers coming to the United States receive 
accurate information about the job and working condition they 
are being offered, and would also ensure that workers do not 
have to pay recruitment fees.
    Another important step Congress can take to prevent human 
trafficking is to demand transparency in supply chains for 
products that are sold in United States. California passed 
legislation that requires companies to publicly disclose what 
efforts, if any, they are taking to ensure the supply chains do 
not include forced labor. Congress should support supply chain 
transparency on the Federal level, and Congresswoman Carolyn 
Maloney has introduced the Business Supply Chains Transparency 
on Human Trafficking and Slavery Act in the House to achieve 
this goal.
    I also urge Congress to strengthen the United States role 
in developing a shared global foreign policy and especially to 
prosecute the traffickers. Building our capacity to conduct 
intercountry investigations and prosecution should be high 
priority in that effort.
    Mr. Chairman, I want also to ask today for your support for 
a Senate companion to H.R. 500, the Survivors of Human 
Trafficking Empowerment Act. This bill will create a survivor-
led U.S. advisory council on human trafficking to review 
Federal Government policy programs on human trafficking. And it 
is so important that survivors play a role in finding solutions 
to end modern slavery. This proposed legislation is a great 
step forward.
    I want to close by saying something about human trafficking 
survivors. It is very difficult for survivors to recover from 
such a terrible experience. It is challenging when you are in a 
country where you do not speak the language and have little or 
no support. I hope the U.S. Government will recognize the need 
to provide sustainable support for survivors, including long-
term support, to help survivors receive training and 
opportunities to gain employment. I believe United States can 
and should be a leader in demonstrating the best practice to 
the world.
    Thank you.
    [The prepared statement of Ms. Woworuntu follows:]

                Prepared Statement of Shandra Woworuntu

    Thank you, Chairman Corker, Senator Menendez and other members of 
the Foreign Relations Committee for holding this hearing on how we can 
move forward to end modern slavery.
    I am an advocate, a survivor of human trafficking, and the founder 
of Mentari, a nonprofit organization dedicated to providing human 
trafficking survivors with mentorship and job training to help them 
rebuild their lives.
    In my native Indonesia, I was a college-educated financial analyst 
employed by an international bank. I lost my job in 1998 because of 
political turbulence and its fallout, so I expanded my job search to 
the United States. After responding to an advertisement for a job in a 
Chicago hotel, I checked the legal documents, paid a recruiter fee, 
accepted the position, and flew to New York City.
    I entered the United States lawfully on a nonimmigrant visa 
arranged through the ``recruiting organization'' that brought me here. 
I was picked up at the airport, along with five other women, by men we 
all believed were affiliated with our recruiter. Shortly thereafter, 
however, our passports were forcibly removed, our lives were threatened 
and the situation became clear: we were being trafficked into the sex 
trade.
    I managed to escape by jumping out of a small bathroom window, and 
I cooperated with law enforcement to successfully prosecute my 
trafficker. It was hard for me to survive because there were not many 
services available to help me. Safe Horizon, NY assisted me to be 
independent and also to stay legally in the United States.
    I believe that to end human trafficking globally, the U.S. 
Government needs to focus on prevention, and on strengthening policies 
that are enacted to prosecute traffickers, and to provide victims with 
stable and sustainable support.
    The U.S. Government has been a leader, through its annual 
Trafficking in Persons report and other diplomatic initiatives, in 
urging governments around the world to do a better job of preventing 
modern slavery. Our government can do much more.
    One of the most effective ways to prevent human trafficking is 
through education and awareness. I urge Congress to invest in 
supporting and encouraging countries to implement programs that will 
make people more aware, and will help them question whether a job 
opportunity is legitimate, or the work of a criminal labor recruiter.
    Labor recruiters and contractors are directly involved in the 
trafficking and exploitation of workers around the world, including 
men, women, and children who enter the United States lawfully. These 
criminal recruiters make false promises about jobs and charge workers 
high recruitment fees that force workers to stay in abusive or 
exploitative working conditions under debt bondage.
    I know several trafficking survivors who paid up to $20,000 in 
recruitment fees for jobs that didn't exist. In most cases, they 
borrowed the money from people or loan sharks in their home country 
that expect to be paid back. Now exploited, trafficked, and unpaid, 
they cannot pay back those loans--this creates debt bondage.
    It is important to have uniform standards for employment agencies 
that send workers to another country. They should be required to give 
information about the working conditions for the jobs they are 
offering, and they should provide workers with a clear description of 
the workers' rights.
    Congress has an opportunity to help prevent trafficking by illicit 
labor recruiters into the United States, and to demonstrate to other 
countries the kind of policies needed to address human trafficking. I 
urge Congress to reintroduce The Fraudulent Overseas Recruitment and 
Trafficking Elimination (FORTE) Act of 2013, which would deter human 
trafficking, forced labor and exploitation by:

          1. Requiring that workers coming to the United States receive 
        accurate information about the job, their visa, and working 
        conditions;
          2. Ensuring that no fees for recruitment are charged to 
        workers;
          3. Requiring that the recruitment agency registers with the 
        Department of Labor; and
          4. Enforcing a penalty if the law is not followed.

    I encounter men and women from all over the world who have 
experienced human trafficking in some form. They are from different 
nations, cultures, and backgrounds, but many have one thing in common: 
they were brought here by a seemingly reputable recruiting agency. With 
an estimated 14,000 individuals trafficked into this country each year, 
it's a problem that needs to be addressed--this legislation is one 
important part of the solution.
    Another important step that the U.S. Government can take to prevent 
modern slavery is to demand transparency in supply chains for products 
that are sold in the United States. California has passed legislation 
that requires companies to publicly disclose what efforts, if any, they 
are taking to ensure their supply chains 
do not include forced labor. This legislation is a good first step, but 
it should not 
be limited to one state; Congress should initiate supply chain 
transparency on a national level.
    I also urge Congress to strengthen the United States role in 
developing a shared global foreign policy to fight human trafficking, 
and especially to prosecute traffickers. Building our capacity to 
conduct intercountry investigation and prosecutions should be a high 
priority in that effort.
    Mr. Chairman, I want to ask today for your support of a Senate 
companion to H.R. 500, the Survivors of Human Trafficking Empowerment 
Act, introduced by Representatives Honda and Poe. This bill would 
create a survivors-led U.S. Advisory Council on Human Trafficking to 
review Federal Government policy and programs on human trafficking. It 
is so important that survivors play a role in finding the solutions to 
end modern slavery, and in helping the government understand how to 
provide survivors the support they need. This proposed legislation is a 
great step forward.
    I want to close by saying that as a survivor of human trafficking, 
I am committed to empowering other survivors. That is why I established 
Mentari, an organization based in New York that provides mentorship and 
job training to survivors. It is very difficult for trafficking 
survivors in the United States, and globally, to recover from such a 
terrible experience. It is even more challenging when you are in a 
country where you don't speak the language and have little or no family 
support. I hope the U.S. Government will recognize the need to provide 
sustainable support for survivors, including long-term support to help 
survivors receive training and opportunities to gain employment. 
Programs that support job training and job creation can help prevent 
survivors from being retrafficked, as well as protect all men and women 
who are vulnerable to exploitation and trafficking. I believe the 
United States, again, can and should be a leader in demonstrating best 
practices to the world.

    The Chairman. Thank you very much.
    Mr. Abramowitz.

   STATEMENT OF DAVID ABRAMOWITZ, VICE PRESIDENT, POLICY AND 
     GOVERNMENT RELATIONS, HUMANITY UNITED, WASHINGTON, DC

    Mr. Abramowitz. Thank you, Mr. Chairman, and thank you, Mr. 
Menendez, Mr. Chairman, and members of the committee, for 
holding this very important hearing. And thanks for the 
opportunity to testify today. Mr. Chairman, Humanity United 
combats modern slavery by building effective networks, engaging 
the private sector, and strengthening the antislavery advocacy 
movement, including support for the Alliance to End Slavery and 
Trafficking.
    Mr. Chairman, as you said, with two-thirds or more of the 
profits for modern slavery coming from sex trafficking and two-
thirds of the victims subject to labor trafficking, we must 
work urgently to combat human trafficking in all its forms.
    Each of these victims, Mr. Chairman, deserves to become a 
survivor, and I feel privileged to be testifying alongside two 
of them today. I think the kind of testimony and experiences 
they can bring demonstrate why the legislation that Ms. 
Woworuntu just mentioned on having the survivor advisory 
council is very important so that the executive branch could 
really hear in a very specific way from survivors moving 
forward.
    Mr. Chairman, turning to more specific solutions, I first 
want to focus on foreign labor recruiters. A lot has been said 
about that. We heard a lot about it from the last panel as well 
as the panel here. In my testimony, I talk about the whole 
system of foreign labor recruiting, including corruption, which 
I think Senator Risch was very correct in terms of identifying 
that as a key issue. But there are a number of ways that we can 
address it.
    First, these issues have to come out more in the open with 
a more frank discussion. The TIP Report was mentioned earlier 
and also in the testimony of my fellow panelists. It can really 
bring a lot of information to light. It can help identify which 
countries are the key countries that need to be focused on. It 
can analyze the commitment of those governments trying to end 
human trafficking, where perhaps more pressure needs to be 
brought. And it also points out sensible solutions.
    But this report is only as valuable as it is accurate, and 
as Senator Rubio pointed out, we have had a vacancy in the TIP 
ambassador slot. We are about to start the report season where 
the information that James and others are going to provide will 
start to be looked at. And I am very worried that if we do not 
have someone in that position, then those who want to downplay 
abuses in certain countries are likely to be successful, and we 
will not have a report that has as much integrity as in the 
past. And I would ask unanimous consent that a piece that I 
just wrote in The Hill on this matter, which lays out certain 
criteria for a new Ambassador, be put in the record.
    Second, Mr. Chairman, governments can require greater 
transparency and regulate foreign labor recruiters. The FORTE 
Act that Shandra just mentioned is very important. It lays out 
transparency, bans fees, and creates a regulatory structure. 
And we also have the Executive Order 13627 on strengthening 
protections against trafficking persons in Federal contracts, 
which has similar provisions. And this committee really needs 
to make sure that that Executive order is implemented. One of 
the most important reasons to do so is U.S. leadership. If we 
can demonstrate that we are trying to dive down into these 
issues, then it gives us much better moral authority to try to 
address these issues with other governments.
    Third, technology can play a role in providing worker 
information. One such platform that has recently been developed 
is Contratados. Think of this as the mobile application Yelp, 
but for 
foreign labor recruiters and for companies. It allows workers 
to 
rate companies and employers and to warn other workers of bad 
experiences.
    A lot was said about supply chains. The work is hard to 
look at these supply chains, and we can try to help companies 
think about their supply chains. For example, the Coalition for 
Immokalee Workers that was mentioned by Ms. Bader-Blau, works 
directly with workers, growers, corporations to together 
eliminate slavery and the sexual abuse that comes with it from 
tomato fields in Florida.
    Technology and big data was mentioned. Verite, which is a 
leader in issues looking at labor, and Palantir Technologies, 
which is a big data analytics company that is used across many 
areas of law enforcement, are partnering to pilot a potentially 
transformative analytical product that will enable companies to 
unravel complex labor supply chains and identify risks of human 
trafficking and forced labor.
    There are other kinds of private sector and civil society 
partnerships that can work across sectors. For example, in the 
sustainability area, there is a lot of work that has been done 
to try to prevent rain forests from being cut down in order to 
preserve the rain forests.
    However, there is also forced labor and modern slavery that 
are engaged with both the cutting of the forests and then the 
palm plantations that are planted in their place. If we can 
bring these siloed communities together to work together, they 
can try to make real progress in this area.
    Similarly, Mr. Chairman, we in Humanity United are working 
in Nepal with brick kiln owners. We are trying to provide them 
incentives so that they can both reduce emissions and also end 
child labor. However, we have to be careful about the 
unintended consequences of our actions as workers can return to 
their village into the same cycle of poverty and exploitation. 
Small investments in education and livelihood, as we just 
heard, can make our efforts to free slaves sustainable. That is 
why baseline measurements and strong evaluation and monitoring 
are critical to ensure that the interventions are actually 
reducing modern slavery as opposed to just displacing it.
    I go through, Mr. Chairman, in my testimony a number of 
others matters regarding partnerships, including the way the 
corporate sector can work with law enforcement in order to try 
to eliminate human trafficking through the data that they 
collect. But we really need to bring together private donors, 
governments, the private sector, civil society, and survivors 
together.
    In conclusion, Mr. Chairman, and Senator Menendez, and 
other members of the committee, last week marked the 150th year 
since the House of Representatives voted to approve the 13th 
Amendment ending slavery in the United States. This coming 
December we will mark the adoption of the amendment as the law 
of the land. This committee can play a really instrumental 
leadership role in helping mark that anniversary by pushing 
forward the fight against human trafficking and modern slavery.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Abramowitz follows:]

               Prepared Statement of David S. Abramowitz

    Mr. Chairman, Senator Menendez, and distinguished members of the 
committee, thank you for holding this hearing on one of the most 
terrible human rights abuses of our times--the widespread occurrence of 
human trafficking and modern slavery--and thank you for the opportunity 
to testify today.
    Mr. Chairman, I am the Vice President of Policy and Government 
Relations at Humanity United, a U.S.-based foundation dedicated to 
building peace and advancing human freedom. Over the past decade, 
Humanity United has worked to combat human trafficking and end modern 
day slavery in the United States and around the globe.
    We do this by building effective networks to address this issue, 
raising awareness, encouraging sustained government leadership on the 
issue, engaging the private sector to become part of the solution, and 
by strengthening and supporting the antislavery advocacy movement.
    In that context, we support the Alliance to End Slavery and 
Trafficking, a coalition of 14 U.S.-based human rights organizations 
that advocates for solutions to prevent and end all forms of human 
trafficking and modern slavery around the world. The coalition presses 
for lasting solutions to prevent labor and sex trafficking, hold 
perpetrators accountable, ensure justice for victims, and empower 
survivors with tools for recovery.
   scope and nature of trafficking in persons and modern day slavery
    Mr. Chairman, human trafficking and modern slavery inflict enormous 
human suffering. While data collection on this underground crime is 
challenging, we know that tens of millions of people around the globe 
are subject to this abuse, and conservative estimates put global 
profits at $150 billion.\1\ It is one of the most pressing and complex 
human rights challenges of our time, yet also crosses over into such 
diverse areas as transnational crime, international humanitarian law, 
domestic and international labor frameworks, and migration, among 
others.
    And we know that human trafficking and modern slavery has many 
faces. Exploited through force, fraud, or coercion, these are adults 
and children who are forced to work on fishing vessels, in mines, 
plantations, sweatshops, and brothels. Two thirds of the profits from 
modern slavery come from sex trafficking, while two-thirds of the 
victims are in labor trafficking.\2\ We must work urgently to combat 
human trafficking in all its forms.
    Mr. Chairman, this is not a matter of numbers: each individual 
story of this suffering and exploitation is a human rights tragedy that 
violates our values and beliefs. As you know, modern slavery is also 
not a far away problem that only affects distant lands. It remains a 
shock to most Americans but thousands of adults are trafficked into 
forced or exploitative labor right here in the United States. Some 
estimates suggest that as many as 300,000 U.S. children and youth are 
at risk of being trafficked into the commercial sex trade.\3\ Moreover, 
the problem is not going away. The National Human Trafficking Resource 
Center hotline received nearly four times as many calls in 2013 as in 
2008, with calls rising from 5,748 in 2008 to 20,579 in 2013.\4\ 
Government-funded research also suggests that there are significant 
numbers of cases of labor trafficking in the United States. 
Extrapolating from prevalence rates in San Diego, California, one DOJ-
funded study estimates that there may be nearly 2\1/2\ million workers 
who are victimized by traffickers.\5\
    We have also learned that the sometimes-divisive dichotomy between 
sex and labor trafficking is an unhelpful lens for examining this 
phenomenon. Those exploited for labor often find themselves facing 
sexual abuse, which can also be a driver of vulnerability. When I was 
in Nepal in 2010, service providers suggested that the figure for such 
dual exploitation may be as high as 90 percent of those who have 
migrated, a figure I found shocking.
                        lifting survivor voices
    Each of these victims, Mr. Chairman, deserves to become a survivor. 
They deserve the assurance that they and their families will be 
protected, their perpetrators will be convicted, and the trafficking of 
others will be prevented. And we need to support them to raise their 
own voices.
    This is why I feel extremely privileged to be testifying with two 
survivors of human trafficking. Shandra Woworuntu and James Kofi Annan 
have faced such abuse, and through their personal strength and 
determination have become inspirational leaders in this fight. Pierre 
and Pam Omidyar, who founded and fund Humanity United, are true 
believers that we can only achieve sustainable social change if we work 
alongside those who have been or are on the front lines. So I commend 
you, Mr. Chairman, and you, Senator Menendez, for making sure that 
their voices continue to be heard.
    In that connection, Mr. Chairman, I strongly recommend that you and 
your colleagues from the Judiciary Committee introduce and sponsor a 
companion to H.R. 500, the Survivors of Human Trafficking Empowerment 
Act, introduced by Representatives Honda and Poe in the House. This 
bill would ensure survivor voices are heard within the executive branch 
as it formulates policies to combat modern slavery. All our efforts in 
the United States and globally must be informed by survivors, as well 
as civil society.
          addressing the challenge of abuses in foreign labor 
                      recruiting and supply chains
    Mr. Chairman, turning to solutions, I first want to discuss is the 
need for governments and the business community to address the issue of 
foreign labor recruiters--one of the leading drivers of the phenomenon 
of slavery and trafficking today. Using promises of high salaries and 
fake job offers, unregulated and unscrupulous labor brokers can induce 
people to migrate thinking that they are going for legal work, only to 
trap them in modern slavery. We have heard from both Ms. Bader-Blau and 
most poignantly from Ms. Woworuntu about these challenges.
    In this regard, let me make a few brief points. Mr. Chairman, it 
has become clear that exploitation is not only occurring in the 
brothels of Phnom Penh or in the rice mills of southern India. It is 
happening as labor recruiters and brokers supply workers to the palm 
oil plantations of Malaysia and to construction projects in the Persian 
Gulf. It is happening in the shrimp peeling shacks in Thailand and 
fishing vessels off its shores. It is happening as recruiters deceive 
young women and men with promises of legitimate work only to bind them 
into sexual exploitation.
    The coercion and fraud used in these cases include a wide range of 
abuses, often in different combinations. Unregulated labor recruiters 
lure men and women with promises of legitimate and lucrative jobs in 
distant locations or foreign countries. The prospective workers 
typically pay exorbitant fees equal to 4-6 months of salary to 
middlemen for connecting them to potential jobs and for visa expenses, 
travel documents, transportation, health screenings, and ongoing 
expenses like housing and food. Recruiters are often paid twice for 
supplying workers to companies--once by the company that needs the 
workforce and once by the worker who is desperate to get the job. 
Workers typically borrow money to pay recruitment fees, and the terms 
of workers' debts make them unable to repay their loans, particularly 
since the job often does not pay the salary they were promised, or is 
something altogether different from what they were told they would do. 
And of course, as we heard today, recruiters sometimes place 
individuals in totally different situations, including in the sex 
trade.
    Once at their destination, foreign workers may have their identity 
and travel documents seized, be threatened with deportation into 
danger, and be subjected to life-threatening conditions, confinement, 
and of course terrible violence. Debts can be used to ensure workers 
remain desperate for long work hours, no matter the conditions and, 
along with lack of income and deduction for fees they never knew about, 
lead the workers to be vulnerable to threats against them and their 
families at home.
    Moreover, corruption plays a significant role in modern slavery and 
the recruitment system. In the country of origin or destination, or 
sometimes both, recruiters bribe government officials to look the other 
way. In the worst cases, government officials may come from the 
recruitment industry itself, and police or other security forces can be 
part of the scheme of coercion, lending the threat of the state to the 
threat of the trafficker. The challenges presented by this corruption 
should not be underestimated, reflecting a conspiracy between foreign 
officials and the labor brokers and employers who pay them off. In this 
cycle, many workers who have lawfully issued visas end up in modern 
slavery, undermining the immigration systems in destination countries.
    Fortunately, international reporting is making this cycle more 
apparent. In last year's Trafficking in Persons (TIP) Report, for 
example, the State Department laid out much of this coercive cycle with 
respect to Thailand and the seafood sector. The report describes the 
brutal conditions in the industry and the abuses perpetrated on legal 
migrants, illegal migrants, and minorities. Between the TIP Report and 
the international reporting on abuses in the seafood industry, 
companies in Europe and the United States are coming to the table, but 
the right protections and systems to address abuses have yet to emerge. 
Thailand is just one example of where the TIP Report can help to 
identify a key country of need, analyze foreign government commitment 
to combating human trafficking and modern slavery, and point out 
sensible solutions.
    Abuses like those in the Thai fishing industry are often the result 
of a lack of information for those who are seeking jobs to improve 
their lives. If prospective workers only know what they are being told 
by the labor recruiters who intend to exploit them, they are left to 
choose between the immediate prospect of a better life and often vague 
warnings that something may happen to them. Left with a choice between 
a seemingly tangible improvement for them and their families and a 
distant risk that something may go wrong, they tend to choose hope over 
fear, often to their great detriment.
    Beyond increased transparency, there are numerous potential 
solutions to these challenges. One approach is to require greater 
transparency and regulate foreign labor recruiters such as those 
included in Chairman Ed Royce's H.R.3344--Fraudulent Overseas 
Recruitment and Trafficking Elimination Act of 2013. This legislation:

  <bullet> Provides for transparency in contracts and its terms.
  <bullet> Prohibits fees for recruitment.
  <bullet> Requires foreign labor recruiters to register with the 
        Department of State and authorizes the Department to require a 
        bond.
  <bullet> Provides a safe harbor to companies that use authorized 
        recruiters.
  <bullet> Creates enforcement mechanisms against recruiters that 
        violate the provisions of the law.

    A number of these provisions were adopted in the recently 
promulgated regulations to implement Executive Order 13627, 
Strengthening Protections Against Trafficking in Persons in Federal 
Contracts. As the largest single purchaser in the world, full 
implementation of these regulations could see a cleansing of 
exploitation and abuse in the supply chains of many U.S. Government 
suppliers. This ensures taxpayer money does not unintentionally prop up 
what is already the booming industry of human trafficking. I urge 
Congress to provide the funding needed to implement these regulations 
and to ensure that the U.S. Government implements them fully.
    One reason to support the legislative approach and to make sure the 
implementation of the Executive order works is that such a law and the 
Executive order itself could serve as a model for other countries.
    Because a government and regulatory framework can still be subject 
to manipulation and corruption by traffickers, another needed approach 
is to develop better information and more transparent processes for the 
workers themselves. We know the power of data and the impact of 
transparency to help us make better decisions. With the rapid adoption 
of mobile technology and the increasing penetration of mobile devices, 
new technological solutions are possible.
    One such platform has recently been developed: Contratados.\6\ 
Think of this as the mobile application Yelp but designed for workers 
to review labor recruiters and employers. This technology allows 
workers to rate recruitment companies and employers, and to warn other 
workers of bad experiences. Developed by Centro de los Derechos del 
Migrante, a transnational migrant rights organization based in Mexico, 
this type of worker facing platform holds significant promise in 
equipping migrants with information to make their decisions and 
migration safer. Humanity United is exploring such technological 
approaches to better protect migrants around the world.
    Companies' efforts to trace their supply chains also represent real 
opportunities to address human trafficking and modern slavery. At 
Humanity United, we believe business and markets can be instrumental 
partners in advancing human freedom. Corporations, with their worldwide 
reach and deep engagement with labor--either directly or indirectly 
through their contractors and subcontractors--have the opportunity to 
ensure that severe exploitation is eliminated in all their operations, 
from the assembly of their products to the sourcing of raw materials. 
Increasingly, members of the business community are recognizing that 
they have not only the opportunity but also the responsibility to stop 
trafficking and modern day slavery.
    Consumers and investors worldwide are also increasingly expecting 
them to exercise that responsibility.
    We also need to recognize, however, that this work is not easy. 
Much of the most severe exploitation occurs at the very bottom of the 
supply chain. Whether it is the charcoal mined with slave labor that is 
used to make the pig iron to build the automobiles we drive, or in the 
palm oil contained in our toothpaste, forced labor can taint products 
we use every day. But more and more tools are being developed, from 
both the private and social sectors, for companies to help assess and 
remedy worker abuses deep in their supply chains. Companies around the 
world are slowly recognizing that there are not only ethical but also 
business reasons to clean up their supply chains. Whether it is to 
decrease disruptions that may occur when raw materials are extracted 
with forced labor, to improve conditions to maintain a workforce with 
lower costs for training, to win over talented employees who prefer to 
work for companies that avoid modern slavery, or to avoid damage to 
their brand, companies are increasingly examining their practices in 
both their facilities and their distant supply chains.
    And laws like the California Transparency in Supply Chains Act are 
requiring them to report on what they are doing. The Congress should 
follow suit and make reporting on supply chains a national requirement. 
The Government of the United Kingdom is in the process of adopting such 
requirements for U.K. companies, and other G20 countries such as 
Australia and Canada may follow suit. The United States should help 
lead and coordinate this process not just for the sake of transparent 
supply chains, but so businesses can follow similar requirements around 
the world and not a patchwork of competing efforts and standards.
    It is important to recognize that this work is not easy, and 
complete transparency for all levels in the supply chain is in most 
cases unreachable today. However, corporations can identify risks in 
their supply chains and delve deep to determine whether they have 
slavery in those areas with greatest risks. It is a calculation they 
make all the time.
    We in civil society can help. The award-winning Coalition of 
Immokalee Workers has shown how corporations and growers can 
collaborate with workers to eliminate human trafficking and modern 
slavery and sexual abuse from the tomato fields of Florida. And Verite 
and Palantir Technologies are partnering to pilot a potentially 
transformative analytical product that will enable companies to unravel 
complex labor supply chains and identify risks of human trafficking and 
forced labor within them. Working closely with participating companies, 
Verite and Palantir will integrate corporate supply chain data, 
targeted field research on recruitment patterns and networks, and 
pertinent public information into a database platform. Verite experts 
will analyze the integrated data to illuminate particular labor supply 
networks and flag specific risks connected to one or multiple 
companies' supply chains. This data, augmented by Verite's high-quality 
analysis and targeted recommendations, will be pushed to web-based 
applications in Palantir that provide companies valuable information 
and actionable intelligence.
    However, we in civil society should also recognize that a ``no 
tolerance policy'' does not mean ``slave free.'' We should work with 
companies to ensure that they take steps to address the problems they 
do discover, without pulling out altogether when a situation arises, 
which could hurt the workers whose condition we all want to see 
improve.
                    developing unlikely partnerships
    Civil society can work across sectors and with companies in other 
ways to manage risks in its supply chains. For example, for many years 
the private sector and civil society have worked together in 
partnership on the challenges presented by clearing rainforest in 
Malaysia and Indonesia to create palm oil plantations. Palm oil is used 
in a variety of consumer products from soaps and shampoos to crackers 
and cookies. For a long time, the focus has been on the environment and 
loss of habitat for endangered species. Even today, many focus on this 
aspect of palm oil. The recent winner of a video competition for teens 
was a young woman worried that palm oil plantations would kill 
orangutans.\7\ Yet she could have equally talked about the migrant 
workers who were forced to clear the rain forest and harvest palm for 
little or no pay and in horrific conditions. Civil society and major 
companies are working to move away from these silos toward a more 
holistic approach to sustainability, broadening guidelines to include 
labor protections that will meet the stated commitment by the 
Roundtable on Sustainable Palm Oil to prevent labor exploitation as 
well as environmental degradation. Indeed, the first fruits of this 
work came to light last week when Wilmar International, the largest 
palm oil producer in the world, established an online platform to 
promote transparency in its supply chain in partnership with Forest 
Trust.\8\ Reporting required by economic, social, and governance 
reporting, and the transparency legislation I described above is also 
contributing to this increasing openness.
    Similarly, Mr. Chairman, Humanity United is working with brick kiln 
owners in Nepal to provide incentives to reduce their emissions and to 
eliminate child and forced labor. However, we must always be careful 
about the unintended consequences of our action. Eliminating child 
labor in a particular brick kiln does not mean the child who is no 
longer enslaved is free: returning to his or her village, the child may 
be coerced into another setting with even worse conditions. As we take 
steps to free men, women, and children, we must make sure that we also 
take steps to break the chain of coercion by providing educational 
opportunities or providing alternatives for livelihood. These can often 
be small investments, but can make our efforts to free slaves 
sustainable. These risks are also why having baseline measurements and 
strong monitoring and evaluation are critical to ensure that 
interventions are actually reducing human trafficking and modern 
slavery.
    Civil society also needs to work together more closely. In this 
connection, Humanity United brought together the Alliance to End 
Slavery and Trafficking. This coalition has grown to 14 leading human 
rights organizations, which focus on a range of issues from cooperation 
with law enforcement to assisting survivors to preventing trafficking 
in the first place. Focusing on legislative reforms, appropriations 
advocacy, and implementation by the executive branch, ATEST has helped 
sparked new initiatives across the human trafficking field. We have 
sought to press USAID, the Department of Labor, and the State 
Department to engage in rigorous monitoring and evaluation to find 
sustainable solutions to human trafficking and modern slavery, 
including establishing baselines and measuring impact. ATEST also seeks 
to further elevate the voices of survivors and help advance the broader 
U.S. movement by building deeper and wider networks and networks of 
networks to combat trafficking.
    The faith community also has an enormous role to play and many are 
reaffirming a commitment to ending this terrible human rights abuse. 
Last Spring, Pope Francis met with trafficking survivors and in 
December hosted a convening of faith leaders to sign a declaration to 
abolish modern slavery by 2020. I hope that the Pope will further his 
efforts when he visits Washington later this year.
       collaboration among donors and public-private partnerships
    One major challenge is the need for additional funding to combat 
human trafficking and modern slavery. The business of human trafficking 
is too large to allow fragmentation of efforts, which is why bringing 
government, business, and civil society together is key. But the 
private and public sector should also be better coordinated and 
mutually reinforcing.
    In 2012, Humanity United and the Obama administration launched the 
Partnership for Freedom, a public-private partnership designed to bring 
private investment in innovation together with government experience to 
develop challenges to fight modern slavery. The first competition to 
improve support infrastructure for survivors of modern slavery 
concluded last year, with winners focused on innovative solutions to 
victim identification, health care, and shelter. However, a raft of 
additional innovative solutions were surfaced that we hope will get 
consideration from other donors. The second competition is being 
designed now.
    Humanity United also partnered with the Legatum Foundation and the 
Walk Free Foundations, philanthropies based in the United Kingdom and 
Australia, respectively, to develop the Freedom Fund, a donor 
collaborative designed to mobilize the capital and knowledge needed to 
end modern slavery. The Freedom Fund has already launched targeted 
programs to tackle modern slavery in key countries and industries 
around the world.
    In addition to donor partnerships, the private sector can also work 
directly with governments to combat human trafficking. Whether it is 
online marketplaces preventing their platform from being used for sex 
trafficking to companies providing needed data analysis, the corporate 
sector can play a major role working with law enforcement. The effort 
to stamp out Internet pornography by analyzing credit card data, for 
example, is a way that companies can work with civil society and law 
enforcement to further reduce sex trafficking in the future.
    In this connection, Human Rights First, one of the Nation's leading 
human rights advocacy organizations, recently launched a campaign with 
a diverse set of actors across business, civil society, and the public 
sector to go after the business of human trafficking and modern slavery 
in all its forms, with the goal of decreasing the rewards and 
increasing the risks to perpetrators. I was privileged to participate 
in this launch, which included financial companies who showed how 
information they collect could help law enforcement here (with the 
Department of Justice) and abroad (with the Department of Treasury) to 
combat the scourge of modern slavery.
    This shows the power of unlikely conversation to create social 
change. Humanity United's founders, Pierre and Pam Omidyar, are 
committed to a sustained effort to combat modern slavery. That's why 
they have made a second $50 million commitment to fight human 
trafficking and modern slavery. But they know they cannot win this 
fight alone, which is why Humanity United is committed to working to 
bring donors together, collaborating with the U.S. Government and 
building networks of civil society and survivors to make progress in 
the fight to end human trafficking and modern slavery.
                               conclusion
    Mr. Chairman, Senator Menendez and members of the committee, last 
week marked the end of National Slavery and Human Trafficking 
Prevention Month. Honorary months often seem to be a ritual of 
pronouncements and chest thumping, followed by little real action. Yet 
this year, it feels like we have reached a turning point in the fight 
to combat human trafficking. With multiple legislation passing the 
House and being introduced in the Senate, and the administration 
committed to cleaning its own supply chains, the tide may be turning 
against the perpetrators of this terrible human rights scourge.
    Mr. Chairman, last week also marked the 150th year since the House 
of Representatives voted to approve the 13th Amendment, ending slavery 
in this great Nation. And this coming December, we will mark the 
adoption of the amendment as the law of the land. This committee can 
play an instrumental role in helping mark that anniversary by pushing 
forward the fight against human trafficking and modern slavery.

----------------
End Notes

    \1\ ILO, Profits and Poverty (2014).
    \2\ Id. See also ILO Global Estimate of Forced Labour (2012).
    \3\ http://www.ecpatusa.org/statistics.
    \4\ This number reflects both crisis calls by victims but also tips 
and other communications,http://www.polarisproject.org/resources/
hotline-statistics.
    \5\ Zhang, S. X. (2012). Trafficking of Migrant Laborers in San 
Diego County: Looking for a Hidden Population. San Diego, CA: San Diego 
State University, https://www.ncjrs.gov/pdffiles1/nij/grants/
240223.pdf.
    \6\ http://contratados.org.
    \7\ http://www.teensdream.net/(accessed February 2, 2015).
    \8\ http://www.triplepundit.com/2015/01/palm-oil-giant-launches-
web-portal-make-supply-chain-transparent/.

    The Chairman. Well, thank you for your testimony, and your 
entire statement will be made a part of the record. And thank 
you each for what you have said today and for sharing your 
experiences.
    Mr. Kofi Annan, how aware are the people of Ghana that this 
slavery issue exists, and what is it that would motivate 
parents to allow their children to become a part of this?
    Mr. Annan. Thank you very much. There have been a number of 
initiatives to create awareness, but there is a long way for us 
to go. We have a largely illiterate population, and, therefore, 
the platform to use for awareness is very important. If you use 
the mass media, you are targeting the elite, and they would 
have the information. But they are not the ones that are 
primarily affected by this issue, which means that in order to 
be effective in creating awareness in the various communities, 
you need to target them either in their own languages or in 
their communities. And that is where the gap is.
    If we are supposed to get into every community with the 
message, then it means that the government must take leadership 
because government has access to almost all the media 
platforms, including the modern media and then the traditional 
media. And so, government must take the lead in all of this 
that we are doing. I believe that in the next few years, we 
need to at least reach half of the population. Now we do not 
even--we cannot see that even 20 percent of the population have 
been reached with the message. So that makes it very difficult 
for us to even assess ourselves as to how we are bringing 
everybody on board to create awareness of this situation.
    The Chairman. And the parents, though they are obviously 
aware in many of the cases that their children are being 
victims of slavery, are they not?
    Mr. Annan. In most cases when parents are selling their 
children, they are oblivious to what the children are going 
into because in most cases, they think that because they are 
poor, because they cannot take care of them, they are giving 
them up for the children to have a better life. They are going 
to have education. They are going to be taken care of better 
than they are being taken care of in their own homes. They are 
going to have better medical care, et cetera, et cetera.
    So, they give these children out with all good intentions 
in most cases only for those children to end up being enslaved. 
And that is where the problem is, and that is where as soon as 
they get to know that the reason why they give the children out 
is different from how the children are being used, then they 
demand that the children to be returned. But because they do 
not have the capacity to go and bring their own children back, 
that is why they come to some of us to rescue the children for 
them. But we are not the ones they should come to. They ought 
to go to the government. This is where we will need to sustain 
and build upon the successes that we have started by creating 
more awareness, so the parents know that it is not a good place 
to send their children.
    But the only way they should sustain their family and their 
children should be, you know, by having their children in a 
classroom, because wherever else they go, it ends up being a 
bad situation for them.
    The Chairman. Thank you very much. Ms. Woworuntu, you are 
obviously incredibly well educated, had a great job in 
Indonesia, and yet ended up in a situation here in the United 
States through a recruiter where you were in obviously a very 
terrible situation, fortunately escaped, and are helping 
others. Could you tell me a little bit about how that occurred, 
what the experience was with the recruiter? And then post that, 
how the prosecution worked with you here in the United States?
    Ms. Woworuntu. Thank you. At the moment, it was very hard 
in Indonesia due to the political and religious circumstances. 
The recruiters posted job applications in many media and 
newspapers saying that there is a certain job in the United 
States or other countries. There was a requirement to pay--in 
my case it was $3,000 U.S.--and the job was to work in the 
hotel, in the hospital or in some other jobs. So we see the 
applications with the promise of a big amount of salary, like 
$5,000 per month U.S. of work.
    I worked as a manager in a bank. I could save only about 
$200. I felt the United States is the dreamland. The U.S. 
dollar was a big money for us, so why not? So I tried. I got 
the legitimate papers and I applied for the visa, and I got my 
visa, and flew to New York. During the prosecution, it was 
really hard for me because at that moment I was homeless. They 
did not give me a place to stay. When I cooperated with law 
enforcement, I was homeless for weeks and months, but they did 
not help me to stay in the shelter. And the law enforcement, 
they did not believe trafficking happens here.
    The police let me down many times, but I kept trying so 
that one day they would listen to me. I went to different 
places to tell this story, but still they did not listen. And 
then a U.S. Navy officer listened to me at the place where I 
begged for food to eat. So he connected me to the FBI, and the 
FBI appointed one of the local precincts in New York to take my 
case.
    But during the investigation, they thought I was--I am 
sorry in my language, they thought I was a sex worker. But I 
told them I had all of the copies of my passport. I flew to New 
York City with legal paperwork all complete. So they put me in 
the cold room without any food or drink. I asked them, I need 
to drink, I need to go to the bathroom, but they did not 
listen. They did not help me to handle my trauma in the 
investigation process. They just thought maybe I could 
cooperate, but I told them the truth. I told them what needed 
to be done.
    The girls were there. The traffickers were there. I had all 
the addresses of the brothel and the hotels because I wrote it 
in a notebook. They did not believe me for a couple of hours, 
and then finally they said, okay. So we went to the brothel 
where I had worked, and my story was true, so they believed me.
    So we rescued girls and put my trafficker into the justice 
system. I would testify, and we prosecuted--or they prosecuted, 
not me--three traffickers and some of the abusers because I was 
trafficked by organized crime. But I was not really happy 
because they threatened my family in Indonesia, and the 
government--the U.S. Government--went to the U.S. Embassy in 
Indonesia, got all of my paperwork, but they did not have a 
protection for my family.
    The traffickers came to my family until 2007. It was about 
6, 7 years after I escaped. My family also suffered. I got 
protection in the United States, but my family did not get it. 
So my trafficker are in Indonesia, and also the biggest travel 
agent in Indonesia, and the government did not do anything to 
them. That is what I propose if the U.S. Government were able 
to lead the connection or collaboration with all of different 
countries, not only Indonesia, to do this. Thank you.
    The Chairman. Very impactful. Thank you both. And in order 
to be courteous to my colleagues, I will press on. I may want 
to come back, if it all right, and ask you a question.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, and thank both 
of you for being willing to come forth and talk about your 
incredibly compelling experiences and the strength of human 
dignity to overcome. And it is really, I think, two very 
compelling stories among many I am sure that exists. I 
appreciate that, and I want to ask you questions in a minute.
    Before I get to you, I want to ask Mr. Abramowitz, since 
the Trafficking Victims Protection Act was enacted in 2000, 
what has been the U.S. Government's top achievements for 
combating human trafficking, and what has been its key 
failures?
    Mr. Abramowitz. Thanks for that question, Senator Menendez. 
I think that the first piece of it is they took an 
international agreement, the Palermo Protocol, which the United 
States became a party to, and they were actually able to try to 
take steps in other countries to implement it. I think as many 
of you know, international agreements and treaties like this, 
they get signed by countries, and then the countries do not 
take them seriously. They do not really try to implement 
Palermo Protocol. And through the Trafficking Office, the State 
Department was able to get countries around the world to pass 
laws, which as Mr. Haugen said in the first panel, really are 
pretty good. There are gaps. There are problems. And so then, 
the question became implementation. So the first, I think, 
achievement was that they really have got these issues 
mainstreamed into so many of these different places.
    Second, I think the TIP Report then measures the behavior 
of these states, and has allowed civil society in these various 
countries to hold up this report, as much as some of the 
governments really hate that they do that, and say, look, here 
are the problems that you have. If you do not have these 
problems, explain it to the United States. Explain it to us. So 
it has really supported civil society in moving forward.
    In terms of the challenges that the government has had, I 
think one of the major challenges is trying to position this 
issue within all the other challenges that the U.S. Government 
faces in relation with other countries. As I was saying, I am 
very concerned about the TIP Report this year without a TIP 
ambassador in place because there are pressures that come from 
the field to say, look, you know, this is a very important 
country. We are in the middle of negotiations on the 
trafficking report. Arguments about whether we cannot talk 
about Malaysian electronics, for example, is one issue that the 
U.S. Government was wrestling with over the last year.
    I think trying to strengthen those efforts to try to have 
this be an important value within the U.S. Government is really 
critical. I also think this committee can really play a role by 
as witnesses come up to the committee, ask them about these 
issues, show them your importance when the ambassador nominees 
come through your office, talk to them about this issue, 
indicate that this is an important issue for all the members. I 
think that can really make a difference. Thank you.
    Senator Menendez. One other question. We heard a lot of the 
testimony so far about these recruiters, and they seem to be a 
significant part of the process in which people ultimately get 
led to trafficking because they create the nexus between the 
workforce and then the exploitation.
    I get a sense that we do not really do very much about 
pursuing recruiters. Is there not a better way to go after 
these recruiters, to think about whether or not they should, as 
we find recruiters that are actually in the midst of the 
exploitation, deny them visas to the United States, take other 
actions, look at that as a criminal enterprise? Give me some 
sense about that.
    Mr. Abramowitz. Yes. I think there are a number of 
different pieces that people are thinking about working on. Ed 
Royce's FORTE Act, which was mentioned, creates more 
transparency, but also creates a regulatory system which could 
be challenging in the current environment, that says that if 
you are going to be a recruiter, you have to register. And 
companies, if they use recruiters that are registered are safe 
if it turns out that it is a bad recruiter. But at least we 
will know who they are, and we can target our investigations, 
and that is a big problem around the world.
    In Nepal, which is going to send 900,000 to 1.5 million 
workers to the gulf and to Qatar as part of the World Cup 
infrastructure, there are 80,000 unregistered individuals who 
are recruiting these people from villages all over the country. 
So I think we have to try to talk to the source countries and 
try to get that under control.
    One of the things that some countries are trying is to say 
is, no recruitment fees at all. If it turns out that the worker 
can show that there were recruitment fees paid, then that 
worker can go to the company who is using that labor and ask 
for reimbursement. If the companies are on the hook for having 
to pay recruitment fees, they are going to start making sure 
that the recruiters are not doing anything that is illegal, and 
I think that is a reform that Qatar is looking at, for example. 
They have not quite implemented it yet. They said they were 
going to do some of things. They have not done them yet. But I 
think some of those kinds of those kinds of reforms can really 
help.
    Senator Menendez. Okay. You mentioned Nepal. The Guardian 
reported that in 2014, Nepal citizens working in Qatar, that 
one died every 2 days because of extreme heat and conditions 
that should not be accepted. So I think we have the Qatari 
Foreign Minister here. It might be a good opportunity to raise 
some of these issues with him.
    Mr. Abramowitz. I agree.
    Senator Menendez. Ms. Woworuntu, first of all, thank you 
for your work that you are doing in the State of New Jersey on 
the Human Trafficking Commission. We appreciate your service. 
And in that regard, you know, when you talked about your 
experience, how is we--that you think from your experience, 
that we get law enforcement and the judicial system to work 
better with trafficking victims to investigate and successfully 
prosecute those who put you into slavery?
    You described a set of circumstances in which you were not 
believed. You were thought to be a voluntary sex worker. A 
whole different set of circumstances, and you almost had to 
fight for credibility. It almost seems to me that there should 
be some type of basis under which you are believed until proven 
that that is not true. I mean, give me a sense of how you think 
we might be able to do better.
    Ms. Woworuntu. In 2014, I was with some other survivors at 
the Federal level, at a survivor's hearing at the White House. 
So I gave my voice that something needs to be done about how 
law enforcement works with victims of human trafficking. I used 
``victim'' because they need to get help. They need to get 
services. They need to be listened to.
    So, I talked to the law enforcement at the Department of 
Justice and OVC and said that, one, they need to better 
identify the victims of human trafficking in sex and labor, 
because to identify both sex and labor victims they need to 
have specific understanding that there are differences. 
Identifying sex trafficking can be hard for law enforcement 
because they will not tell you if they are victims because they 
are afraid.
    For example, young girls are trafficked and then the law 
enforcement--excuse my language--busted the place and pulled 
the girls to the prison and treated them as criminal, not as a 
victim, especially under 18. These are victims, children, yes, 
18 years old, children, girls that have become victims. But our 
law enforcement still treats them as criminals. They are not in 
prostitution. They are victims. So somehow the law enforcement 
who work directly in the field, they did not know. They lack 
understanding of how they should treat the victims.
    Second, they need sensitivity training to identify the 
victims of human trafficking. Sensitivity training should 
include cultural--American culture and Indonesian culture, 
Chinese culture, are different, so they need to understand how 
to deal with certain people who came from around the world, and 
with the domestic victim as well.
    And then the third thing is having the organizations who 
give direct victims' services involved in the investigation so 
the investigation will be done properly with the right time 
management, and also have case management. Usually law 
enforcement did not work with case and time management in how 
to identify the victims, or how to solve the problem.
    Senator Menendez. Thank you. Thank you both for your 
insights, and I just want to know, Ms. Woworuntu, that by New 
Jersey standards, ``busted'' is a mild world. [Laughter.]
    So, thank you.
    Ms. Woworuntu. Thank you.
    The Chairman. There is more I could say, but I will not. 
[Laughter.]
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman, and thank you to 
you all for your very illuminating testimony, and to the chair 
and ranking member for calling this hearing. The timing is 
exquisite. Yesterday the Vatican announced that this Sunday 
would be an international day of prayer against human 
trafficking, and the date of February 8 was chosen because it 
is the feast day for St. Josephine Bakhita, who was born in 
1868 in Darfur, kidnapped at age 9, and then sold into slavery 
twice in her life, once in Sudan and once in Italy, before she 
passed away in 1947. And so, that is a good thing. I think the 
church communities around the world, and this is an ecumenical 
effort, educating us all about signs and what we can do to help 
is very important.
    I just have sort of one question, and I am not exactly 
sure--in some ways I had a State Department person here, but 
let me just throw the question out. And, Ms. Woworuntu, it is 
kind of about your experience. Trafficking in slavery, 
different kinds. There is between nations other than the United 
States. There is slavery and trafficking within the United 
States. Your story is one from another nation into the United 
States, and I want to ask about that.
    It would seem that we should be able to develop training 
for consular officials who are interviewing applicants for 
visas. We should be able to develop training for our Customs 
and Border Patrol folks that are interviewing visitors as they 
come into the United States, that would not always discover 
whether somebody was a victim of trafficking, but would, you 
know--there has got to be some warning signs that we should be 
training our people about.
    Is that something that we do well already, or is there more 
we can do with our consular officials and our Border Patrol 
folks to make sure that we can stop trafficking as it is 
occurring? And I would love to hear from any of you on that.
    Ms. Woworuntu. Yes. The authorization mentioned about how 
Department of State will work on trafficking prevention through 
using awareness videos in all U.S. embassies around the world. 
But the work is not perfect, and we need to work more. Right 
now, Homeland Security has a pamphlet. Department of 
Transportation, also UNICEF, has pamphlets everywhere raising 
awareness. And the most important is for embassies around the 
world to have information about the rights of the persons who 
would want to enter to another country.
    So far, there is not much information given about the 
rights accorded to visitors. I am really advocating about the 
prevention in the Department of State, and I will diligently 
work for that.
    Senator Kaine. Excellent. Mr. Abramowitz.
    Mr. Abramowitz. Senator Kaine, I think this is a very 
important issue. As Ms. Woworuntu was just saying, in the 2008 
act, we required that there be this pamphlet that is given out 
to every worker, and the 2013 act required that this video be 
actually put in place. And I think those are good things to try 
to protect the worker who is coming to the United States so 
they know who to call. There are all these stories about how 
the worker held onto this little pamphlet and stuck it in their 
shoe, and finally when they had an opportunity, they were able 
to call a hotline and get out of their slavery.
    I think the problem for the consular officer is that, as in 
Ms. Wororuntu's case, the case presents reasonably well. There 
is an application. There is a job that is supposedly there and 
so on, and then they have a very short amount of time to 
review. I think that there could be a better way of trying to 
determine whether a real job is really happening there, and 
also trying to find out who are the bad labor recruiters.
    Take her case. This was a major labor recruiting firm that 
brought her into this situation, so they should be able to go 
to the recruiters and say, what is going on here, we have 
problem cases coming from you, and work with the government to 
try to say you have got to work on these cases. We have very 
skilled Foreign Service nationals in our embassies in the 
consular section, and if we devoted more resources to doing 
more investigations of which of these labor recruiting 
companies were really a problem, that could make a big 
difference.
    Senator Kaine. Like the other members of the committee, I 
do a good bit of traveling. And any time I travel, I try to sit 
down with our troops who are in the places I am, but I also try 
to sit down with Foreign Service officers on their first or 
second tours just to hear about the challenges. And almost all 
in early tours are working in consular capacities, and, you 
know, I am struck by how hard their job is. The volume of 
applications is huge, and it is very difficult.
    But it would seem like, you know, we ought to be able to 
give kind of almost profile information. You know, here is the 
kind of thing to watch out for that might suggest that there is 
trafficking going on. And we ought to have enough institutional 
expertise within State, and DHS, and everybody that is--DOL and 
DOJ that is working on this, to give that kind of information, 
both in the consular officers and at the Border Patrol sites. 
So that is a question that I will follow up with maybe for the 
record or follow up directly with the agencies about.
    Mr. Abramowitz. Yes, I think that between the visa fraud 
section at State, the Department of Homeland Security, and the 
Justice Department, you could put together an interesting 
profile, of course, context by context.
    Senator Kaine. Yes.
    Mr. Abramowitz. I will say in the earlier panel, Senator 
Kaine, you missed an exchange about diplomatic visas, and there 
are some real concerns around whether the Protocol Bureau and 
the State Department is doing enough. You all are familiar with 
the Khobragade case where there was a case brought against an 
Indian diplomat in New York because of forced labor with a 
domestic servant, and because of a variety of issues that case 
was let go.
    And as Ms. Bader-Blau mentioned in the previous panel, 
there are these questions about what is going on with India and 
whether they are trying to get out of the oversight framework 
that was created in the 2008 act over a specific visa category 
that is usually used to go to a different visa category for 
these domestic servants. And I do think that that should be 
looked at by you and the staff to see what is going on there. 
Thank you.
    Senator Kaine. All right. Thank you very much for your 
testimony today. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaine. I want to thank you 
for being here. I think this has been most impactful. I want to 
thank our ranking member for his shared interest in this topic 
and for allowing this hearing to go forward today as it has, 
and hopefully it will produce results here.
    To the two witnesses who have been victims, I want to thank 
you for the courage to be here, but also taking your 
experiences and using it to help other people, and to help us 
today, first, to understand some of the cultural issues and the 
lack of awareness. I mean, it seems to me that one of the easy 
to produce outcomes is to make sure people are more fully 
aware, and that parents understand what is happening in various 
countries with their young ones.
    And to understand the tremendous plight of victims, who, in 
many cases, are not dealt with as victims. That is an 
experience that we heard from others. And, again, just creating 
more awareness with the law enforcement agencies, but also 
making sure that we use best practices, and your efforts to 
work through public policy to deal with this effectively. All 
three of you have been outstanding witnesses. Our first panel 
certainly was a very good panel. And as Senator Kaine 
mentioned, I cannot imagine a better time for us to be focused 
on this.
    The issue regarding foreign officials, we do have a meeting 
today with a Foreign Minister, and, candidly, the topic is 
ISIS. And a lot of times we do get caught up, as we should, in 
important issues of national security. But to be aware of this 
issue also, and to be able to push this as we meet with other 
officials, but also to produce some public policy hopefully 
that will deal with this on a far grander scale with a much 
bigger vision.
    So thank you all for being here. Your testimony was 
outstanding.
    And for the information of the members, the record will 
remain open until the close of business on Friday, February the 
6th, including for members to submit questions for the record. 
We ask, if you will, to respond as promptly as you can to 
those. Your responses will also be made a part of the record.
    And with the thanks of the committee, this hearing is now 
adjourned. Thank you.
    Mr. Abramowitz. Thank you, Mr. Chairman.
    Ms. Woworuntu. Thank you.
    The Chairman. Thank you.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Submitted for the Record by David Abramowitz

     [From The Hill (Capitol Hill Publishing Corp.), Jan. 30, 2015]

 Momentum for Anti-Trafficking Builds, But Ambassadorship Still Vacant

                   (By David Abramowitz, contributor)
    This week marks the end of National Slavery and Human Trafficking 
Prevention Month. Honorary months often seem to be a ritual of 
pronouncements and chest thumping, followed by little real action. Yet 
this year, it feels like we have reached a turning point in the fight 
to combat human trafficking.
    Fifteen years ago, human trafficking was a niche issue with only a 
few Members of the U.S. Congress paying attention. In the last few 
years, however, the circle of champions has exploded. Just this week, 
12 pieces of legislation were considered on the House floor touching a 
wide range of issues, from child welfare to increasing the U.S. 
Government's focus on trafficking to finding more resources for 
survivors. The Senate is also gearing up to move forward with its own 
bipartisan proposals (including the Runaway and Homeless Youth and 
Trafficking Prevention Act), and the Obama administration has just 
released long-awaited regulations to implement the President's 
Executive order to prevent human trafficking in federal procurement.
    Civil society engagement in the field has also continued to grow. 
Human Rights First (HRF), a leader in human rights advocacy, is 
launching a new campaign to disrupt the business of human trafficking 
which will focus on more prosecutions of all perpetrators, promoting a 
victim-centered approach and pushing the U.S. Government and businesses 
to do more to prevent and respond to modern slavery. (Full disclosure: 
I have been working with HRF to shape this new campaign.) Furthermore, 
philanthropic partnerships like the Freedom Fund (which Humanity United 
supports) are bringing further coordination and new funding to this 
field, both here and abroad.
    The faith community is also reaffirming a commitment to ending this 
terrible human rights abuse. Last spring, Pope Francis met with 
trafficking survivors and in December hosted a convening of faith 
leaders to sign a declaration to abolish modern slavery by 2020.
    With all this activity however, there is one glaring gap: the lack 
of an Ambassador at Large to Monitor and Combat Trafficking in Persons. 
The so-called TIP ambassador position at the U.S. State Department has 
been vacant for 2 months, with even longer delays ahead given that the 
position requires Senate confirmation. The U.S. is considered one of 
the global leaders in combating human trafficking and the absence of 
the TIP ambassador can jeopardize U.S. leadership.
    Finding the right candidate is challenging. The TIP ambassador will 
need to help build this field and heal the remaining fissures that 
exist within it. Such a person must be committed to an inclusive and 
balanced approach to combat labor and sex trafficking of both adults 
and children. The ambassador will also have to be committed to 
improving services for survivors. Additionally, an individual who can 
focus on prevention of trafficking beyond deterrence could have a major 
impact on the field. And, of course, the ambassador must be able to 
produce a strong annual Trafficking in Persons Report. The TIP report 
is one of the key tools for asserting U.S. global leadership in this 
space. Foreign governments may complain about their treatment in the 
report, but they respond when called out in this public manner. Given 
the diverse interests involved in combating human trafficking, this 
diplomat will have to work across stakeholder communities, foreign 
governments, with the business community and even within the U.S. 
Government so that the TIP Report, the TIP office and thus U.S. efforts 
to combat trafficking are as strong as possible.
    With so much ambition and enthusiasm around the fight to end human 
trafficking and modern slavery, we need an ambassador who can take this 
momentum and harness it. She or he must steer it toward meaningful, 
practical change for all victims of modern slavery suffering in 
terrible conditions; for survivors who are seeking to overcome their 
exploitation; for businesses with complex supply chains; and for 
governments seeking to address (or willfully ignore) the current 
manifestations of slavery within their borders.
    The gains of the past 15 years are starting to bear fruit. Now is 
the time for action and sustainable solutions--and a new TIP ambassador 
can play an important role in bringing those solutions to reality.



                      ENDING MODERN DAY SLAVERY: 
                      THE ROLE OF U.S. LEADERSHIP

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:18 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Johnson, Gardner, Menendez, 
Cardin, and Shaheen.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    And thank you so much for being here. I will introduce you 
in one moment.
    I want to thank the other committee members for their 
interest.
    We have convened this hearing to understand how U.S. 
leadership can best be deployed to deal a mortal wound to 
modern slavery. Last week, the committee heard from two panels 
of private witnesses. We received testimony from leaders in the 
effort to combat modern slavery. We also heard from brave 
individuals who escaped from modern slavery and went on to help 
others.
    Today we welcome Dr. Sarah Sewall. I have heard many good 
things about the Under Secretary of State for Civilian 
Security, Democracy, and Human Rights at the U.S. Department of 
State. The State Department's office to monitor and combat 
trafficking in persons falls under your purview, and we 
appreciate your efforts.
    Conflict exposes vulnerable people, especially women and 
children, to being enslaved and exploited. The horrifying 
examples set by ISIL and Boko Haram could not be starker.
    But even in countries with laws and institutions, insidious 
forms of modern slavery exists. Perversely labor recruiters 
extract money from impoverished people with empty promises and 
deliver them into bondage and sexual exploitation.
    For 14 years, as defined and authorized by Congress, the 
State Department has issued an annual report on trafficking in 
persons. This report, as Secretary Kerry has said, sets the 
gold standard. The report reviews the efforts of countries to 
address trafficking in persons especially in the most severe 
forms. Its findings are not always welcome, but we know they 
have made a difference.
    Under Secretary Sewall has said that almost every issue she 
touches has implications for human trafficking. Whether working 
with the Bureau of Counterterrorism, Democracy, Human Rights, 
and Labor, Population Migration and Refugees, International 
Narcotics and Law Enforcement Affairs, Conflict and 
Stabilization Operations, often there is a trafficking angle.
    Today we hope to learn how U.S. leadership is already 
making a difference and how, working in partnership with the 
State Department and reaching out to like-minded governments, 
we can take our efforts to the next level to find the best way 
forward to begin the process in earnest of putting an end to 
modern slavery.
    Thank you.
    And with that, I will turn to our distinguished ranking 
member, Bob Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, and thank you 
for your focus on addressing the issue of trafficking in all of 
its forms. Sexual exploitation, forced labor, forced marriage, 
debt bondage, and the sale and exploitation of children around 
the world should be a global cry for justice. But as Benjamin 
Franklin said, justice will not be served until those of us who 
are unaffected are as outraged as those who are.
    Today we are all outraged at the violence, psychological 
terror, the greed that drives human trafficking. We are 
outraged that there are 50 million refugees and displaced 
people around the world, the largest number since World War II, 
many of whom are targets of traffickers. We are outraged that 
there are 21 million victims of human trafficking, over 5 
million of whom are children, and that forced labor generates 
about $150-plus billion in profits annually, the second-largest 
income source for international criminals next to the drug 
trade.
    We know that NGOs and civil society have been doing what 
they can to combat this scourge, but we can all do more. The 
State Department's Office of Trafficking in Persons has been 
nothing less than extraordinary, but it remains understaffed, 
underresourced and without leadership, leaving Under Secretary 
Sewall's efforts all the more important. Certainly Government 
can do better. Companies can do more. They can clean up the 
supply chains and make that information public. The public can 
be more aware of who picks the fruit on their breakfast cereal 
in the morning, how many women and children it took trapped in 
a sweat shop to sew the dresses and shirts they are wearing.
    In my view, reform of the labor recruitment process and the 
regulation of labor recruiters is crucial to helping enslaved 
Bangladeshi women serving as domestic servants in the Middle 
East, construction workers from Nepal building World Cup Soccer 
stadiums in Qatar, or Rohingya men trapped on Thai shrimp boats 
supplying American fish markets. Those are just some of those 
elements.
    And finally, Mr. Chairman, let me just say I am also 
outraged at the scourge of diplomats who themselves are 
trafficking domestic workers, bringing them to the United 
States to work in embassies and missions here in Washington and 
around the world. We had a case like this in my home State of 
New Jersey. I know Secretary Kerry has committed to preventing 
such abuse, and I look forward to hearing what is actually 
being done. And I am anxious to hear what is being done to 
mitigate the diplomatic situation that arose in the high-
profile case of an Indian Deputy Counsel General in New York 
who was charged with visa fraud in a trafficking-like 
situation. But I look forward to seeing what we are doing in 
that regard as well, and I look forward to hearing our witness.
    The Chairman. Thank you, Senator Menendez, and thank you 
for your shared interest in this issue and your comments.
    And now we will turn to our witness. Our witness today is 
Dr. Sarah Sewall, the Under Secretary of State for Civilian 
Security, Democracy, and Human Rights. She was sworn in as 
Under Secretary on February 20, 2014, and serves concurrently 
as the Special Coordinator for Tibetan Issues.
    Over the previous decade, Dr. Sewall taught at Harvard 
Kennedy School of Government, where she also served as director 
of the Carr Center for Human Rights Policy, launched the MARO 
Project, Mass Atrocities Response Operations. In 2012, she was 
Minerva Chair at the Naval War College. During the Clinton 
administration, Dr. Sewall served as the inaugural Deputy 
Assistant Secretary of Defense for Peacekeeping and 
Humanitarian Assistance. Prior to joining the executive branch, 
she served 6 years as the senior foreign policy advisor to U.S. 
Senate Majority Leader George Mitchell.
    I want to thank you for being here. You have had a very 
distinguished career. You are either really, really qualified 
or cannot keep a job. [Laughter.]
    But you have done a lot of different things. But I think it 
is the first.
    Thank you for being here and sharing your testimony. And we 
will remind you that your full statement will be entered into 
the record. Thank you.

 STATEMENT OF HON. SARAH SEWALL, UNDER SECRETARY OF STATE FOR 
CIVILIAN SECURITY, DEMOCRACY, AND HUMAN RIGHTS, U.S. DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Dr. Sewall. Thank you very much, Chairman Corker, Senator 
Menendez, members of the committee, ladies and gentlemen.
    It is a pleasure to be here today, and I want to begin by 
thanking you and many members of this committee for their 
leadership in combating trafficking in persons. And on behalf 
of the State Department, I look forward to working closely with 
you to tackle this terrible crime and human rights abuse.
    I think it is fair to say that trafficking in persons and 
the efforts to combat it is a personal priority of the 
Secretary. It is certainly a personal priority of mine, and it 
is a priority for the State Department and this administration. 
It harms people and communities. It corrupts labor markets and 
global supply chains. It undermines the rule of law and 
stability.
    And in today's global community, we are all as citizens and 
as consumers impacted by slavery even if we do not realize it. 
I recently took a survey on SlaveryFootprint.org, and it was a 
stark reminder that many of the products I use on a daily 
basis, the battery in my cell phone, the chocolate that I eat, 
the cotton clothes that I wear may have been produced by 
slaves. Slavery Footprint has reached millions of consumers 
globally, giving them a voice to demand that the products they 
buy are made free of forced labor. It is seed-funded by the 
State Department, therefore one example of the types of 
programs that we are supporting to elevate the global 
conversation on modern slavery.
    The U.S. Government is making major efforts here at home to 
combat this scourge. As the largest purchaser of goods and 
services in the United States and overseas, the American 
Government must set the highest standards for its business 
practices. Executive Order 13627 was the President's Executive 
order committing to strengthening protections against human 
trafficking in Federal contracting. The Federal Acquisition 
Regulatory Council published updates to the Federal acquisition 
regulation implementing this order.
    In addition, the State Department funded Verite, a labor 
rights NGO, to develop a range of tools and resources for 
Federal contractors and businesses to help them mitigate the 
risks of human trafficking in their supply chains.
    We have come a long way, Mr. Chairman, in the last 15 
years; 166 states are now party to the Palermo Protocol. Human 
trafficking has moved from a misunderstood side issue to an 
international priority. Over 100 countries have passed 
antitrafficking laws, and many have established specialized law 
enforcement units, victim assistance mechanisms, and public 
awareness campaigns. But, of course, much work remains.
    Although the ILO estimates that there are 21 million 
victims of forced labor around the world, the State 
Department's Trafficking in Persons TIP Report notes that fewer 
than 45,000 trafficking victims had been identified by 
governments in the year 2014. Convictions of traffickers 
remains woefully insufficient. Adequate antitrafficking laws 
are an important first step to address the troubling trend, but 
these laws must be enforced and traffickers held accountable. 
Aware and capable states are the key to tackling this crime, an 
issue to which I shall return.
    Now, as you know, the TIP Report has been a critically 
important tool. The report assesses the adequacy of national 
laws in prohibiting and punishing trafficking, and it evaluates 
government actions to prosecute suspects and protect victims. 
The report's tier rankings help hold governments accountable in 
their efforts to develop the policies and structures to fight 
this crime. Researchers have documented the correlation between 
tier ranking downgrades and states' subsequent enactment of 
antitrafficking legislation.
    The TIP Report makes specific recommendations for how each 
country can better prevent trafficking, prosecute suspected 
perpetrators, and assist victims. And these recommendations in 
turn guide U.S. diplomacy and they serve as a roadmap for 
institutional changes.
    Additionally, the State Department and USAID combine 
antitrafficking and labor rights diplomacy with specific 
programming to help countries achieve better results. State's 
TIP Office currently oversees 98 projects worth over $59 
million in 71 countries. And these projects target both sex and 
labor trafficking through implementation of what is known as 
the 3P paradigm, prevention, protection of victims, and 
prosecution of suspected traffickers.
    Much of our antitrafficking assistance helps partner 
governments build their own capacity. So in the last 2 years, 
Botswana, Haiti, Maldives, Papua New Guinea, and Seychelles all 
passed antitrafficking laws. And last March, the Bahamas 
secured its first conviction.
    Since 2001, USAID has programmed approximately $180 million 
in antitrafficking activities in 70 countries and regional 
missions. And in Jordan, USAID integrated countertrafficking 
activities into a broader human rights program in combating 
sexual- and gender-based violence, early marriage, and child 
labor among Syrian refugees and host communities.
    In 2013, Congress saw fit to give the State Department a 
new innovative tool, the Child Protection Compacts. Through the 
partnership, we will develop tailored policies to focus on one 
particular case, and I am pleased to announce today that we 
have proposed our first partner in that CPC partnership, which 
is to work with the Government of Ghana.
    The struggle against modern slavery is one of the 
interconnected threats and opportunities. It involves good 
governance, and the broader work of State and AID, in 
partnership with other actors, is just vital if we are to truly 
tackle this global challenge. Conflict, corruption, and 
underdevelopment fuel trafficking risks, and the U.S. 
Government works to address these underlying causes as part of 
our foreign policy, even as we have pioneered innovative 
programs specifically aimed against human slavery.
    I am very proud, Mr. Chairman, of the leading role the 
United States has played with strong leadership from Congress 
in elevating the global profile of this issue, helping free 
individuals from modern slavery, and galvanizing the work of 
others. The road is long in our battle against human 
trafficking, but working with global partners, the United 
States will not relent in our multipronged approach to combat 
the crime.
    We welcome Congress' interest. We welcome your interest 
particularly, Mr. Chairman, and we look forward to working 
together and to the dialogue. Thank you.
    [The prepared statement of Dr. Sewall follows:]

                 Prepared Statement of Dr. Sarah Sewall

    Chairman Corker, Senator Menendez, members of the committee, ladies 
and gentlemen, thank you, Mr. Chairman and members of the committee, 
for your leadership in combating trafficking in persons. On behalf of 
the State Department, I look forward to working closely with you to 
tackle this terrible crime and human rights abuse. This issue is a 
policy priority for the administration and Secretary Kerry, in 
particular, and I thank you for the opportunity to speak today.
    What do we, in the U.S. Government, mean when we talk about human 
trafficking? Under the Trafficking Victims Protection Act (or TVPA), 
trafficking in persons includes forced labor, forced prostitution of 
adults, and the prostitution of children. The term ``human 
trafficking'' describes acts of recruiting, harboring, transporting, 
providing, or obtaining a person for compelled labor or commercial sex 
acts through the use of force, fraud, or coercion, although inducing 
minors into the commercial sex trade is considered trafficking even if 
no force, fraud, or coercion is involved. It can include, but does not 
require, movement of individuals.
    Trafficking in persons harms people and corrodes communities. It 
corrupts labor markets and global supply chains that are essential to a 
thriving global economy. It undermines rule of law and stability. 
Fighting trafficking in persons is the smart thing to do, and it is the 
right thing to do. As President Obama has said, ``Our fight against 
human trafficking is one of the great human rights causes of our time, 
and the United States will continue to lead it.'' It is our 
responsibility as a country and as individuals to protect the universal 
values of liberty and freedom.
    There is a lot that we as individuals can do to join this struggle 
against modern slavery. I recently went to SlaveryFootprint.org and 
took a survey to learn how my consumption habits are connected to 
modern-day slavery. It was a stark reminder--many of the products I use 
on a daily basis, the battery in my cell phone, the chocolate I eat, 
the cotton clothes I wear, may have been produced from the work of 
dozens of slaves. Slavery Footprint, a project seed-funded by the State 
Department, has reached millions of consumers globally and given them a 
voice to insist that the food we eat and the products we buy are made 
free of forced labor.
    Let me begin by discussing what the U.S. Government is doing here 
at home. Federal agencies have been going the extra mile, spurred by 
President Obama's March 2012 direction to his Cabinet to redouble the 
administration's efforts to combat human trafficking. The President's 
Interagency Task Force to Monitor and Combat and Trafficking in 
Persons, which Congress established and Secretary Kerry currently 
chairs, has strengthened its collaborative work, including developing 
and implementing the Nation's first-ever ``Federal Strategic Action 
Plan on Services for Victims of Human Trafficking in the United 
States.'' Government agencies are enabling law enforcement and service 
providers to deploy resources more effectively and raising public 
awareness both at home and abroad.
    Federal agencies are also working to expand partnerships with civil 
society and the private sector to bring more resources to bear in 
fighting this injustice. The Treasury Department's Financial Crimes 
Enforcement Network issued an advisory last September to financial 
institutions on recognizing ``red flags'' that may indicate financial 
activity related to human trafficking as well as the distinct crime of 
human smuggling. The advisory provides common terms that financial 
institutions may use when reporting activity related to these crimes 
that will assist law enforcement in better identifying possible cases 
of human trafficking.
    As the largest single purchaser of goods and services both in the 
United States and around the world, the U.S. Government must set the 
highest standards for our own business practices. With Executive Order 
13627, the President committed the Federal Government to strengthen 
protections against human trafficking in federal contracting. Just over 
a week ago, the Federal Acquisition Regulatory Council published 
updates to the Federal Acquisition Regulation, as required by this 
Executive order and related requirements in the Ending Trafficking in 
Government Contracting Act (set forth in the National Defense 
Authorization Act for 2013), establishing a number of new and important 
antitrafficking safeguards. In addition, the State Department funded 
Verite, an award-winning labor rights NGO, to develop a range of tools 
and resources for all businesses--not just federal contractors--
committed to preventing trafficking. As part of this initiative, Verite 
just published a report entitled ``Strengthening Protections Against 
Trafficking in Persons in Federal and Corporate Supply Chains,'' which 
details the risks of human trafficking in 11 key sectors where federal 
procurement is significant. This type of supply chain risk analysis can 
help federal contractors, other businesses, and consumers identify and 
mitigate human trafficking.
    Here in the United States, we have modern-day heroes who are 
changing how we do business. The members of the Coalition of Immokalee 
Workers have transformed Florida tomato fields from a place of 
widespread egregious exploitation into one where workers' rights are 
not only respected, but prioritized. They demanded that the large 
restaurant and supermarket chains purchase tomatoes at a fair price. On 
January 29, in front of leaders from the private sector, civil society, 
and the Federal Government assembled for a White House Forum on 
Combating Trafficking in Persons in Supply Chains, Secretary Kerry 
presented the Coalition with the 2015 Presidential Award for 
Extraordinary Efforts to Combat Trafficking in Persons. Among the 
accomplishments for which the Coalition was recognized is its Fair 
Foods Program, a highly successful worker-based social responsibility 
model that leverages the market power of major corporate buyers, 
coupled with strong consumer awareness, worker training, and robust 
enforcement mechanisms to end labor trafficking, enhance wages, and 
promote workplace rights.
    Congress and the American people also have much to be proud of. 
This year marks the 15th anniversary of the Trafficking Victims 
Protection Act, as well as the United Nations Protocol to Prevent, 
Suppress, and Punish Trafficking in Persons, known as the Palermo 
Protocol. We have come a long way in the past 15 years: 166 States are 
now party to the Palermo Protocol. Human trafficking has moved from a 
misunderstood issue to an international priority. More than 100 
countries have passed antitrafficking laws and many have established 
specialized law enforcement units, set up trafficking victim assistance 
mechanisms, and launched public awareness campaigns aimed at combating 
this worldwide crime that affects every country.
    However, we have a long way to go. Although the International Labor 
Organization (ILO) estimates there are 21 million victims of forced 
labor around the world, the 2014 Trafficking in Persons (TIP) Report 
notes that fewer than 45,000 trafficking victims were identified in 
2014. Convictions of traffickers remain woefully insufficient given the 
magnitude of the crime. This is a troubling trend we must continue 
working to address. Having adequate antitrafficking laws is an 
important first step for any country, but these laws must be enforced, 
and traffickers held accountable.
    Fueled by the dedication of officers in every bureau of the 
Department as well as at U.S. missions around the world, the TVPA-
mandated TIP Report plays an important role in confronting this 
lucrative crime. In accordance with the Minimum Standards of the TVPA, 
the TIP Report assesses the adequacy of national laws in prohibiting 
and punishing the crime and evaluates government actions to prosecute 
suspects and protect victims. Countries and territories are ranked by 
tiers based on these standards. Tier 1 countries fully comply with the 
Minimum Standards. Tier 2 and Tier 2 Watch List countries do not, but 
are making significant efforts to do so. Tier 3 countries are not 
making significant efforts to fully comply with the Minimum Standards. 
These rankings help hold governments accountable in their efforts to 
fight human trafficking. They motivate governments to develop policies 
and structures to fight this serious crime. In fact, researchers have 
documented the correlation between tier-ranking downgrades and states' 
subsequent enactment of antitrafficking legislation.
    The TIP Report includes specific recommendations for how each 
country can better prevent this crime, prosecute its suspected 
perpetrators, and assist its victims. These recommendations are the 
heart of the report. They guide U.S. diplomacy and engagement on human 
trafficking issues--both publicly and privately. They also serve as a 
roadmap to better address the problem--not for the sake of improving a 
tier ranking, but to make institutional changes that will put 
additional traffickers behind bars, help victims get assistance, and 
prevent exploitation of the vulnerable.
    A key element to the TIP Report is identifying and documenting 
trends in types of exploitation, in criminal strategies, and in raising 
awareness and cracking down on the crime. For example, over time we 
have seen more governments recognize the important contributions of 
NGOs in this fight and improved cooperation, especially in the areas of 
victim identification and victim services. Many countries are beginning 
to grapple with the extent and challenges of detecting forced labor. 
While we have seen an increase in the detection of forced labor cases, 
there is still a large disparity in government efforts to address 
forced labor, which is considered to be more prevalent globally than 
sex trafficking. In victim identification and services, women and girls 
appear to comprise the vast majority of identified victims of sex 
trafficking and are also a substantial portion of labor trafficking 
victims. In addition, we have seen links in regional and transregional 
human trafficking to economic disparity and migration flows, the 
presence of organized crime, conflicts and political instability, 
official corruption and weak rule of law.
    The State Department and USAID have sought to combine 
antitrafficking and labor rights diplomacy with complementary 
programming to help countries achieve results. The State Department's 
Trafficking in Persons (TIP) Office is currently overseeing 98 projects 
worth over $59 million in 71 countries around the world. The TIP 
Office's foreign assistance targets both sex trafficking and labor 
trafficking through implementation of the ``3P'' paradigm of 
prevention, protection of victims, and prosecution of suspected 
traffickers. A fourth ``P'' for partnership, is also a critical element 
in the majority of programs. Along with funding NGOs that offer 
services to trafficking victims, much of our antitrafficking assistance 
is designed to help partner governments build their own capacity to 
fight human trafficking. In the last 2 years, Botswana, Haiti, 
Maldives, Papua New Guinea, and Seychelles all passed antitrafficking 
laws, and Morocco and Namibia have drafted antitrafficking legislation. 
In March 2014, the Bahamas secured its first conviction for human 
trafficking. Maldives also saw its first trafficking conviction.
    Successful programs often work in close partnership with host 
country governments and key stakeholders to encourage a comprehensive 
response to trafficking. For example, in Afghanistan, a State 
Department grantee partnered with the Ministry of Women's Affairs to 
establish an advocacy council comprised of local nongovernmental 
organizations and relevant government agencies to enhance protection 
measures for victims of human trafficking. The council and government 
coalition partners have adopted minimum standards of care for 
trafficking victims and provide training and capacity-building 
assistance. The TIP Office is currently funding a global project that 
integrates survivors of trafficking into a 6-month vocational and 
educational program in the hotel service industry. The project provides 
survivors and at-risk youth with life skills and vocational training 
through a combination of training and practical instruction in 
coordination with leading hotels. This project has already demonstrated 
successes in Mexico and Vietnam and was recently expanded to India and 
Ethiopia.
    Labor programming from the State Department's Bureau of Democracy, 
Human Rights, and Labor (DRL) targets forced labor through 
strengthening the organizational and technical capacity of worker 
rights organizations, providing socioeconomic support and alternative 
livelihood opportunities to exploited workers, and strengthening 
systems to promote identification and remediation of labor law 
violations in a variety of sectors at the local, regional, and 
international levels. DRL's grants are designed to bolster civil 
society and labor's capacity to play a role in migration policymaking. 
The Department makes an effort to ensure that trade and investment 
policies, agreements, and preference programs consistently address work 
conditions for both national and foreign migrant workers. In 
collaboration with the State Department's Economic Bureau and the 
Department of Commerce, DRL partners with multinational corporations, 
business councils, and American Chambers of Commerce to convey 
expectations on labor rights both to host governments and to companies 
within their supply chains.
    The State Department's Bureau of Population, Refugees, and 
Migration funds eight regional migration programs that build government 
and civil society capacity to identify and protect vulnerable migrants, 
including victims of human trafficking. The Bureau also funds a program 
that facilitates the family reunification of foreign trafficking 
victims identified in the United States and contributes to a global 
fund that helps stranded trafficking victims voluntarily return home.
    Corruption and an environment of impunity are significant factors 
contributing to the practice of human trafficking. The Bureau of 
International Narcotics and Law Enforcement Affairs has some of the 
Department's strongest tools for strengthening rule of law and helping 
governments prevent and combat corruption. Its anticorruption and law 
enforcement programming provides training to law enforcement officers 
and the judiciary on investigating human trafficking and corruption 
cases and address the linkages among human trafficking, corruption, and 
organized crime.
    Interagency training at U.S. missions overseas, including Brazil, 
Cambodia, the Philippines, Togo, the Dominican Republic, and Hong Kong, 
will enable State Department, DHS, and FBI agents to pursue trafficking 
cases in the United States through international cooperation and 
engagement in foreign countries. These agencies have trained some 2,000 
law enforcement and consular officers, as well as locally employed 
staff, at embassies and consulates around the world. Closer to home on 
our border with Mexico, the Departments of Justice and Homeland 
Security have collaborated with Mexican law enforcement counterparts to 
exchange leads and evidence, assist victims, and develop high-impact 
prosecutions under both U.S. and Mexican law.
    USAID is one of the largest donors engaged in efforts to counter 
human trafficking. Since 2001, USAID has programed approximately $180 
million in antitrafficking activities in over 70 countries and regional 
missions. Throughout all of its work, USAID seeks to address the root 
causes of exploitation and vulnerability, such as gender and ethnic 
discrimination, lack of educational and employment opportunities, weak 
rule of law, and the absence of social welfare safety nets. In Jordan, 
USAID has integrated countertrafficking activities into a broader human 
rights program combating sexual- and gender-based violence, early 
marriage, and child labor among Syrian refugees and host communities 
affected by the Syrian crisis. With State Department funding, the 
International Centre for Migration Policy Development is assessing the 
impact of the Syrian war on trafficking in persons in Syria and the 
surrounding region (Iraq, Jordan, Lebanon, and Turkey).
    In Bangladesh, along with providing training and technical 
assistance to a range of government officials, USAID has worked to 
improve community awareness of the risks of human trafficking 
throughout the country. Local government officials, teachers, parents, 
students, and community leaders have learned how to prevent human 
trafficking and support the needs of survivors. USAID also has helped 
prospective migrant workers protect themselves from deception and abuse 
through awareness campaigns and trainings on the overseas recruitment 
process, worker registration, and other risks they may face. USAID 
continues to train media professionals, NGOs and independent 
journalists on investigative reporting, story development, and human 
rights with a focus on migrant worker rights. Complementary TIP Office 
programming has supported the development and distribution of an 
antitrafficking law enforcement training toolkit and hands-on training 
for 45 Bangladeshi law enforcement officials on the toolkit's practical 
application. In Dhaka, Bogra, and Jessore, 258 trafficking survivors so 
far have received State Department supported shelter, rehabilitation, 
and reintegration services.
    In 2013, Congress gave the State Department a new innovative tool 
to combat trafficking of children, the Child Protection Compacts (CPC). 
The compacts can help build sustainable and effective systems of 
justice, prevention, and protection. I am pleased to tell you that the 
TIP Office is moving forward to propose the first Child Protection 
Compact Partnership--to be developed and implemented jointly with the 
Government of Ghana. This Compact Partnership will include developing a 
collaborative plan to implement new and more effective policies and 
programs to reduce child trafficking and improve child protection in 
Ghana. Several strong civil society organizations are currently working 
to address child sex trafficking and forced labor in Ghana and, in 
addition to the Ghanaian Government, the TIP Office expects to engage 
multiple partners to fulfill the promise of this first Partnership.
    Our international partners--including civil society, other 
governments, and international organizations--play an essential role in 
making each step forward possible. In the Asia-Pacific region, 
Australia has taken on a leadership role with its Australia-Asia 
Program to Combat Trafficking in Persons, a 5-year AUD50 million 
program to support the Association of Southeast Asian Nations (ASEAN) 
and seven Southeast Asian countries in developing and implementing 
criminal justice responses to trafficking in persons. In addition, 
Australian police regularly conduct trainings to combat child sex 
tourism and other forms of human trafficking across the Asia-Pacific 
region. ASEAN under the Government of Burma's chairmanship chose to 
highlight antitrafficking priorities in 2014.
    The European Union is strengthening antitrafficking efforts across 
its member states through the issuance and enforcement of its 2011 
antitrafficking directive, as well as the 2012 directive establishing 
minimum standards of support to victims of crime. Sweden has allocated 
millions of dollars in antitrafficking funds in recent years, including 
in grants to international organizations such as UNICEF and the 
International Organization for Migration. The Government of the United 
Kingdom has committed to increase antitrafficking engagement in select 
countries around the world and will build on current antitrafficking 
programming including ``Work in Freedom''--a 5-year, approximately $15 
million initiative implemented by the ILO to prevent trafficking for 
labor exploitation of 100,000 women and girls in South Asia by 
targeting known routes used for the trafficking of migrant workers from 
South Asia to the Gulf States.
    In December, with U.S. support, the Organization for Security and 
Co-operation in Europe (OSCE) launched its ``Handbook on Preventing 
Domestic Servitude in Diplomatic Households,'' which is relevant for 
all international organizations and reaches beyond the OSCE region. 
Also in December of last year, member states of the Organization of 
American States revised the organization's ``Work Plan to Combat 
Trafficking in Persons in the Western Hemisphere'' for the 2015-2018 
timeframe. The revised, robust plan includes awareness training for 
diplomatic personnel, protections against trafficking in government 
procurement of goods and services, greater oversight of recruitment and 
placement agencies, and inclusion of trafficking survivors' input in 
the development of victim assistance policies and programs.
    Civilian security and human rights are closely interwoven, and 
promoting security is often a key means of supporting human rights. 
Crises increase vulnerabilities to trafficking, as people are 
displaced, lose income sources and community support systems, and seek 
physical and economic security for themselves and their families. The 
breakdown of social and government structures leaves populations 
defenseless as protections are reduced and options for recourse 
disappear. In the fight against human trafficking, the State Department 
looks at the challenge from a holistic foreign policy perspective. We 
are increasingly mainstreaming antitrafficking elements into other 
foreign assistance programs. Our antitrafficking programs rely on 
broader U.S. supported reforms in rule of law, community security, and 
conflict prevention.
    The reality is that conflicts and ineffective states give rise to 
trafficking and allow it to persist. We must address these underlying 
causes to win this fight. This is a critical component of the State 
Department and USAID's work. The U.S. Government works diligently to 
prevent and stabilize conflicts, and, where it cannot, to help refugees 
and the internally displaced. These activities complement our strategic 
efforts in fighting human trafficking. Where the United States, foreign 
partners, and civil society can help address state weakness, we provide 
a more stable and effective platform for protecting citizens. Poor 
enforcement of labor laws, discrimination, corruption, and restrictions 
on freedom of association and on other human and labor rights leave 
people at risk of exploitation, including trafficking. The struggle 
against modern slavery is one of interconnected threats and 
opportunities. I am proud of the leading role the United States has 
played, with strong leadership from Congress, in elevating the global 
profile of this issue, helping free individuals from modern slavery, 
and galvanizing the work of others to join in to this critical effort. 
The road is long in our battle against human trafficking, but working 
with our global partners, the United States will not relent in our 
multipronged approach to combat this scourge. We welcome Congress' 
interest and partnership in overcoming this global challenge.

    The Chairman. Thank you for that great testimony.
    And the bulk of the State Department's activities, 
programmatic and funding, actually falls under your purview, 
and I know there are a number of different entities that are 
dealing with this. Could you share with us how they are working 
with each other, and is there anything that might be done to 
enhance their ability to do so?
    Dr. Sewall. Thank you for that question, Mr. Chairman.
    When I came in as the Under Secretary, one of my goals was 
to create greater synergy and effectiveness and focus across 
the different bureaus and offices within my Under Secretariat. 
And we have been working diligently over the year in which I 
have had the privilege of serving the U.S. Government to 
achieve just that. We have a number of priorities that we have 
identified for the J Under Secretariat, but we are working 
across the board to ensure closer conversation among all 
entities, programming coordination at the outset, and layered 
approaches to problems. So let me give you a couple of examples 
of the ways in which different elements within the State 
Department are, even though they do not have ``trafficking'' in 
their title, working in support of the TIP Office and its 
goals.
    INL provides some $4 million to help train law enforcement 
personnel, prosecutors, and judges to investigate and prosecute 
trafficking crimes. And this training includes both direct 
training on trafficking in persons, but it is also incorporated 
into training on rule of law, anticorruption, law enforcement, 
border security, or criminal justice. Sometimes this is 
provided by DHS or international organizations such as UNODC or 
IOM.
    The antitrafficking training is also included in the 
international law enforcement academies. They are known as 
ILEA's, and they are scattered around the world. And so that is 
another institutional way to spread both awareness and skills 
to combat the trafficking problem.
    The Bureau of Democracy, Human Rights, and Labor also 
promotes internationally recognized labor standards. It targets 
forced labor directly. It also engages stakeholders to address 
some of the underlying conditions that can give rise to, or 
exacerbate, trafficking. So in 2013, DRL supported almost $3 
million of activities in Jordan, Pakistan, Sri Lanka, Haiti, 
and East Asia-Pacific, and they were working with the TIP 
Office in that work.
    They are planning to fund a program that partners with 
private companies to encourage increased supply chain 
transparency, monitoring, and accountability, and they will be 
focusing on working conditions in that.
    And then the Bureau of Population, Refugees, and Migration 
is working closely to integrate prevention and response to 
human trafficking into humanitarian assistance. This has become 
a new way of thinking about early intervention to quickly 
register people, to quickly identify those who are at risk and 
those who are potential victims and provide services early on. 
And that has been worked through IOM as well as through the 
Return, Reintegration, and Family Reunification Program for 
victims of trafficking, which helped 327 eligible family 
members join trafficking victims with T visa status in the 
United States and helped five survivors voluntarily return 
home.
    So these are some of the ways that a broader conversation 
across different bureaus and offices combine to work on 
different and mutually supporting elements of the problem.
    The Chairman. I know that entities like Daesh, or ISIL, 
enslave people, and I realize this is a minor part of the 27 
million we know are affected by this. But could you tell us: do 
these types of entities help further their efforts through 
human trafficking? Are they taking advantage of this same kind 
of thing? I do not want to spend a lot of time on it. Because 
of its currency though, I thought I would just ask.
    Dr. Sewall. Sure. I think if your question, is are 
terrorist organizations able to exploit ungoverned space in 
conflict in order to commit crimes of trafficking, the answer 
is absolutely, ``Yes.''
    The Chairman. Now, are they doing that to fund their 
activities?
    Dr. Sewall. We do not have particularly good data on that, 
Mr. Chairman. I think to the extent that we know that profit is 
made, it certainly represents profit. We do not know the extent 
of that profit. We do not know exactly how it is used. But 
clearly there is monetary gain being made when women and 
children are being advertised as for sale and their price lists 
are made available through the Internet.
    The Chairman. One of the things we have seen in the field 
is that rule of law is one of the best ways, if not the best 
way, to combat this where you hold perpetrators accountable. Do 
you agree that that is one of the best ways to deal with this 
issue and to curtail the activity?
    Dr. Sewall. I do, Senator. The reality is that trafficking 
in persons is a crime, and therefore, the most sustainable and 
effective way to combat it is to encourage governments to 
develop the appropriate laws and the appropriate methods of 
ensuring justice in order to both prosecute and punish those 
who perpetrate the crime but also deter it in the future. And 
so rule of law is absolutely vital. So much of what the 
Department does is, in fact, in support of a rule of law, and I 
see that as very integral to the antitrafficking cause.
    The Chairman. Last week, when we had a hearing, Senator 
Menendez and I happened to be meeting with a public official 
from a country where we knew this was an issue. And so Senator 
Menendez actually brought it up in that meeting. I guess one of 
my questions is--obviously there are ways of leveraging this. I 
mean, just awareness. I know as we meet with people where we 
know in their own countries this is happening a great deal, it 
makes a difference.
    How are we leveraging through our diplomatic efforts around 
the world awareness and actually implementation of policies to 
really cause this to be lessened?
    Dr. Sewall. That is a great question, and it is really 
central to the work of the State Department. I mean, the 
Trafficking in Persons Report is a tool, and it has been, I 
think, an enormously successful tool. I am extremely gratified 
by the impact that it has had. But it is also a roadmap for the 
day-to-day diplomacy that the Department conducts.
    I think that it is fair to say that the Secretary's view is 
that we have an obligation to be raising trafficking issues as 
part of our daily discourse and that the beauty of having the 
Trafficking in Persons Office within the State Department and 
so focused on leveraging the tools of foreign policy and daily 
diplomacy is that we can keep it on the radar screen in a way 
that is much more consistent and tied to a broader American 
agenda than the TIP Report on its own would be able to do.
    The Chairman. And I know right now--this is my last point I 
guess--this Trafficking in Persons Office really does not have 
anybody who is the Ambassador at Large, if you will. I assume 
that you have taken on those responsibilities and we can count 
on you, in spite of not having someone there, to continue 
pursuing it heavily.
    Dr. Sewall. We are looking to fill that position as quickly 
as we can. But I will tell you that last year during the TIP 
Report final process, I was deeply engaged even with an 
ambassador there, and I look forward to staying deeply engaged 
in the time ahead even after we have an Ambassador at Large.
    The Chairman. Thank you. Thanks for your commitment and 
testimony today.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    In November 2014, the Government Accountability Office 
published a report on efforts to combat trafficking on U.S. 
Government contracts overseas entitled ``Human Trafficking: 
Oversight of Contractors' Use of Foreign Workers in High-Risk 
Environments Needs to be Strengthened.''
    The GAO investigators spoke to migrant workers on U.S. 
contracts overseas who had paid an equivalent of up to 1 year's 
wages to unsavory recruiters in order to secure their jobs.
    So as we are talking about trafficking and modern day human 
slavery, it is pretty mind-boggling that on U.S. Government 
contracts we might have an iteration of that.
    So how does State ensure that U.S. Government contracts 
overseas are not used as a vehicle for trafficking workers?
    Dr. Sewall. Thanks for that question, Senator.
    We are leading, for example, and we have begun in the 
context of the Executive order that I mentioned in my testimony 
working first and foremost on our internal supply chain. So as 
of the Executive order and similar provisions in law, Federal 
contractors and subcontractors, as well as their employees, are 
prohibited from deceiving employers about key terms and 
conditions of employment. They are prohibited from charging 
employees recruitment fees, and they are prohibited from 
denying employees access to their identity documents, as well 
as a host of other things.
    Senator Menendez. What is the date of that Executive order?
    Dr. Sewall. I am sorry?
    Senator Menendez. What was----
    Dr. Sewall. To be honest, I am not sure how to pronounce, 
whether it is 13, 627 or whether it is 1, 3, 6, 2, 7, but those 
are the numbers of it. It is the Federal acquisition regulation 
rule that implements Executive Order 13627.
    So this is something that has been implemented in order to 
address precisely these kinds of problems. Federal contractors 
now will need to certify that they have their compliance plans 
in place, and they will be conducting in-depth mapping of their 
supply chains, expanding control over recruitment schemes, 
making available safe and independent grievance mechanisms. And 
we will continue to be engaging on this issue, including in the 
context of our ongoing work to develop a national action plan 
on responsible business----
    Senator Menendez. All right. Well, I am informed that the 
Executive order was issued before the GAO's report.
    But as in anything, we can have all the laws in the world 
and all the Executive orders in the world. It is enforcement 
that matters in order to send a very clear message that we 
would, as a government, not tolerate in our own supply chain 
having that. So I hope we are going to pay particular attention 
to that.
    How does the Department of State work with its partners to 
strengthen source country policies, for example, places like 
Bangladesh and Nepal, to prevent fraudulent recruitment 
practices? Because in the previous hearing that we had, it was 
a big element of these recruiters or a big part of the 
challenge we have here. So do we have any specific focus on 
that?
    Dr. Sewall. We do. Yes, we do, and it is both an issue of 
bilateral concern but it is also an issue that we support in a 
more integrated way but we are not directly running that 
process. So let me walk you through that.
    We engage with both sending countries and with destination 
countries to underscore their responsibilities under the 
Palermo Protocol and to combat trafficking. And so that is a 
dialogue, the content of which is contingent on which country 
and what the circumstances are.
    But in addition, we have been encouraging those countries 
to have a dialogue between both sending and destination 
countries about how the issues interact with one another. So, 
for example, the Colombo Process is a nascent dialogue that has 
been developed between the gulf countries and the South and 
Southeast Asian nations. A subset of that is the Abu Dhabi 
Dialogue in which we are just beginning to facilitate that kind 
of exchange.
    And this is an ongoing area. I think it is an area, 
frankly, Senator, that we are going to be spending more time on 
and more attention to because we are looking at some big-
focusing international events coming up that will provide a 
very useful forum to raise some issues that are very important 
to raise. And so it is an area in which I am looking forward to 
engaging with others in the State Department to focus more on.
    Senator Menendez. Okay.
    Now, the Trafficking in Persons Report, we have all 
recognized, is a significant tool in our efforts here. And the 
chairman referred to the fact that we have no Ambassador at 
Large in that role. So I assume that your answer to him is that 
you are personally going to protect the integrity of the TIP 
Report overall and especially with regard to particular 
countries that may be subject to intense political pressure 
within the building?
    Dr. Sewall. Yes. I was involved in the process last year. I 
am very proud of the process that transpired last year. I look 
forward to participating in a process that has similar 
integrity this year.
    Senator Menendez. Are there particular countries whose 
trends you find concerning?
    Dr. Sewall. I think it best to say that we are compiling 
data on the countries, and that it is very hard for us to 
identify trends until we get the full amount. As you will be 
aware, at the end of a reporting period, we tend to get a whole 
lot more data than we necessarily got along the way. So I think 
it might be premature to talk about trends. But I think in 
general we have seen trends going in both directions, and that 
is one of the biggest advantages of having the annual report 
process is that we are able to then reflect that in the 
findings.
    Senator Menendez. I hope when you do the report that you 
would share with the committee insights as to trends that you 
see developing, whatever those trends may be. It would be very 
helpful.
    Dr. Sewall. Absolutely.
    Senator Menendez. Finally, according to the State 
Department's own Trafficking in Persons Report, the Government 
of Cuba does not fully comply with the minimum standards for 
the elimination of trafficking and is not making significant 
efforts to do so. It continues to be a source country for 
adults and children subjected to sex trafficking and conscripts 
doctors and medical personnel to work overseas under conditions 
that resemble forced labor. As a matter of fact, that happens 
to be the number one source of income to the Castro regime is 
forcing doctors to go abroad and work and then having the 
payment for those doctors sent back to Cuba.
    So between that--and Voyeur magazine had an article, Sex 
Trafficking Capital of the World,'' several years back about 
Cuba. Can you tell me whether or not trafficking has been 
raised and prioritized throughout the administration's new 
engagement with Havana?
    Dr. Sewall. Yes, absolutely.
    Senator Menendez. And how so?
    Dr. Sewall. So, first of all, we have been in an ongoing 
dialogue with Cuban Government officials. We have met on 
multiple occasions over the past year to share information on 
efforts to combat human trafficking. And we expect that that 
engagement will continue and deepen over time because we do 
share a commitment to addressing it.
    But as you said, government complicity in trafficking is 
one of the most nefarious and troubling aspects of trafficking 
in persons. And so that does not mean that this will be an easy 
conversation, but it will be, as all dialogues are, frank and 
open. We would like to take advantage of any opening that we 
have to prompt the Cuban authorities to make progress on 
trafficking, but the problems, as you pointed out, are severe.
    Senator Menendez. I would note, Mr. Chairman, that the 
Secretary's response suggests that the government is complicit 
in trafficking, and that makes it all the more--in my mind, one 
thing is to have a blind eye to what is happening in your 
country. The other thing is to be complicit in the trafficking. 
And that is the reality of Cuba.
    Thank you for your answer.
    The Chairman. Thank you, sir.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. Thank you for the 
hearing again.
    Thank you, Madam Under Secretary, for being here today.
    I believe the United States should set an example on 
eradicating the scourge of modern day slavery and human 
trafficking worldwide, that we need to set that example. We 
have to be the example here at home so we can show our partners 
abroad that we have done the work ourselves that we need to.
    That is why I am concerned that right here in the United 
States, the National Human Trafficking Resource Center hotline 
received nearly four times as many calls in 2013, as recently 
as 2013, as they did in 2008, with calls rising from 5,748 to 
20,000, almost 21,000 calls in 2013 alone.
    During the last week's panel, the witness from Humanity 
United stated in his written testimony that estimates suggest 
that as many as 300,000 U.S. children are at risk of being 
trafficked into the commercial sex trade.
    I mentioned last week as well work that we have done in 
Colorado with the Colorado Organization for Victims Assistance. 
They are 100 percent funded right now, I believe, through the 
Office of Victims of Crime. They have done a lot of work with a 
number of victims of modern day slavery and continue to work as 
well as a subcontractee for the United States Committee on 
Refugees and Immigrants. And I think there is an issue that 
they are trying to work out right now through this committee as 
an OVC grantee and whether or not they can utilize the refugee 
and immigrant funding for OVC victims in the grantee office. So 
perhaps we could talk a little bit about some of those issues 
as well as we work through that and get your help with Justice 
on this.
    They have done a lot of work in terms of setting and 
meeting the metrics required to help assure funding is going 
toward victims of trafficking. Would you agree, though, that we 
need to do more here in the United States to increase our 
efforts to combat human trafficking so they would be a better 
example abroad?
    Dr. Sewall. Well, I will begin by expressing humility in 
the sense that domestic trafficking is not my focus as a State 
Department official.
    Senator Gardner. I understand.
    Dr. Sewall. And as with any truly egregious human rights 
violation, there is almost always more that can be done.
    I think one of the difficulties that we have again in 
dealing with many of the problems where victims are often 
hidden or there is sometimes a real sense of shame that is 
associated with being a victim, where there are multiple layers 
that can keep people entrapped in slavery, it is sometimes very 
difficult both to understand the extent of the problem and then 
to understand when we learn more, whether that means there is 
an increase or whether that means that more people have become 
emboldened to tell their story and seek help.
    So I appreciate your concern and I am confident that 
whatever we can do to help victims, of which there are many, 
will be welcomed. I cannot speak to anything more specific than 
that about the domestic----
    Senator Gardner. I understand. No, thank you. I understand.
    And are you familiar with the Tier 3 list of countries in 
the reports that talk about their responses to trafficking?
    Dr. Sewall. Generally speaking. I would probably have to 
refresh myself, but I can flip to appropriate tab.
    Senator Gardner. Sure. No problem.
    You know, these are the most persistent violators of U.S. 
antihuman trafficking laws and subject to U.S. sanctions under 
the Trafficking Victims Protection Act, including the 
withdrawal of nonhumanitarian, non-trade-related foreign 
assistance.
    There is a letter here from the White House dated September 
18, 2014. It mentions several nations whether it is Cuba, 
Russia, others in terms of Tier 3 sanctions.
    Could you talk about the economic impact that these 
sanctions have had on the targeted countries and how much U.S. 
assistance to these states has been blocked?
    Dr. Sewall. Sure, I can. Do you want me to run through----
    Senator Gardner. Maybe perhaps a few highlights. I mean, 
for instance, Cuba is listed here. Saudi Arabia is listed here. 
Just perhaps in Tier 3.
    Dr. Sewall. So the restrictions on educational and cultural 
exchanges for Cuba were waved. In many cases, the full 
restrictions apply, but in many cases these countries have also 
been sanctioned for other reasons. So there is no additional 
tangible impact, but nonetheless, they have not been waved. So 
it is country by country.
    Senator Gardner. If they have already been sanctioned for 
other causes and we are sanctioning them again under this, are 
they effective? Are they accomplishing what we are trying to 
do, or are there other things that we need to be doing?
    Dr. Sewall. Well, you know, to be honest, I am not sure 
that it is the sanctions per se that have the impact, although 
again it is very specific country by country. I think that the 
real impact of the TIP Report lies with countries that 
recognize that they are failing their citizens and see the 
designation and the criticism as an impetus to make change. We 
have many ways of engaging. The TIP Report is one tool. 
Sanctions are another tool. Sanctions are going to matter to 
some countries more than others, and they are going to matter 
for different reasons.
    I think personally that it is the way the United States has 
been able to play a leading role in elevating this 
international norm 
and then hold countries that purport to be committed to 
international norms to realize them. As the Senator was saying, 
the difference between having a law and enforcing a law or the 
difference between saying that you have signed the protocol and 
then implementing the law--I think those in many ways are the 
most tangible results that we have.
    So I have been, to be perfectly honest, astonished by the 
impact that many elements of the whole TVPA have had, and they 
play different roles in different contexts.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Under Secretary Sewall, it is nice to see you back in the 
Government.
    Dr. Sewall. Great to see you, Senator.
    Senator Shaheen. Yes. We had an opportunity to work 
together at the Kennedy School, and I saw the great work that 
you did there.
    It was really hearing from students at the Kennedy School 
that I think first opened my eyes to the issue of trafficking 
in persons. I had not really been aware and it had not 
crystallized as something that was occurring in the prevalence 
that it does around the world until I listened to some of those 
young people talking about it.
    And so what more can we do? You have talked about the 
programs that the State Department is doing to address 
trafficking, but what more can we do to make people aware of 
the extent to which this is an issue and the need for all of us 
to be aware of it and to call attention if we see anything that 
we think contributes to trafficking?
    Dr. Sewall. Thanks for that question.
    I think for many people the access point for the emotional 
and intellectual connection to trafficking really is an 
individual story. And I think one of the things that has been 
interesting to me, just as I move around in the subway in 
Washington and I see the Blue Campaign pictures, and you can 
imagine the story of this person, I think those are very 
effective ways that we have found to raise general awareness.
    Some of the work that the State Department has funded to 
catalyze social media tools like the Slavery Footprint example 
that I mentioned are also extremely useful.
    I think it is very valuable, as we put a human face on the 
trafficking problem, that we then tie that to other problems 
that are more abstract. So we can talk about failed states and 
ungoverned space, but what does it allow? This is what it 
allows. Like you, when I met with Yazidis--their community was 
subjected to horrible human rights abuse, including trafficking 
in sexual slavery--their story ties that particular crime to a 
broader conflict and tries to connect the two. So in what is 
sometimes seen as a very abstract, ``over there'' foreign 
policy, to be honest, I see a way for trafficking to connect 
people to the importance of U.S. engagement internationally 
because it is through the voice of our Government and our posts 
and our ambassadors that we are able to represent American 
outrage about this crime.
    So I think we do it bit by bit. We do it at a lot of 
different layers. There is always room to do more, but I really 
do appreciate your commenting on the power of the story. I 
think that is part of what has allowed this crime to become so 
much of a focus because survivors tell stories and the stories 
are extraordinarily compelling. And we at the State Department 
will continue to try to tell and amplify their stories.
    Senator Shaheen. Thank you.
    As we are talking about the products that we use in the 
developed world that often are available because of trafficked 
persons, are we addressing that issue as we are looking at the 
two major trade agreements that we are negotiating now, TTIP 
and the TTP, and can you talk about how we have addressed it in 
those agreements?
    Dr. Sewall. I can talk in some detail, but some of these 
negotiations are still ongoing.
    Senator Shaheen. Right. I appreciate that.
    Dr. Sewall. So obviously I cannot predict the future.
    So for all of these--we talked about the way in which the 
trafficking issue relies to some extent on a substructure of 
rule of law. And part of the advantage that we have, as we 
negotiate these trade agreements, is that they are designed to 
clarify and hold to account in the formal agreement basic 
international labor standards. And so to the extent that we are 
trying to focus on trafficking as a particular element of 
violation of that regime, getting that regime in place is 
hugely powerful. And I think that is in no small part what 
underlies the administration's commitment to trying to put on 
paper in formal agreements both of these processes. And then 
they in turn, as we negotiate them, become another forum and 
another carrot, if you will, to raise the specific of 
trafficking in another platform for pushing it. So I see it as 
very much consistent with the broader goals of the 
antitrafficking community.
    Senator Shaheen. That is great. And how are we working with 
our European allies to address this issue and to what extent is 
it more or less prevalent in Europe than in the United States 
or North America?
    [The written response submitted by Dr. Sewall follows:]

    We work closely with our European partners to combat trafficking in 
persons, both in the region and globally. The State Department 
regularly engages European governments to share best practices in 
combating trafficking, as well as assist each other through trainings, 
technical assistance, and law enforcement working groups. We also 
collaborate with our European partners in multilateral fora, such as 
the U.N., OSCE, and Council of Europe, in order to build stronger 
global norms on countering human trafficking.
    Unfortunately, it is exceedingly difficult to produce reliable data 
on the prevalence of human trafficking. The sampling methodologies 
common among researchers today are not well-suited for studying 
trafficking, as the victims are largely hidden. The State Department 
noted in the 2014 TIP Report that governments and civil society 
organizations reported identifying over 44,000 victims of human 
trafficking in 2013; however, the International Labor Organization 
estimated that there are 20.9 million victims globally. The hidden 
nature of many human trafficking crimes impairs researchers' ability to 
estimate prevalence of human trafficking.

    Dr. Sewall. I cannot speak to prevalence because it is so 
hard to generalize country by country, transit versus source. 
It is hard to generalize. I can get you more information on 
that, and I would be happy to do so.
    I think it is fair to say that this has become--in the same 
way that our engagement with countries that experience enormous 
problems as a source country or as a destination country, this 
has become also a generic topic of collaboration with 
likeminded countries that are similarly concerned. And so 
Australia, the U.K. come to mind as examples where the 
governments are very much seized with these issues, very 
engaged diplomatically on these issues, raising them in the EU 
context, working on them in the context of specific programs 
that they run.
    It is again part of what the American people can, I think, 
be very proud of by raising this item on the international 
normative agenda. Others have come to work on it in a much more 
applied and commonly articulated way. And so I think these 
really are multiplier effects that we are able to have working 
together with partners.
    Senator Shaheen. Well, thank you very much for the great 
work that you and the Department are doing.
    Dr. Sewall. It is a team, and many of them are behind me, 
but on their behalf, you are welcome.
    Senator Shaheen. Thank you all.
    And thank you, Mr. Chairman and Senator Menendez, for 
organizing this hearing.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    The title of this hearing, I think, really speaks to our 
mission, ``Ending Modern Slavery,'' the critical priority that 
this must be for our country, and the importance of U.S. 
leadership, because we know we are not going to make progress 
internationally if the United States does not maintain a very 
strong position.
    So I want to drill down a little bit on what Senator 
Shaheen said. I very much respect the work that you do and that 
your team does. It is critically important. You have been a 
voice for people around the world, and you have brought about 
significant improvements around the world. And we very much 
appreciate that.
    But as Senator Menendez said, there are certain 
opportunities that you have that you have really got to take 
advantage of. Senator Menendez mentioned Cuba. There is an 
opportunity there. We have their attention. And I must tell 
you, as things become more normal and trade starts, you lose 
that leverage.
    So I appreciate your answer to Senator Shaheen, and I agree 
with you that in the trade agreements we hope we will see 
stronger labor protections, greater emphasis on good governance 
and anticorruption efforts, and enforcement of these 
provisions. But it would give me a little bit more comfort if I 
knew your views on why Malaysia is a Tier 3 country and still a 
candidate for TPP. What changes can we expect to see 
implemented in Malaysia before the trade agreement is signed, 
or is there sufficient enforcement in the trade agreement being 
negotiated so that Malaysia will not be a Tier 3 country 
enjoying a trade agreement with the United States. What 
assurances can you give us?
    Dr. Sewall. What I can do--Senator Cardin, as you will 
appreciate, I am not running the trade negotiations. So what I 
can do as a servant of the United States Government but one 
part of a team is take your question back and answer it more 
fully in consultation with my colleagues that are running the 
trade negotiations. But I would be delighted to do that, sir.
    [The written response submitted by Dr. Sewall follows:]

    In the Trans-Pacific Partnership (TPP) talks, we are seeking 
strong, enforceable commitments on fundamental labor rights. This 
includes commitments on the elimination of all forms of forced or 
compulsory labor and on the worst forms of child labor, including 
forced child labor and the commercial sexual exploitation of children. 
Officials from USTR and the Departments of State and Labor have engaged 
closely with Malaysia to discuss needed reforms, including related to 
forced labor. TPP provides the U.S. Government with an additional 
platform to raise these issues and seek necessary reforms.

    Senator Cardin. I thank you for that.
    I just remind you that there are rumors going around here 
that we may be asked to vote on trade promotion authority 
within the next couple weeks. So there is not a lot of time to 
get back to us on this. Normally, we would put in trade 
promotion authority what we expect to be accomplished by the 
trade agreements. And I could be pretty specific as it relates 
to trafficking, and perhaps you will help me draft language to 
deal with compliance with the criteria that we use in the TIP 
Report that we could add to TPA. That might be helpful if the 
administration is so inclined. But I would like to have 
specific information on this.
    Dr. Sewall. We will get that to you.
    [The written response submitted by Dr. Sewall follows:]

    Trade agreements like TPP provide an additional platform to urge 
other governments to address concerns related to trafficking and forced 
labor. The administration is committed to continuing to use this 
platform in this regard.

    Senator Cardin. Thank you.
    I would also like to have recommendations from you as to 
how we can improve the Trafficking in Persons Report. You 
mentioned that as you get closer to the publication dates, you 
see activities. It would also I think be helpful if we could 
figure out how we could perhaps improve the reporting 
requirements in an effort to make this tool an internationally 
recognized tool. How can we strengthen it?
    Dr. Sewall. I would be happy to talk about that.
    I think the first thing that I will tell you--and again, I 
am reflecting the work of the team--is that from our 
perspective, we are always seeking to strengthen the report.
    One of the difficulties--and I will say this just from my 
past life as an academic--is that when you have a law that has 
very specific requirements and you have a very careful system 
for reaching conclusions, you have to write in a way that 
sometimes makes it hard for the reader to do what Senator 
Shaheen was talking about, which is really connect viscerally 
to the problem. In other words, there is a lot of formula in 
the report. And so trying to harmonize the need to be very 
specific and responsive to the law and its requirements and 
creating something that is more able to connect to people on a 
human level I think is a constant challenge within that report.
    I also think that there is a danger always in compiling 
these reports that you have basically the same list of failings 
for countries that are truly challenged and they may all share 
the same list of challenges, but three pieces may be 
particularly important in this country and three very different 
issues may be the center of the problem in another country. And 
I think we are struggling to try to find a way to reflect that 
without not fully capturing all of the data that we have. That 
is another tension in the report.
    There are some issues like child marriage that we think 
about the human rights reporting and we think about the 
trafficking in persons reporting, and we wonder how best to 
reflect those issues.
    So those are ways in which we grapple with trying to make 
both a more useful and user friendly report, and the team is 
constantly asking itself how it can improve the product.
    Senator Cardin. Do you know whether there has been a 
sharing of the standards that you use in evaluating countries 
under the TIP Report with our trade negotiators so that they 
have more objective ways of determining progress made in good 
governance in countries dealing with trafficking?
    Dr. Sewall. That is a very good question. I do not know the 
answer, but I will undertake to make sure that we do just that.
    Senator Cardin. If you could get back to me on that, I 
would appreciate it.
    Dr. Sewall. Sure.
    [The written response submitted by Dr. Sewall follows:]

    The Department of State has consulted closely with USTR throughout 
the TPP negotiations. The Department has reviewed the TIP Report with 
USTR and coordinated with them on how to ensure that the TPP agreement 
includes strong provisions on eliminating forced labor and discouraging 
trade in goods made with forced labor.

    Senator Cardin. My last question deals with transparency. 
Some of my colleagues have already talked about that. We have 
found that transparency works well. When we look at 
multinational companies that have access to our markets, the 
chain of supply and the companies that they have dealt with and 
their labor practices, et cetera, the more transparency that 
you can show on those issues, the less chance we will see 
support for trafficking in labor. Is that an area in which you 
are also talking with the trade negotiators to make sure that 
we have more transparency in the countries that we are dealing 
with, that we do not see our multinational companies supporting 
trafficking?
    Dr. Sewall. You know, we have been able to use--I am sure 
you are aware of this--transparency in a number of different 
contexts, you know, the extractive industries, for example, in 
terms of creating greater awareness of inputs and outputs. 
Transparency, as a general principle of governance, is 
something that the United States has been extremely active on. 
The Open Government Partnership is committed to basically 
pushing the bar up, helping countries become more transparent 
in all elements of governance. So I think it is fair to say 
that the U.S. view in general is very much in accord with your 
own, Senator, which is that more transparency is helpful.
    Again, I have not had a specific conversation with the 
trade negotiators about that, but I can add that to the now 
fulsome roster of issues to raise with them. [Laughter.]
    [The written response submitted by Dr. Sewall follows:]

    Ensuring transparency in supply chains in order to discourage trade 
in goods produced by forced labor is a priority for the Department. 
Under TPP, we are working to include new commitments for our trading 
partners to discourage trade in goods produced by forced labor. More 
broadly, the Department has been actively engaged in efforts to promote 
responsible business conduct, which includes transparency and respect 
for human rights, in global supply chains, including through the 
National Action Plan on Responsible Business Conduct announced by 
President Obama last September. We regularly coordinate with USTR and 
other relevant U.S. agencies on these issues.

    Senator Cardin. I appreciate that very much, and I look 
forward to working with you and you getting back to me. Thanks.
    Dr. Sewall. Thank you.
    The Chairman. Thank you, Senator.
    I know Senator Menendez had a closing question and comment.
    Senator Menendez. Thank you, Mr. Chairman.
    I want to follow up on Senator Cardin's point because this 
issue boggles my mind sometimes. And I know from your 
confirmation hearing, which I was privileged to chair, you are 
eminently qualified for the position you now hold. But 
sometimes in an institution like the State Department, you have 
to have sharper elbows. And to hear the answer about Malaysia, 
as by way of one example, as we are negotiating, I mean, a 
trade agreement should not have already raised these 
trafficking issues to countries that are on the TIP Report 
list. Because the fact of the matter is that it undermines, I 
think, our moral authority to say that we are willing to do 
business with you but, you know, on this question--you know, 
you are on our Trafficking In Persons list, but we are willing 
to do business with you. That is a tough proposition.
    So I would hope that you would take a more activist role in 
looking at how you take your TIP Report, which I think we all 
agree is a very powerful tool, and look at other elements of 
our Government to make sure that we are in harmony with what we 
are trying to pursue. Otherwise, whether it be contracting, 
whether it be negotiations for trade or other elements, I think 
we erode the very essence of what we are trying to pursue. And 
so in some respects, I do not want us to be duplicitous in the 
way in which we look at this because otherwise I am not sure 
that we are going to achieve a goal that I know the chairman is 
very singularly focused on here and which I share his views on.
    Dr. Sewall. Senator Menendez, I think it is an excellent 
point. I do want to clarify that we do distribute the TIP 
Report. It is very much part of the woof and warp of the State 
Department. Typically--and I do not mean this to be a pedantic, 
bureaucratic answer, but I do not want to leave you with the 
impression that people are unaware of the report or that the 
issues--for example, the case of Malaysia, people have not 
discussed it in the context of trade. I was asked a question 
about whether I had.
    So the bureaucratic way this would work is that the 
regional bureaus, which work on all elements of a given 
country's issue, are very much aware of the TIP Report because 
they are very deeply engaged in the adjudication process every 
year. They are very aware and they are working with the trade 
bureaus. So I think it is an absolutely important point.
    And I take Senator Cardin's exhortation for us to go and 
add an additional conversation from a functional lens, but 
those conversations do happen. They just happen separately, and 
I did not want to be speaking for the Department as a whole 
rather than my own role.
    Senator Menendez. And I understand what you are saying, but 
let me maybe try to crystallize my point. That a regional 
bureau raises the question or knowledge that the TIP Report 
says this about this country who you are negotiating with is 
one thing. That the Under Secretary for this position raises 
that at a level that is more among equals is a much more 
powerful set of circumstances.
    Dr. Sewall. Point taken.
    The Chairman. Well, listen, I want to thank you for your 
efforts. I think you have been an excellent witness. I 
appreciate what you are doing at the State Department. 
Obviously, we want to see things move along even more quickly, 
and I think we are going to be working toward an end here very 
soon that will be very complementary to what you are doing. And 
we thank you again for your service to our country, for being 
here today, for being an outstanding witness, and we look 
forward to working with you on a continual basis.
    Dr. Sewall. Thank you, Mr. Chairman. It was a pleasure to 
join you all.
    The Chairman. Thank you.
    The hearing is adjourned.
    [Whereupon, at 3:11 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Responses of Sarah Sewall to Questions 
                  Submitted by Senator Robert Menendez

    Questions a-c. In November 2014, the Government Accountability 
Office published a report on efforts to combat trafficking on U.S. 
Government contracts overseas--``Human Trafficking: Oversight of 
Contractors' Use of Foreign Workers in High-Risk Environments Needs to 
Be Strengthened.'' GAO investigators spoke to migrant workers on U.S. 
contracts overseas who had paid an equivalent of 1 year's wages to 
unsavory recruiters in order to secure their jobs.

  <diamond> a. How does the Department of State ensure that U.S. 
        Government contracts overseas are not used as a vehicle for 
        trafficking workers?

    Answer. The State Department takes seriously its responsibility to 
ensure that its contracts overseas are not being used as a vehicle for 
trafficking workers. Since 2011, the State Department has issued 
Procurement Information Bulletins (PIBs) to provide guidance to its 
Contracting Officers (CO) and Contracting Officer Representatives (COR) 
on how to monitor contracts for compliance with antitrafficking 
provisions, and it has enhanced its training as well. The State 
Department and the Department of Homeland Security developed online 
training for acquisition professionals across the U.S. Government; a 
35-minute course is currently available on the Federal Acquisition 
Institute's Web site. (Federal agencies are working to update this 
training now that the FAR rule implementing Executive Order 13627, 
Strengthening Protections Against Trafficking in Persons in Federal 
Contracts (E.O. 13627), has been released.)
    The State Department revised its Contractor Officer Representative 
(COR) course to include a detailed discussion on COR responsibilities 
for managing antitrafficking requirements, and updated its COR Handbook 
in the Foreign Affairs Handbook to reflect these requirements. A 
webinar on preventing Trafficking in Persons was developed specifically 
to target posts identified by the GAO as needing additional guidance.
    The State Department strengthened contract review and staff review 
of procurement files at posts during periodic visits to verify that an 
antitrafficking clause is included. Contracts sent to Washington from 
posts for approval are reviewed by Washington staff for inclusion of 
the antitrafficking clause.
    The State Department was an early advocate of prohibiting the 
charging of recruitment fees to employees because of the potential for 
abuse. This prohibition was incorporated into E.O. 13627. Now that the 
Federal Acquisition Regulation (FAR) rule has been issued implementing 
E.O. 13627, the FAR rule and similar provisions in laws make clear that 
federal contractors and subcontractors (and their employees) are 
prohibited from deceiving employees about key terms and conditions of 
employment; charging employees' recruitment fees; and denying 
employees' access to identity documents. They are also prohibited from 
using forced labor and from procuring commercial sex acts in the 
performance of a contract or subcontract. Federal contractors 
performing work outside of the United States worth over $500,000 need 
to maintain compliance plans and certify to the best of their knowledge 
that neither they, nor any of their subcontractors, have engaged in 
trafficking or trafficking-related activities. The State Department was 
instrumental in implementing the GAO report's recommendation to define 
recruitment fees more clearly through the development of a new 
governmentwide FAR definition. That change will be promulgated through 
an impending FAR case.
    Finally, the U.S. Government is using all available tools to better 
assist procurement officers, federal contractors, and other interested 
corporations. For example, this includes a global project the State 
Department has funded to Verite, an award-winning labor rights NGO, to 
research the key sectors and commodities at risk for human trafficking, 
draft an extensive report summarizing its findings, and develop a set 
of online, public-facing tools. These resources will enable federal 
contractors and other businesses to adopt ethical sourcing guidelines 
and compliance plans that align with E.O. 13627, and will be available 
in 2015.

  <diamond> b. How is the Department of State working with transit 
        countries, such as in the Middle East and the gulf, to improve 
        conditions for workers and oversight of contractors recruiting 
        and employing workers in these countries?

    Answer. It is the responsibility of governments to hold employers 
accountable for adhering to labor laws and to prevent the trafficking 
of workers. Visa sponsorship systems, including the kafala system in 
effect in many countries in the Middle East, can place significant 
leverage in the hands of employers and recruitment agencies and create 
the potential for exploitation. Additionally, labor laws in many parts 
of the region do not fully apply to migrant workers, in particular 
migrant domestic workers. The Department continues to encourage 
governments to pursue reforms of such systems and labor laws. Some 
governments in the region have announced plans to make such reforms. 
The Department also continues to encourage governments to better 
enforce existing laws that prohibit employers from withholding workers' 
passports and restricting workers' movements, including by denying exit 
visas, as a means of preventing trafficking abuses.
    In 2012, sending and receiving countries agreed--through the Abu 
Dhabi Dialogue, a collaboration between gulf countries and South and 
Southeast Asian nations involved in the Colombo Process--to a framework 
which aims to increase intergovernmental partnerships in a number of 
areas, including through guidelines on labor recruitment, enforcement 
of labor standards, training or support throughout the migration 
process. We also work with international organizations on funding and 
technical assistance efforts to improve labor governance and respect 
for internationally recognized worker rights as a key part of 
preventing extreme abuses such as trafficking in persons.

  <diamond> c. How is the Department of State working with its partners 
        to strengthen source country policies, such as in Bangladesh 
        and Nepal, including the regulation of recruiting agencies?

    Answer. In source countries, the Department advocates, as a key 
priority, that governments sharply reduce and eventually eliminate 
recruitment fees and criminally prosecute those suspected of fraudulent 
recruitment--two practices that increase the vulnerability of migrant 
workers to forced labor. The Department also advocates for governments 
to take action to ensure that those intending to migrate for work are 
informed of their rights and protected throughout the migration 
process. The Department is currently exploring ways to empower sending 
countries to have more leverage to protect their workers overseas, for 
example through effective and transparent MOUs.
    Programmatically, the Department provides assistance programming 
toward these objectives. In Bangladesh, the TIP Office is funding the 
Solidarity Center, which in partnership with local implementing 
partners has integrated basic antitrafficking training into the 
curriculum of the Dhaka Technical Training Center for Migrant Workers, 
disseminating valuable information on the rights and obligation of 
migrant workers, the telltale signs of trafficking, and mechanisms for 
recourse if they find themselves in exploitative and abusive situations 
overseas. Every month an estimated 1,000 migrant workers receive such 
training, and so far more than 7,000 migrant workers have benefited 
from the program. The Bureau of Democracy, Human Rights and Labor (DRL) 
is in the process of awarding a new project in Bangladesh that will 
promote core labor standards, including freedom of association and 
occupational safety and health, and raise the standard of living and 
promote inclusive economic growth for all Bangladeshi citizens. 
Additionally, DRL funds the ILO for a project that works to protect the 
rights of migrant workers through organizing, empowerment activities, 
enhanced cooperation and trade union support in several countries, 
including Nepal.
    In Nepal, USAID is funding a 5-year project that includes creating 
Safe Migration Networks and training Network members to increase their 
ability to promote safe migration. The Department has coordinated with 
other government and private donors to enhance use of foreign 
assistance funding and reduce duplication--to more effectively work 
toward ending these practices that contribute to human trafficking from 
the region.

    Question. Several countries that appear on the lowest tier in the 
Department of State's Trafficking in Persons Report (TIP) due to severe 
labor rights violations and forced labor, such as Thailand and 
Malaysia, currently receive trade preferences from the United States or 
are part of trade negotiations, including the Trans-Pacific Partnership 
(TPP).

  <diamond> Is the Department of State engaging with USTR to ensure 
        that the concerns raised in the TIP Report for these countries 
        are addressed before they receive trade preferences?

    Answer. The Department promotes and reports on internationally 
recognized worker rights and efforts to combat human trafficking around 
the world, including in Thailand and Malaysia.

  <bullet> In Thailand, we meet regularly with key labor, civil 
        society, and private sector interlocutors to discuss labor 
        conditions in the country, including forced labor, and are in 
        regular contact with USTR on these issues. The elimination of 
        forced labor is a core part of the eligibility criteria of our 
        trade preference programs, including the Generalized System of 
        Preferences. In October 2013, the AFL-CIO submitted a petition 
        seeking the suspension or limitation of Thailand's GSP trade 
        benefits based on alleged shortcomings on worker rights in 
        Thailand, including forced labor. Once Congress acts to 
        reauthorize the GSP program, the administration will decide 
        whether to accept this petition for formal review.
  <bullet> In Malaysia, officials from Departments of State and Labor 
        and USTR have engaged closely with the Malaysian Government on 
        needed reforms to combat trafficking, including reforms related 
        to forced labor. In the Trans-Pacific Partnership (TPP) talks, 
        we are seeking strong, enforceable commitments on fundamental 
        labor rights. This includes commitments on the elimination of 
        all forms of forced or compulsory labor and on the worst forms 
        of child labor, including forced child labor and the commercial 
        sexual exploitation of children. The Department has reviewed 
        the TIP Report with USTR and coordinated with them on how to 
        better ensure that the TPP agreement includes strong provisions 
        on eliminating forced labor and discouraging trade in goods 
        made with forced labor. Malaysia is not a GSP beneficiary.

    Question. Trafficking of domestic workers into the United States by 
foreign diplomats is a significant concern. NGOs report that domestic 
workers in the U.S. on A-3 and G-5 visas (special visas reserved for 
the domestic workers of diplomats and international organization 
employees respectively) have brought more than 29 federal civil cases 
alleging human trafficking by their diplomatic employers. Nearly 2 
years ago, Secretary Kerry announced that the Department of State would 
begin conducting screening interviews with domestic workers on special 
visas to identify abuse. These interviews have not yet begun, and it is 
my understanding that several of our OSCE partners have been conducting 
similar interviews with domestic workers employed by diplomats 
stationed in their countries for several years.

  <diamond> What is the delay in conducting these interviews and what 
        is the schedule for them to take place?

    Answer. The Department's initiative to implement annual in-person 
registration of domestic workers is well underway. The development of 
this program involved a number of factors to include additional 
resources, budgetary discussions, and the need for the system to be 
conducive for the majority of non-English speaking domestic workers 
employed by foreign diplomatic personnel. We will begin in-person 
registration of domestic workers in the Washington, DC, area, which has 
the highest number of workers employed by foreign mission personnel, 
this summer. Once this program is fully operational in Washington the 
project will be implemented in New York City followed by other cities 
throughout the United States. This effort, will serve as an important 
tool to prevent abuse, and to provide domestic workers an avenue in 
which to raise to the Department matters of concern related to their 
employment. Prior to the rollout of the registration system, the Office 
of the Chief of Protocol will be holding a briefing for foreign deputy 
chiefs of missions regarding this new requirement. The Department will 
also host a briefing for domestic workers (without their employers 
present) to discuss with domestic workers their rights and 
responsibilities, contract requirements, visa matters, and resources 
available to them in the event they suffer abuse or mistreatment. The 
Department has engaged with a number of OSCE partners regarding their 
interview processes. Consistent with evolving best practices, the 
Department has determined it would be beneficial to institute a policy 
of in-person registration for domestic workers on an annual basis to 
better monitor their welfare. Many OSCE partners deal with domestic 
worker numbers at a much lower scale within their capitals. The United 
States is unique in that its program will need to address thousands of 
workers, many outside of Washington, DC.

    Question. There have been a number of high profile cases involving 
Indian diplomats who have perpetrated severe forms of labor 
exploitation against their domestic workers, including forced labor and 
human trafficking. Specifically, we have received credible reports that 
India is attempting to circumvent protections in the TVPA for A-3/G-5 
domestic workers by misclassifying these workers as A-2 visa program-
eligible, and that the Department of State is allowing this 
misclassification by issuing the A-2 visas.

  <diamond> What is the Department of State doing to mitigate these 
        risks? And, are the reports about India misclassifying visas 
        accurate?

    Answer. The Department works to ensure that the individuals who 
come to the United States in the personal employ of, and working in the 
private residences 
of, mission members as domestic workers enter the United States with an 
A-3 or 
G-5 visa. The legal requirements for A-3 visas, which are for domestic 
workers, are different than the requirements for A-2 visas. A visa 
applicant may be issued an A-2 visa only if he or she meets all 
requirements for A-2 visa issuance. Broadly speaking, A-2 is a visa 
category for foreign government employees performing official 
activities for a foreign government. All visa applications are 
adjudicated by consular officers based on their individual merits. We 
are happy to provide further briefings, although we cannot discuss 
specific visa cases.

    Question. It is also my understanding that the Government of India 
is preventing family members of individuals trafficked from India to 
the U.S. from reuniting with these trafficking victims here in the U.S. 
Many trafficking victims from India have received T-visas. Their 
immediate family members have received T-derivative visas, allowing 
them to come to the U.S. to join their family member. However, the 
Indian Government has physically blocked victims' families from 
traveling to the U.S. by seizing passports and turning them away from 
the airport. This conduct punishes trafficking victims, who have 
already suffered enormously.

  <diamond> What is the Department of State doing to assure that 
        trafficking victims' families are not prevented from traveling 
        from India to the U.S. to reunite with victims?

    Answer. The Department notes that persons who have been trafficked 
to the United States may be granted T-nonimmigrant status since they 
are already in the United States and therefore do not require a visa. 
The Department is very concerned about the Government of India's June 
2014 policy that effectively prevents survivors of human trafficking in 
the United States from reunifying with their families and from 
receiving the needed support and assistance available from the U.S. 
Government. The Department of State has expressed its concern over this 
policy with the Government of India at various levels in Washington and 
through Mission India, and U.S officials continue to press the Indians 
to repeal this policy.

    Question. The 2014 TIP Report noted that, ``the terrorist 
organization, Boko Haram, had abducted women and girls in the northern 
region of Nigeria, some of whom it later subjected to domestic 
servitude, forced labor, and sex slavery through forced marriages to 
its militants.'' We cannot address the issue of trafficking by Boko 
Haram without tackling the larger gaps that allowed violent extremism 
to take root in northern Nigeria.

  <diamond> Please address current policies and programs that the 
        Department of State is implementing to counter violent 
        extremism in Nigeria, understanding the myriad problems, such 
        as trafficking, that arise in its wake.

    Answer. As President Obama outlined in his remarks on February 19 
during the White House Summit on Countering Violent Extremism, the 
United States will continue to pursue a comprehensive, 
multidisciplinary approach to countering violent extremism, in Nigeria 
and elsewhere. Our approach includes several types of policies and 
programs.
    First, we are continuing to work with the governments of Nigeria 
and neighboring countries to help them build up their security forces 
so that they can push back against Boko Haram and prevent the emergence 
of ungoverned spaces where terrorists find safe haven. We are also 
helping them meet civilian security and humanitarian needs. These 
efforts include support for the creation of the National Information 
Center, which is designed to improve communications between the 
Government of Nigeria and Nigerian citizens, as well as government 
transparency. In addition, we are helping to amplify voices of 
tolerance and peace while confronting the warped ideologies espoused by 
terrorist groups like Boko Haram, especially their attempt to use Islam 
to justify their violence.
    Cameroon, Chad, Niger, and Nigeria were all among the countries at 
the recent Countering Violent Extremism Summit. On the margins of the 
summit, the heads of their delegations held a productive and frank 
discussion with Deputy Secretary Blinken to share concerns and request 
assistance in their efforts to confront the violent extremism of Boko 
Haram. The Department is actively considering their requests and 
continues to emphasize the need for security forces to respect human 
rights, as well as the need for a civilian protection-focused approach 
while countering violent extremism (and Boko Haram specifically).
    The United States is spending more than $15 million on a range of 
programs to help local communities in Nigeria, Niger, Chad, and 
Cameroon counter violent extremism. These programs include funding for 
the Hausa-language Arewa 24 satellite platform in Northern Nigeria, 
centered around a 24 hour satellite channel, and resources for smaller 
programs that are designed to provide positive alternatives, marketable 
skills and civic engagement opportunities to vulnerable youth. In 
addition, some of those programs are designed to support local media 
platforms in providing accurate and timely information and messages 
that promote reconciliation and nonviolence in northern Nigeria, as 
well as the monitoring and documenting of human rights abuses, and an 
early warning system.
    Second, we are working to address the grievances that violent 
extremists exploit, including economic grievances. Boko Haram itself 
has often cited governmental corruption and inequity of economic 
development in northern Nigeria in an attempt to justify the violence 
it perpetrates. And corruption has proven to be a particularly potent 
recruiting tool for Boko Haram. As underscored by President Obama's 
National Security Strategy, the U.S. Government is committed to 
strengthening partnerships that ``promote the recognition that 
pervasive corruption is a severe impediment to development and global 
security.'' This is why we continue to work with the Nigerian 
Government and civil society organizations to institutionalize greater 
transparency and accountability.
    For example, the State Department continues to support a $2.5 
million grass roots-driven anticorruption program in Nigeria. The 
project, entitled Accountable Governance for Justice and Security, is 
supporting our efforts to counter corruption and transnational 
organized crime in West Africa. The overall project goal is to build 
more transparent and accountable governance institutions in both 
countries' justice and security sectors by enhancing institutional 
transparency. Specifically, it is building the capacity of civil 
society and media to more effectively mobilize and equip citizens to 
engage key government entities (police, judiciaries, etc.) in efforts 
to prevent impunity for those who commit acts of corruption and 
transnational crime. Preventing that kind of impunity for corruption is 
important to advancing the rule of law, preventing economic exclusion 
of marginalized groups, and, as a result, countering the appeal of 
extremist messaging. The project is building a more effective civil 
society network in West Africa for best practices sharing and peer 
learning on corruption issues such as stolen asset recovery and the use 
of new crowd-sourcing technologies to fight corruption from the 
grassroots level.
    Third, the United States continues to address the political 
grievances that proponents of violent extremism exploit in Nigeria and 
surrounding countries. As President Obama underscored at the recent 
summit, ``when people are oppressed and human rights are denied--
particularly along sectarian or ethnic lines--when dissent is silenced, 
it feeds violent extremism.'' It creates an environment that is ripe 
for terrorists such as Boko Haram to exploit. To address long-standing 
grievances, we support programs in Nigeria that promote the rule of 
law, fair elections and respect for human rights, including freedoms of 
religion, association, and speech. This support reflects our belief 
that lasting stability and real security require vibrant, inclusive, 
and participatory democracy.
    While information gathering remains a serious challenge in these 
insecure environments, the Department continues to monitor the effects 
of Boko Haram's presence, including trafficking in persons crimes and 
the recruitment and use of child soldiers in these communities.

    Question. In 2013, the Conflict Stabilization Bureau--which is now 
under your leadership--began a scoping exercise for stabilization 
programming in Nigeria. We understand that their initial assessment 
missions and analysis led them to propose an impressive suite of 
program ideas to dampen the appeal of violent extremism in the North, 
but due to security restrictions, were not allowed to proceed with the 
programs. Consequently, the CSO Bureau developed an important and 
creative conflict prevention program in the Middle Belt to address the 
ongoing pastoral/herder conflict. If the USG seeks to make an impact in 
the world's most difficult places, we need to seek opportunities to 
have a presence there when feasible.

  <diamond> Can you please comment on how the Department of State is 
        working to balance our efforts to prevent the spread of violent 
        extremism in light of current security restrictions we place on 
        our frontline State Department and USAID staff?

    Answer. The initiative I recently launched to prevent violent 
extremism is meant to address sociopolitical drivers of violent 
extremism before they metastasize into full-fledged support. As part of 
this initiative the Department will work to identify factors that lead 
communities to violent extremism, identify communities that are 
currently vulnerable to its spread, and suggest ways to take diplomatic 
and programmatic action before it is too late. By definition these are 
communities that are not yet under the sway of violent extremist 
organizations and therefore not yet off limits to the Department's 
diplomats and staff. We would be happy to brief you and your staff on 
this work.
    Where the Department's access to communities and regions has been 
restricted due to security concerns, we can still try to prevent 
further entrenchment of extremism, or its spread, by operating through 
implementing partners who can work more flexibly than U.S. Government 
personnel in nonpermissive environments. We also work through 
international organizations, contracted third-country nationals, and 
third-party governments to close gaps in prevention, mitigation, or 
stabilization efforts that emerge due to security restrictions. Such 
methods work best however, when we diversify our diplomatic and 
programmatic partnerships with a broader range of local stakeholders 
when we do still have access. Developing these relations and contacts 
takes time. We as a government should be careful not to make tradeoffs 
or begin retrenching by limiting programs and travel or by losing our 
contact with local actors too early. Doing so may hasten the very 
outcome we are hoping to avoid. We need to start understanding and 
managing risks earlier, and then use this information to stay deeply 
engaged longer.

    Question. We want to commend the work of the DRL Bureau for its 
forward-looking and strategic surge of assistance to prevent election-
related violence in Nigeria. They did not wait until it was too late to 
begin program work. As we've learned from previous election-related 
assistance efforts, upstream prevention is critical.

  <diamond> Can you please comment on the Department of State's 
        election and post-election programming efforts in Nigeria in an 
        effort to consolidate peace in the critical post-election 
        period, and to lay a foundation for a transitional period?

    Answer. The United States, in a whole of government effort, has 
engaged at the highest levels with Nigerian candidates, political party 
leadership, civil society, business leaders, and other prominent 
individuals to promote peaceful and credible elections in March 2015. 
Through frequent outreach to key stakeholders in Nigeria, including 
government officials and civil society members, the State Department 
has built and/or maintained relationships that will endure beyond the 
elections in March and April. The State Department will continue to 
engage at all levels to advance peaceful democratic goals in Nigeria 
after the elections. Secretary of State Kerry visited Abuja January 25 
and met with both President Jonathan and retired General Buhari, 
reinforcing the importance of pledging publicly to refrain from 
violence. Assistant Secretary of State for African Affairs Linda 
Thomas-Greenfield has traveled frequently to Nigeria and led the U.S. 
delegation to the Bi-National Commission Working Group on elections in 
February 2014. She will lead our diplomatic elections observation in 
Abuja.
    Over 200 mission staff members will conduct election observation 
missions during the general elections currently scheduled for March 28 
and April 11. The mission is closely coordinating its observation 
efforts with embassies from like-minded countries and civil society.
    The Department is funding U.S. elections observers through the 
International Republican Institute (IRI) and the National Democratic 
Institute (NDI) and supported a joint NDI-IRI preelection assessment 
mission from January 15-20, 2015. Our statement after that assessment 
outlined several recommendations on communications, election 
administration, and violence mitigation and steps that various 
stakeholders could undertake to address those recommendations.
    We also are funding a program to strengthen the capacity of target 
communities and leaders to prevent and respond to religious, 
ethnosectarian, and political conflict before, during, and after the 
2015 elections. Additionally, we have a rapid response mechanism in 
place that would enable it to do so, should the situation on the ground 
necessitate a programmatic response.
    The U.S. Government has engaged the Nigerian Government, the 
Independent National Electoral Commission (INEC), and civil society to 
emphasize the need for a clear and well-coordinated elections security 
plan, and to offer assistance. An elections security consultant has 
been deployed to directly support INEC security operations.
    Mindful that inaccurate and sensationalist reporting may contribute 
to post-electoral violence, as in 2011 when an estimated 800 Nigerians 
were killed over the course of 3 days, the U.S. Government funds 
programs to help professionalize the media and strengthen the reporting 
skills of journalists. Additionally, U.S. Government entities have 
partnered on a conflict prevention and mitigation initiative to reduce 
the risk of destabilizing election-related violence in the Niger Delta.
    We have been providing assistance to Nigeria to strengthen its 
electoral systems since 1999, and have been consistently working toward 
this objective since the last Nigerian General Elections in 2011. U.S. 
Government assistance has been provided in three basic areas: (1) 
strengthening of the Independent National Electoral Commission (INEC) 
to organize and carry out elections; (2) training of civil society 
organizations (CSOs) to conduct domestic election observation, engage 
with INEC to ensure proper voter education and information, and that 
electoral processes are fair and adequate; and (3) supporting major 
political parties to enhance their inclusiveness and to develop strong 
issues-based platforms.

    Questions a-b. NGOs and aid workers have decried the lack of 
humanitarian assistance to those who have been displaced and forced to 
flee as refugees due to the Boko Haram crisis. There are reports of 
Boko Haram recruitment in chronically vulnerable areas of northern 
Nigeria, as well as further south.

  <diamond> a. What is the humanitarian outlook for victims of the Boko 
        Haram crisis?

    Answer. Attacks by Boko Haram have increased in intensity and 
brutality over the past months, with significant civilian impacts. Last 
year, State Department analysts estimate Boko Haram killed more than 
5,000 people--doubling in 1 year the death toll attributable to Boko 
Haram since 2009. In addition, Boko Haram-engendered fighting has 
generated an estimated 1 million internally displaced persons (IDPs) 
within Nigeria's borders, and forced more than 200,000 Nigerian 
refugees and other nationals to flee to neighboring Niger, Cameroon, 
and Chad. In fleeing the violence, some have faced a chain of 
displacement, running to one town only to leave once more as Boko 
Haram's reach has grown. These attacks strike at the core of every day 
life--markets, places of worship, and schools--and cast a shadow of 
fear over communities. As attacks spill over Nigeria's borders, the 
stability and security of Cameroon, Chad, and Niger are increasingly 
under threat.
    According to the International Organization for Migration (IOM), 
more than 90 percent of IDPs live in rural and urban host communities 
while the remaining 10 percent are in camps or camp-like sites. 
Displaced populations--both IDPs in Nigeria and refugees in neighboring 
countries--have primarily relied on the generosity of local communities 
to sustain them, stressing the household resources of those who 
themselves may be impoverished and facing food insecurity. The 
Government of Nigeria's National Emergency Management Agency and the 
State Emergency Management Agencies are providing aid to those living 
in IDP camps in Nigeria. The U.N. and other aid agencies are working in 
dangerous and difficult environments in Nigeria and in border areas of 
Cameroon, Chad, and Niger to provide life-saving emergency shelter, 
health, water and sanitation, and protection to IDPs, refugees, and 
other populations of concern affected by the conflict.

  <diamond> b. What are the impediments to the U.S.--in coordination 
        with international NGOs and agencies--in undertaking a more 
        robust response?

    Answer. The United States is deeply concerned by the growing number 
of IDPs and refugees fleeing Boko Haram's horrors, and we have been 
working since the start of the emergency with our international 
partners to respond to their needs. However, the humanitarian response 
faces tremendous challenges and, to date, escalating humanitarian needs 
in the region have not been met with a commensurate increase in 
support.
    The primary challenge in meeting humanitarian needs is the 
widespread insecurity due to the presence of Boko Haram, which has now 
launched attacks beyond Nigeria into neighboring Cameroon, Chad, and 
Niger, including in areas hosting refugees. This insecurity limits the 
ability of relief agencies to work safely in conflict-affected areas. 
In addition, the number of competing large-scale crises across the 
globe have placed an unprecedented level of demand on international aid 
agencies and resulted in funding and staffing shortages. Local capacity 
is also very limited. Although the Government of Nigeria's National 
Emergency Management Agency and the State Emergency Management Agencies 
are assisting with IDPs and conflict-affected people in Nigeria, they 
are only reaching those living in IDP camps, an estimated 10 percent of 
the nearly 1 million IDPs that have fled Boko Haram.
    In FY 2014 and FY 2015, the United States is providing nearly $25 
million in humanitarian assistance in support of aid groups who are 
providing essential protection and emergency assistance to refugees, 
IDPs, and other populations of concern affected by Boko Haram in 
Cameroon, Chad, Niger, and Nigeria. We are continually assessing the 
situation and are committed to providing a robust response to emerging 
needs. In addition, the United States is engaging with the Government 
of Nigeria regarding ways to increase and improve its operational 
capacity to assist IDPs within the country.

    Question. Turning to the Sahel region, the 2015 Omnibus 
appropriation included $3 million for social, educational, and 
vocational programs to assist former slaves in Mauritania, Mali, and 
Senegal to reintegrate into society. Can you elaborate on plans for 
these appropriated funds?

    Answer. We plan to continue our whole-of-government approach to the 
range of actions required: assisting freed slaves to gain livelihood 
skills; pressing for identification of slaves, their liberation, and 
prosecution of slaveowners; and supporting the action plan adopted by 
the government to eradicate the practice.
    We will direct this funding towards support for the reintegration 
and advancement of ex-slaves through an expansion of our existing 
vocational education programs. Lack of marketable skills or viable 
livelihood alternatives prevents many 
ex-slaves from leaving the service of their former masters. We would 
expand the scope of our existing judicial programs beyond the current 
counterterrorism focus to include support for judicial reform and 
education to assist slaves to obtain their freedom, to hold slaveowners 
accountable, and to procure civil status documentation for former 
slaves, which is required to access their full rights as citizens, 
including voting rights.

    Question. Turning to the Sahel region, the 2015 Omnibus 
appropriation included $3 million for social, educational, and 
vocational programs to assist former slaves in Mauritania, Mali, and 
Senegal to reintegrate into society. How does the U.S. Government 
engage with and support abolitionist groups in the Sahel--particularly 
in Mauritania, Mali, Senegal, and Niger?

    Answer. The United States view is well known in Mauritania: all 
sectors of society--to include government, civil society, and religious 
leaders--must work together to end the practice of slavery, as well as 
related social ills that developed over several centuries. Some recent 
examples of our efforts to implement this goal include:

--In December 2014, the Ambassador hosted a 5-hour meeting of ruling 
    party members and representatives of three antislavery NGOs (El 
    Hor, SOS-Esclaves, and IRA) to seek improved cooperation in 
    eradicating slavery.
--We focus our limited humanitarian assistance and even more limited 
    development assistance funding on freed-slave communities and other 
    marginalized groups.
--We also routinely discuss with American investors how their firms can 
    be helpful in suppressing slavery and improving the lives of former 
    slaves.

    In Niger, as part of ongoing dialogue with government and civil 
society and in research for annual reports on human rights and TIP, our 
Embassy in Niamey speaks with entities active against TIP and 
traditional slavery, including Association Timidria, a well-known 
Nigerien NGO, and invites members to events.
    In Senegal, the United States supports abolitionist groups through 
our antitrafficking programming, including the $750,000 Plan 
International project, ``Addressing Children's Basic Rights in 
Senegal.'' This project conducts training for legal system personnel on 
the identification of trafficking victims and the application of 
antitrafficking legislation, developing a standard national referral 
system for trafficking victims, and working with communities to raise 
awareness of trafficking and develop community-based mechanisms in 
response.

    Question. What is the U.S. Government doing to raise concerns about 
recent crackdowns in Mauritania against abolitionist activists, Biram 
Dah Abeid, Brahim Ramdhane (President and Vice President of the 
Initiative for the Resurgence of the Abolitionist Movement in 
Mauritania), and Djibi Sow (President of Kawal e Yelitaare), who were 
sentenced to 2 years in prison on January 15, 2015, for disturbing 
public order and being members of an unregistered organization?

    Answer. We repeatedly urge the appellate court to review the 
convictions and sentencing without delay, and to handle these important 
cases in a fair, impartial, and transparent manner. We communicated 
this message in press statements and other media engagements. We have 
spoken directly to all of Mauritania's senior government leadership, 
including the President, Prime Minister, Foreign Minister, Justice 
Minister and Members of Parliament, about our intense interest in these 
three cases. We have spoken to a wide range of political, religious and 
business leaders about these cases and the pending appeal.

    Question. In 2014, Mauritania approved a ``Roadmap to Combat the 
Consequences of Slavery,'' and created a special tribunal to prosecute 
cases of slavery. However, since its creation, the tribunal has not 
prosecuted a single case of slavery, and local reports suggest that it 
is underresourced. What is the U.S. Government doing, if anything, to 
assist Mauritania with the implementation of the ``Roadmap'' and the 
successful operation of the tribunal?

    Answer. We work closely with the Mauritanian Government and civil 
society to implement the ``Roadmap,'' including establishment of the 
special tribunal. We urged government and civil society to work 
together on implementing the ``Roadmap'' through our frequent high 
level engagements with senior host government and civil society leaders 
and through our public appeals in the Mauritanian media. We brought 
together government and civil society leaders to review and improve on 
their cooperation to implement the ``Roadmap.''
    One aspect of the ``Roadmap'' involves improving social and 
economic conditions of former slaves and their descendants. The USG is 
supporting civil society's to engage on these issues. The Minister of 
Justice and the Solicitor General have committed to appointing judges 
to the new special tribunal who come from the community of slave 
descendants so that they will be especially attuned to handle these 
cases appropriately.
                                 ______
                                 

                Responses of Sarah Sewall to Questions 
                    Submitted by Senator Marco Rubio

    Question. On February 10, I sent a letter to President Obama 
requesting that he appoint a qualified individual to the position of 
Ambassador At Large to Monitor and Combat Trafficking in Persons, which 
has been vacant since November of last year. This post oversees the 
State Department's Trafficking in Person's Office as well as the 
composition of the annual Trafficking in Persons Report.

  <diamond> When do you believe this post will be filled?
  <diamond> What impact does the vacancy of this position have on the 
        U.S.'s efforts to combat trafficking?
  <diamond> What steps have you taken to make sure that the TIP office 
        will have the political clout to prevail in internal 
        discussions at the State Department on tier rankings and other 
        TIP report content?

    Answer. The Department is working closely with the White House on 
this as we all hope to see a new Ambassador at Large nominated and 
confirmed to lead the Office to Monitor and Combat Trafficking in 
Persons as soon as possible. In the interim, the President, Secretary 
Kerry, and the entire Obama administration are committed to combat 
human trafficking.
    The State Department has dedicated staff working on human 
trafficking issues in Washington, DC, and at each U.S. Embassy around 
the world. These dedicated staff will continue to advance the United 
States unwavering commitment to combat this crime through diplomacy and 
programming. We will also produce a Trafficking in Persons Report that 
accurately reflects government efforts to address the crime of 
trafficking in person.
    For nearly 15 years, the TIP Report has galvanized international 
efforts to prosecute traffickers, protect victims, and prevent the 
crime from occurring in the first place.

    Question. One of the only enforcement mechanisms the U.S. 
Government has against countries who perform poorly in combating human 
trafficking is to restrict nonhumanitarian and nontrade related foreign 
aid from countries who receive a Tier 3 ranking in the annual 
Trafficking in Persons Report.

  <diamond> How effective have these sanctions or threat of sanctions 
        been at encouraging states to increase their antitrafficking 
        efforts?
  <diamond> What other tools can the U.S. Government use to encourage 
        states to attempt to meet the standards set forth by the TVPA?

    Answer. The TIP Report shines a spotlight on the deficiencies in a 
country's antitrafficking efforts. The publicity around this report, 
accompanied by Tier 3 designations for countries not making significant 
efforts to fully comply with minimum standards for eliminating 
trafficking, is one of the most powerful tools we have to encourage 
improved efforts. Generally, the rankings themselves help hold 
governments accountable and motivate them to develop policies and 
structures to fight this crime. There is a correlation between tier 
ranking downgrades and states' subsequent enactment of anti-trafficking 
legislation.
    Other available and powerful tools include ongoing diplomatic 
engagement, foreign assistance programming, and multilateral diplomacy. 
U.S. officials engage foreign government officials regularly to 
encourage progress on recommendations in the TIP Report. U.S. 
assistance programs help build capacity for government and 
nongovernment entities to combat human trafficking in their own 
countries. Public diplomacy initiatives help raise awareness. The 
United States continues to work with our partners around the world to 
prosecute and convict more traffickers, identify and protect more 
victims, and better prevent this crime.

    Question. Trafficking of domestic workers by diplomats is a major 
issue around the world, including in the United States. There have been 
a number of high profile cases of diplomats perpetrating severe forms 
of labor exploitation against their domestic workers, including forced 
labor/human trafficking.

  <diamond> What is the State Department doing to mitigate these risks?

    Answer. The fair treatment of domestic workers employed by foreign 
mission personnel in the United States is a matter of great importance, 
and the Department of State is committed to protecting the welfare of 
these domestic workers, both to prevent abuse of these workers and to 
address allegations of mistreatment when they arise. The Department's 
commitment is reflected in a series of measures implemented over the 
past few years to provide increased safeguards for domestic workers.
    The Department periodically sends out circular notes to the 
diplomatic community reminding chiefs of mission of the requirements 
for employing domestic workers, including that foreign missions must 
``pre-notify'' the Department of any prospective domestic worker before 
the worker can be issued a visa. Our process ensures that mission 
leadership is aware of all domestic workers in the employ of mission 
personnel.
    Wage payments to domestic workers must take the form of noncash 
payments directly to the worker--either by check or electronic transfer 
into a bank account in the domestic worker's name--starting after 90 
days of the commencement of their employment. Prior to the domestic 
worker being granted a visa, foreign mission personnel employing the 
domestic worker enter into a written contract that covers duties, hours 
of work, minimum wage (which must be the greater of the minimum wage 
under U.S. federal and state law or the prevailing wage), overtime, and 
transportation (to and from the United States at commencement and 
termination of employment must be paid by the employer). The contract 
must be written in both English and if the domestic worker does not 
understand English, a language understood by the domestic worker. The 
contract must also specify that travel documents, such as a passport, 
must remain in the sole possession of the domestic worker. Employment 
and payment records must be retained for 3 years after the termination 
of employment. In addition, the Department prohibits deductions from 
wages for food and lodging.
    U.S. consular officers abroad are required to interview domestic 
workers applying for visas and are trained to look for indicators of 
human trafficking. Consular officers also are required to confirm that 
all domestic worker visa applicants have received, read, and understand 
the ``Know Your Rights'' pamphlet, which provides information on the 
domestic workers' rights pertaining to their employment, signs of human 
trafficking, an overview of the nonimmigrant visa process, and the 
telephone number for the National Human Trafficking Resource Center 
hotline, which supports multilanguage needs.
    Working with interagency partners, the Department of State led the 
creation of a Wilberforce video summarizing the information in the 
``Know Your Rights'' pamphlet and translated it into 12 languages. The 
video was released in April 2014 and is played in consular waiting 
rooms around the world.
    The Department of State takes seriously any allegation of domestic 
worker abuse, and has established a Trafficking in Persons Unit within 
the Bureau of Diplomatic Security's Criminal Investigations Division. 
This unit works closely with the Department of Justice's Human 
Trafficking Prosecutions Unit as well as with other federal law 
enforcement agencies involved in human trafficking investigations.
    We would be glad to provide a briefing on other steps we take to 
prevent abuse of domestic workers.

    Question. We have received credible reports that India is 
attempting to get around the protections in the TVPA for A-3/G-5 
domestic workers by misclassifying these workers as A-2 visa program 
eligible, and that the Department of State is issuing these A-2 visas 
allowing this misclassification.

  <diamond> Is this true? Please provide this committee with a list of 
        visas granted under the A-2 program for India.
  <diamond> If it's not true, what are you doing to ensure that this 
        does NOT happen?

    Answer. The Department works to ensure that the individuals who 
come to the United States in the personal employ of, and working in the 
private residences 
of, mission members as domestic workers enter the United States with an 
A-3 or 
G-5 visa. The legal requirements for A-3 visas, which are for domestic 
workers, are different than the requirements for A-2 visas. A visa 
applicant may be issued an A-2 visa only if he or she meets all 
requirements for A-2 visa issuance. Broadly speaking, A-2 is a visa 
category for foreign government employees performing official 
activities for a foreign government. All visa applications are 
adjudicated by consular officers based on their individual merits. We 
are happy to provide further briefings, although we cannot discuss 
specific visa cases.

    Question. In 2008, Congress passed the William Wilberforce 
Trafficking Victims Protection Reauthorization Act, Public Law 110-457. 
That law included a provision, ``Section 203(a)(2), requiring the 
Secretary of State to suspend the issuance of 
A-3 or G-5 visas to applicants ``seeking to work for officials of a 
diplomatic mission or an international organization, if the Secretary 
determines that there is credible evidence that one or more employees'' 
have abused or exploited one or more nonimmigrants holding an A-3 or G-
5 visa, where the diplomatic mission or international organization has 
tolerated such actions.'' Despite numerous cases of trafficking by 
diplomats, the State Department has yet to use this tool.

  <diamond> Is the State Department considering suspending India or any 
        other countries from the A-3/G-5 visa program who have 
        displayed the clear pattern of exploitation of domestic 
        workers? If not, why not?

    Answer. Although there has not yet been a case of formal visa 
suspension under the William Wilberforce Act, the Department believes 
that the law has proven to have a significant deterrent value. For 
example, the law has been a factor in persuading foreign governments 
that they and their diplomats need to settle civil cases brought by 
former domestic workers. It also appears to have increased the general 
willingness of foreign missions to cooperate with U.S. investigations 
into alleged abuse and to take steps to ensure compliance with U.S. 
requirements relating to the employment of domestic workers. The 
Department will continue to review every allegation of domestic worker 
abuse that is brought to its attention and will take appropriate action 
in light of this review.
    The Department encourages law enforcement authorities to 
investigate allegations of abuse of domestic workers to the fullest 
extent possible.

    Question. As part of the Federal Strategic Action Plan on Services 
for Victims of Human Trafficking in the United States for 2013-2017, 
the State Department is supposed to develop procedures for in-person 
registration of domestic workers employed by diplomatic personnel in 
Washington DC. It is now 2015 and those interviews have not begun.

  <diamond> What is the status of these procedures? When will the 
        interview program be launched? Why was the original program 
        shrunk from a national interview program to a ``pilot'' in 
        Washington, DC, only? When will interviews be conducted on a 
        national basis?

    Answer. While the Department's initiative to implement annual in-
person registration of domestic workers is well underway, the 
development involved additional resources, budgetary discussions, and 
the need for the system to be conducive for the majority of non-English 
speaking domestic workers employed by foreign diplomatic personnel. We 
will begin in-person registration of domestic workers in the 
Washington, DC, area, which has the highest number of workers employed 
by foreign mission personnel, this summer. Once this program is fully 
operational in Washington, the project will be implemented in New York 
City followed by other cities throughout the United States. This effort 
will serve as an important tool to prevent abuse and will provide 
domestic workers an avenue in which they may raise to the Department 
matters of concern related to their employment. Prior to the rollout of 
the registration system, the Office of the Chief of Protocol will be 
holding a briefing for foreign mission deputy chiefs of mission 
regarding this new requirement, as well as a separate briefing for 
domestic workers (without their employers present) to discuss domestic 
workers rights and responsibilities, and available resources in the 
event of abuse or mistreatment.

    Question. The State Department has also failed to follow up with 
annual briefings for domestic workers and their diplomatic employers in 
New York and Washington, DC.

  <diamond> When will these briefing sessions be convened? Why have 
        these meetings not been held on an annual basis?

    Answer. The Department is committed to combating trafficking in 
persons and continues to conduct briefings for representatives of the 
diplomatic corps to inform them of current requirements regarding the 
employment of domestic workers and to underscore that it is essential 
that we continue our joint efforts to ensure all domestic workers 
understand their rights and protections and that those employing them 
understand their contract obligations and their responsibilities. The 
last such briefing for diplomatic corps representatives was held in 
early summer 2014 and the next briefing is being scheduled for early 
summer 2015.
    A briefing for domestic workers will be held in summer 2015. At 
that time, the workers will be advised of the new annual in-person 
registration requirement.

                                  [all]
</pre></body></html>
